<html>
<title> - NCLB REAUTHORIZATION: STRATEGIES FOR ATTRACTING, SUPPORTING AND RETAINING HIGH QUALITY EDUCATORS</title>
<body><pre>[Senate Hearing 110-154]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-154
 
    NCLB REAUTHORIZATION: STRATEGIES FOR ATTRACTING, SUPPORTING AND 
                    RETAINING HIGH QUALITY EDUCATORS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING STRATEGIES FOR ATTRACTING, SUPPORTING, AND RETAINING HIGH 
                           QUALITY EDUCATORS

                               __________

                             MARCH 6, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
34-052                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, NEW MEXICO            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MARCH 6, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
    Prepared statement...........................................     2
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     4
Darling-Hammond, Ed.D., Linda, Professor of Education, Stanford 
  University, Stanford, California...............................     5
    Prepared statement...........................................     7
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    18
Wilkins, Amy, Vice President, Government Affairs and 
  Communication, Education Trust, Washington, DC, on behalf of 
  Kati Haycock, President, The Education Trust...................    19
    Prepared statement...........................................    21
Burtnett, Pamela, President, Lake County Education Association, 
  Florida........................................................    27
    Prepared statement...........................................    29
Solomon, Jesse, Director, Boston Teacher Residency, Boston, 
  Massachusetts..................................................    32
    Prepared statement...........................................    34
Maguire, Barbara, Teacher and Math Instructional Facilitator, 
  Park Elementary School, Casper, Wyoming........................    37
    Prepared statement...........................................    38
Young, Ph.D., Beverly, Assistant Vice Chancellor of Academic 
  Affairs, Teacher Education and Public School Programs, 
  California State University, Long Beach, California............    40
    Prepared statement...........................................    42
Watkins, Wanda J., Principal, Thurgood Marshall Elementary 
  School, Richardson, Texas......................................    52
    Prepared statement...........................................    54
Schnur, Jon, Chief Executive Officer, New Leaders for New 
  Schools, New York, New York....................................    61
    Prepared statement...........................................    64
Sanders, Ph.D., William, Senior Manager, Value-Added Research and 
  Assessment, SAS Institute, Cary, North Carolina................    71
    Prepared statement...........................................    72

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Leslie Burger, American Library Association (ALA)............    89
    National School Boards Association (NSBA)....................    90
    Linda Darling-Hammond, Stanford University...................    92

                                 (iii)

  


    NCLB REAUTHORIZATION: STRATEGIES FOR ATTRACTING, SUPPORTING AND 
                    RETAINING HIGH QUALITY EDUCATORS

                              ----------                              


                         TUESDAY, MARCH 6, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Bingaman, Clinton, Brown, Gregg, 
Alexander, Isakson, Roberts, and Allard.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. We'll proceed if you would be 
good enough to take a seat. We've got a wonderful group of 
friends here this morning to engage us in terms of the 
conversation about an essential aspect of the whole educational 
system and how we are going to ensure that we are going to get 
good teachers that are going to be inspiring figures to help 
and assist--strengthen the educational system in our No Child 
Left Behind legislation and in schools across the country.
    I think all of us on the panel understand the importance of 
having good teachers and in good teachers, we're thinking about 
not only those that have the very strong understanding in terms 
of the substance of the material that they are teaching young 
children but those special--those additional special qualities 
that I think each and every one of us can think of when we 
think about the teachers in our own lives that have inspired 
us. We want to somehow capture that kind of a magic and make 
sure that it is going to be available to children so that they 
can be inspired in terms of their own kinds of educational 
careers. It's really a challenging undertaking.
    I don't think that any of us minimize the complexity and 
the difficulties in attracting people to the teaching 
profession. I don't think any of us minimize the challenges 
that we are facing in holding good quality people in the 
teaching profession, particularly in the areas of math and 
science.
    We've seen the numbers of those that have gone into the 
profession, the serious numbers that have left teaching and we 
are very, very mindful, in particular, of attracting good 
quality teachers into the underserved areas and keeping them 
there to try and make a difference so that we can see--as we 
are trying to see the achievement and accomplishment and the 
enhancement of education among children in so many of the areas 
of our country and rural and urban areas that are challenged 
with the difficulties of poverty.
    But what we have seen and we'll hear today are a number of 
different efforts that have been made locally that have been 
very successful and that is what we are very interested in 
hearing about. We want to hear about what is working. We are 
all familiar with the challenges that are out there but I think 
on this panel here this morning, we have some very creative, 
imaginative and worthwhile efforts that we can really benefit 
from here in this committee and hopefully the legislation can 
benefit from as well as we are going through and that is our 
real purpose. We want your ideas, we want your suggestions and 
we are going to invite you not only to be part of this meeting 
here this morning but as we continue to draft legislation 
particularly in these areas to get your suggestions and get 
your recommendations and get your ideas. We need your help.
    So I will include my full statement in the record and ask 
Senator Alexander, former head of the Department of Education, 
a member of our committee who has a particular interest on the 
issues on education and could be willing to say a word.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    I welcome our participants in today's roundtable discussion 
on the No Child Left Behind Act. I'm grateful to our colleagues 
on the committee, especially Senator Enzi and his staff for 
helping us to arrange this roundtable.
    One of the major goals of the No Child Left Behind Act is 
to have a capable teacher in every classroom across the Nation. 
We all know that teachers are an especially important factor in 
student learning. They support, encourage, and inspire students 
to do their best and become the best they can be. I'm sure all 
of us here today have had great teachers whom we'll never 
forget.
    International comparisons show that the United States is 
falling behind other countries in student achievement. The 
heart of the problem is the pervasive achievement gap between 
white students and other students. On the most recent test 
comparing students in industrialized nations, white students in 
the United States performed better than the average for all 
countries, while Hispanic and African-American students did 
worse. If we can close this achievement gap, and guarantee all 
students a good education, we can put America back at the top 
of the list.
    Research also shows that the way to close this achievement 
gap is to see that all children have good teachers. One study 
found that having a high quality teacher for 5 years in a row 
can overcome the average 7th grade achievement gap in math 
between lower-income and higher-income children.
    It's unacceptable that America's most at-risk students are 
too often taught by the least prepared, the least experienced, 
and the least qualified teachers. Students in high-poverty and 
high-minority schools are twice as likely to be taught by new, 
inexperienced teachers than students in less-poor and less-
diverse schools. Such teachers are less likely to receive the 
pay and support they need and they often leave their school or 
leave teaching all together, further destabilizing already 
struggling schools.
    The teacher distribution gap exists for many reasons, such 
as poor working conditions, outdated facilities, large class 
sizes, inadequate salaries and benefits, and better support for 
individual teachers. These are all problems that can be solved.
    It's especially troubling, given the global challenges we 
face, that we have such serious teacher shortages in math and 
science. Nearly half the math classes in high-poverty or high-
minority high schools are taught by teachers without a major or 
minor in math or a math-related subject. From 1990 to 2002, the 
percent of public high school math teachers with full 
certification in math decreased from 90 percent to 80 percent. 
We need teachers well-trained in these basic subjects who can 
inspire students to study them.
    Today we're here to discuss some proven strategies and 
innovative approaches to meeting these challenges.
    Obviously, we need to do more to recruit better teachers 
for high need schools. They deserve better financial 
incentives, better training, better opportunities to advance in 
their careers, and stronger support in taking on the added 
challenge of teaching in high-need schools.
    Retention of good teachers is also a problem. In the 2003-4 
school year, nearly 270,000 public school teachers left the 
profession. The percent of teachers leaving the profession has 
risen steadily--from 6.6 percent in 1994 to 8.4 percent in 
2004. In 2004, 28 percent of those who left the field had less 
than 3 years of experience. Workplace conditions, lack of 
support, and lack of opportunities for professional development 
are major considerations in their decisions to leave their 
schools. It's clear that what we're doing now to support and 
retain teachers isn't enough.
    Today, we'll discuss some of the innovative models that 
schools are using to overcome these problems, reduce the 
teacher distribution gap, and strengthen teaching as a 
profession. We'll hear about the importance of strong 
leadership and better strategies for recruiting and retaining 
good principals in schools where they're needed most.
    We'll also hear about how to measure teacher effectiveness. 
There is no scientific formula for what makes a great teacher. 
Excellent educators are produced by combination of factors--
knowledge of content, good classroom preparation, the right 
personality, support from other teachers and communication with 
them, and continuous learning in and outside of the classroom.
    Student test scores are not the only measure. A balanced 
approach is needed, so that we can direct training and other 
resources as effectively as possible.
    All of you here today have much to contribute to this 
discussion of effective strategies to meet these challenges. We 
look forward to your insights, and we appreciate your 
willingness to be here today.
    The roundtable format enables us to hear from more people 
and to have an interactive discussion. After Senator Enzi makes 
his introductory remarks, we'll ask each of our participants to 
describe the strategies that have been effective in their 
communities for recruitment and retention of teachers, and the 
types of support and professional development that are most 
effective in high-need schools.
    Once each witness has responded, we will open up the 
discussion so my colleagues can comment and ask questions. In 
order to keep the discussion moving, we request that all 
participants limit their responses to any question to 1 minute. 
If the need arises, we will vary the format a little to fit the 
discussion.
    Thank you all again for being here today. Now we'll hear 
from Senator Enzi.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thank you, Senator Kennedy. First let me 
thank you for organizing the roundtable in this way. This gives 
us an opportunity to do something Senators don't usually do, 
which is listen instead of talk so I don't want to interfere 
with that mode of operation.
    I'm genuinely looking forward to this and I'd like to say 
it this way--yesterday Senator Bingaman and I and Kennedy and 
Gregg and a number of us who have been working about 2 years on 
how do we keep our brainpower advantage, asked the National 
Academy of Sciences what to do. How do we keep America's 
brainpower advantage? So please tell us in priority order what 
to do. So they did, they gave us 20 specific recommendations. A 
group of Nobel Laureates, teachers, business leaders--Norm 
Augustine headed it and the priority that they put it in, they 
didn't put the Research and Development tax credit first, they 
didn't put more funding for university research first. They put 
K-12 first and they put teaching first within K-12 and that's 
sort of my view of things. I have been going to education 
meetings for a long time.
    My conclusion is that it mostly boils down to parents and 
teachers and principals and everything else is about 5 percent. 
Since I don't quite know how to have a perfect parents program, 
focusing on teachers is very important. I will be interested to 
hear about No Child Left Behind and rural teachers and special 
ed teachers and professional developmental programs.
    I would be especially interested if those of you who have 
so much experience in the education community can help us see 
if we can encourage finding ways to reward outstanding 
teachings and outstanding principals. I know that's not easy to 
do. I've tried it myself. We had a career ladder program in 
Tennessee. We bemoan the fact that teachers and principals 
leave, yet we have a flat pay scale that goes like this and 
until we find a fair way to reward outstanding teachers and 
principals, we won't keep good men and women in the classroom.
    Second, we won't really be able to assign and keep these 
very talented teachers to work on the low performing schools, 
Mr. Chairman, who are only about 15 to 20 percent of the 
schools but are where they really need to go to work. So we 
can't figure that out but perhaps you can help us do that and 
I'll especially be listening to your suggestions about that. 
Thank you.
    The Chairman. I'll ask each of the panelists if they just 
have 3 or 4 minutes. We want to have a real discussion. This is 
really a strategy that we are following with our former Chair, 
Mike Enzi, and it seemed to have worked very well and that is 
the way we will proceed, joined by Senator Gregg and Senator 
Bingaman and now we'll listen.
    I'll introduce four of the witnesses, then hear from those 
four and then introduce the others because people might forget 
the good things I say about our second set of witnesses if I 
introduce nine of you in a row. We will try and keep the 
message as close to the individual as possible.
    So, we will start over here with Professor Linda Darling-
Hammond, Professor of Education at Stanford University. She 
will discuss the importance of professional development and 
strengthening the teacher workforce. She proposes an initiative 
similar to medical school training for education including 
residencies and extensive training.
    After her, we will have Amy Wilkins, who is the Vice 
President of Government Affairs at the Education Trust. Amy 
will discuss the teacher distribution gap and how to get more 
qualified teachers in high-poverty and high-minority schools.
    Then we will hear from Pam Burtnett who is President of the 
Lake County Education Association. Pam was a national board-
certified teacher, 25 years of experience teaching 6th through 
12th grade. She worked 12 years as a Professional Development 
Specialist at the district level, helping to improve teacher 
effectiveness, literacy comprehension and assessment. She also 
was a local site coordinator for the Lake County Effective 
Teaching Center for 10 years. Lets just start with those three 
and we'll start with you, Linda Hammond, please. Thank you.

    STATEMENT OF LINDA DARLING-HAMMOND, ED.D., PROFESSOR OF 
      EDUCATION, STANFORD UNIVERSITY, STANFORD, CALIFORNIA

    Ms. Hammond. Thank you very much. It is a pleasure to be 
here. I'm delighted that you are tackling this hugely important 
topic. I agree with you, Senator Alexander that it's about the 
teachers and the principals and then bringing the parents along 
with that. So I'm going to basically argue for a systemic 
approach and for attention to retention as well as recruiting 
teachers. I've submitted written testimony that outlines a 
number of programs. I'm not going to spend a lot of time at the 
front end talking about them other than to put a couple of 
benchmarks that we could talk about later.
    Let me note that this problem of recruiting and retaining 
teachers has been around since I entered teaching in 1973 on 
the NDEA Act and you may remember that we had a flurry of 
activity back then to try to recruit teachers and in contrast 
to other countries that we think of as peers or competitors 
that have a systemic approach and don't have ongoing shortages 
of teachers. We continue to have this problem and I think it is 
because we have not yet had a sustained coherent effort that 
has lasted over a period of time, in the way that we have for 
the medical profession or the Federal Government has had a set 
of initiatives for 45 years to ensure that we get doctors into 
shortage areas, that we train them in shortage fields, that we 
have medical programs developed in places where they are needed 
and I think we need a similar approach in teaching.
    Other countries that we think of as peers that are high 
achieving have equal salaries for teachers with additional 
stipends for those that go to high-need areas. They have 
universal teacher education at State expense, high quality, 
including a year of clinical practice where you actually learn 
how to teach in schools that are organized for that purpose. 
Mentoring for every beginning teacher is the norm in other high 
achieving countries and ongoing professional development, which 
usually takes place in about 10 to 15 hours a week, where 
teachers work with each other on planning lessons and so on. So 
that's sort of an image where I think we need to go as we 
develop systems in this country.
    By contrast, we have very unequal salaries and they tend to 
be lower where the kids are needier. We have unequal working 
conditions. We have teachers with varying degrees of 
preparation and mentoring.
    The four factors that research finds matters most are 
salaries, working conditions, the degree of preparation--
teachers who are better prepared stay in teaching longer. Those 
who have, for example, student teaching and know about learning 
are twice as likely to stay in teaching after the first year. 
And mentoring--those who get a coach who works with them in the 
first year of teaching are much more likely to stay in 
teaching. Retention turns out to be one of the biggest problems 
so we have at least 30 percent of teachers leaving over the 
first 5 years. It's more in cities and poor rural areas. The 
costs of attrition are estimated at about $15,000 per person 
who leaves. So for non-retirement attrition in this country, 
we're spending about $2.2 billion a year just to deal with the 
churn mostly of beginning teachers who come in and out.
    When our strategies or solutions for teacher shortages do 
not give teachers enough preparation or mentoring, that just 
adds to the churn and adds to the cost of attrition.
    So in my written testimony, I mention a lot of programs. I 
won't spend time talking about all of them but these are places 
that have made a significant difference in recruiting and 
retaining teachers all across the country.
    I talk about the North Carolina Teaching Fellows, which is 
a program that has brought thousands of teachers in, high 
ability teachers who have stayed at rates of over 75 percent 
over 7 years and disproportionately in math and science and in 
other shortage areas. I talk about programs in California that 
have provided bonuses to national board-certified teachers for 
working in low performing schools that have successfully 
brought those accomplished teachers into districts and schools 
where they might not otherwise have been and programs that have 
put resources for incentives into hard-to-staff schools for 
improving working conditions, providing hiring bonuses and a 
variety of other strategies to both make those places better 
places to work and recruit accomplished teachers to those 
schools.
    I talk about programs like the Urban Teacher Residencies in 
Chicago and Boston--we have Jesse here to talk about the Boston 
program--which are creating very strong schools in inner-city 
neighborhoods that are staffed by mentored teachers that are 
excellent places to teach high-need kids well. And then 
training teachers there solves one of our biggest problems 
because to teach kids who have large levels of needs, you need 
to be in a place where master teachers are showing you how to 
do it. Those programs and professional development school 
programs that some universities have started could lead us into 
ways to develop an engine of supply for highly prepared 
teachers for high-need districts and also reward those mentor 
teachers who work there.
    I talk about beginning teacher mentoring programs in States 
like Connecticut and California that ensure that all teachers 
get high quality mentoring and have reduced attrition as well 
as in districts where unions and management have negotiated 
programs that work for reducing attrition and ensuring greater 
competence.
    The Chairman. Let me give you just a few seconds to wrap 
up, please.
    Ms. Hammond. And finally, in my written testimony, I 
outline sort of a marshal plan for teaching, which for the cost 
of about 1 percent of the current engagement in Iraq, would I 
think, give us the capacity to ensure that we have well 
qualified teachers in all kinds of communities, through service 
scholarships, recruitment incentives for accomplished teachers 
to go into high-need schools, high quality preparation, 
universal mentoring and a teacher performance assessment. So I 
think that a systemic approach is possible and those are the 
elements I think would be very helpful.
    [The prepared statement of Dr. Hammond follows:]

           Prepared Statement of Linda Darling-Hammond, Ed.D.

    With increased recognition that expert teachers are perhaps the 
most fundamental resource for improving student learning, there is 
growing interest in figuring out how to recruit and retain strong 
teachers, especially in high-need schools. Unfortunately, unlike other 
industrialized nations, especially those that are the highest-
achieving, the United States lacks a systematic approach to recruiting, 
preparing, and retaining teachers. With few governmental supports for 
preparation or mentoring, teachers in the United States enter:

    <bullet> with dramatically different levels of training--with those 
least prepared teaching the most educationally vulnerable children,
    <bullet> at sharply disparate salaries--with those teaching the 
neediest students earning the least,
    <bullet> working under radically different teaching conditions--
with those in the most affluent communities benefiting from class sizes 
under 20 and a cornucopia of materials, equipment, specialists, and 
supports, while those in the poorest communities teach classes of 40 or 
more without adequate books and supplies,
    <bullet> with little or no mentoring or on-the-job coaching in most 
communities to help teachers improve their skills.

    Meanwhile, higher-achieving countries that rarely experience 
teacher shortages (such as Finland, Sweden, Norway, Netherlands, 
Germany, France, Australia, New Zealand, Japan, Taiwan, Singapore) have 
made substantial investments in teacher training and equitable teacher 
distribution in the last two decades. These include:

    <bullet> High-quality graduate-level teacher education, at 
government expense, including a year of practice teaching in a clinical 
school connected to the university,
    <bullet> Mentoring for all beginners in their first year of 
teaching from expert teachers, coupled with other supports like a 
reduced teaching load and shared planning,
    <bullet> Equitable salaries (often with additional stipends for 
hard-to-staff locations) which are competitive with other professions, 
such as engineering,
    <bullet> Ongoing professional learning embedded in 10 or more hours 
a week of planning and professional development time.

    In order to make headway on the issue of recruiting and retaining 
teachers where they are needed most, a systemic approach is needed. 
There are a number of States and districts that have undertaken 
successful approaches that should be emulated. Ultimately, a national 
teacher supply policy is critically needed.\1\ To begin, the nature of 
the problem must be understood. In particular,
---------------------------------------------------------------------------
    \1\ For a fuller treatment of the design of a national teacher 
supply policy, see L. Darling-Hammond and G. Sykes (2003). Wanted: A 
national teacher supply policy for education: The right way to meet the 
``highly qualified teacher'' challenge. Educational Policy Analysis 
Archives, 11 (33). http://epaa.asu.edu/epaa/v11n33/.

    1. There is not an overall shortage of teachers in the United 
States. In fact there are many more certified teachers in the Nation 
than there are positions.\2\ There is, however, a maldistribution of 
qualified teachers across States and districts--and a shortage of 
teachers willing to work for low wages under poor working conditions. 
Thus, part of the problem is how to equalize conditions across 
districts and schools and attract teachers to the places where they are 
needed. The strategies of States and districts that have turned around 
shortages are detailed below. They include increased salaries alongside 
increased standards, stronger pipelines to teacher preparation, and 
improved teaching conditions, including mentoring and professional 
development.
---------------------------------------------------------------------------
    \2\ In California, for example, there are about 1.3 million 
credentialed teachers and about 280,000 teaching positions. Nationally, 
of the estimated 200,000 teachers hired annually, no more than 125,000 
are hired from the new teacher pool; the remainder are individuals who 
are moving or returning to teaching from the reserve pool. The number 
of new teachers currently prepared each year--roughly 190,000--is more 
than enough to satisfy this demand. Furthermore, despite shortfalls in 
some areas, the United States annually produces many more new teachers 
than its schools hire. Only about 70 percent of newly prepared teachers 
enter teaching jobs immediately after they graduate, and many report 
that they cannot find jobs.
---------------------------------------------------------------------------
    2. There are specific fields, such as mathematics, science, special 
education, and teaching of English as a second language, which have 
real shortages and where strategic recruitment incentives are needed. 
Unlike medicine, where the Federal Government funds medical schools to 
grow programs in high-need fields and provides service scholarships for 
candidates to go to into these fields and practice in high-need 
locations, there is currently no such national policy in teaching. 
Usually, preparation standards are lowered instead, which contributes 
to higher attrition (see below), thus exacerbating rather than solving 
the problem. It is critical to develop programs, like those described 
below, that increase the probability recruits will succeed and stay in 
the places they are needed, rather than adding to the revolving door of 
in-and-out recruits.
    3. Retaining teachers is a far larger problem than recruiting new 
ones and a key to solving teacher ``shortages.'' The main problem is an 
exodus of new teachers from the profession, with more than 30 percent 
leaving within 5 years, and higher rates of turnover in lower-income 
schools. An additional problem is the flight of teachers from less-
affluent schools to more-affluent schools. This is strongly tied to 
working conditions--including administrative support and strong 
colleagues as well as tangible teaching conditions and salaries. 
Research also finds that teachers leave the profession much faster if 
they have less preparation before they enter and less mentoring support 
when they arrive. The costs of teacher attrition are very high--
estimated at $15,000 on average per recruit who leaves, or at least $2 
billion annually.\3\ These funds should be spent strategically on 
stronger teaching supports, rather than wasted on a fast-spinning 
revolving door.
---------------------------------------------------------------------------
    \3\ A 2000 study in Texas, estimated the costs of turnover at 
between $8,000 and $48,000 per recruit who leaves, depending on the 
cost model used (Texas Center for Educational Research, 2000). The 
organizational costs include those for termination, substitutes, 
searching, managing the selection process, new training, and lost 
skills. The study found that only 17 percent of this attrition was due 
to retirement. More recent estimates from personnel administrators put 
the range of costs between $12,000 and 20,000, with most around 
$15,000. National turnover rates are about 6-8 percent annually, with 
about 20 percent of that due to retirements. This amounts to about 
150,000 non-retirees leaving a year, at a cost of about $2.25 billion.

    Below I describe specific programs that have been successful in 
addressing these issues. States and urban districts that have 
successfully transformed their teaching forces have used a 
comprehensive approach, including increasing salaries and standards 
simultaneously, pursuing aggressive recruitment and hiring, using 
subsidies to underwrite teacher preparation, creating teacher education 
pipelines, ensuring mentoring for beginners, and supporting 
professional development and improved teaching conditions. Several 
examples of these successes are included in Appendix A. Finally, I 
outline a proposal for a Marshall plan to improve teaching, which, for 
the price of less than 1 percent of the costs of the intervention in 
Iraq, could solve teacher shortages and establish the foundation for a 
teaching quality system in the United States that would provide a 
reliable stream of well-prepared teachers to the places they are most 
needed.

    RECRUITING WELL-PREPARED HIGH-NEED TEACHERS WHO STAY IN TEACHING

    One of the most successful teacher recruitment initiatives over two 
decades is the North Carolina Teaching Fellows program. Funded by the 
State legislature since 1986, the Fellows program provides $26,000 in 
service scholarships ($6,500 per year for 4 years) to 500 high-ability 
high school seniors a year who enroll in intensive 4-year teacher 
education programs throughout the State, selected for their quality and 
augmented with additional training. The Fellows must teach for at least 
4 years in North Carolina schools. The program has supplied over 8,000 
teachers for the State's schools, a disproportionate share of whom are 
males, members of underrepresented minority groups, and in high-need 
fields like math and science. An evaluation following fellows over 7 
years found that 75 percent were still teaching in the public schools 
in the State, and many of the remainder had advanced to educational 
leadership positions in schools or districts (Norris, 1998). Fellow 
felt very well-prepared, and principals reported that the Fellows' 
first year classroom performance far exceeded that of other new 
teachers in every area assessed (Berry, 1995).
    A similar program in California, the Governor's Teaching 
Fellowships, targeted $20,000 service scholarships for high-ability 
college graduates who would prepare to teach in under-performing 
schools in particular, and recruited candidates entering 1-year 
graduate level teacher education programs. This program was successful 
in providing a supply of high-ability, well-trained candidates to high-
need schools in a short-time period.

      RECRUITING EXPERT VETERAN TEACHERS TO HARD-TO-STAFF SCHOOLS

    California also has launched a program to attract National Board 
Certified teachers to high-need schools by paying a $20,000 bonus--paid 
out over 4 years--to teachers who become Board-Certified and teach in 
underperforming schools. This has drawn a number of accomplished 
teachers to these schools. Like the Connecticut BEST program, teachers 
who achieve the high standards set on the National Board's assessment 
of teacher performance have been found in most studies to be more 
effective in producing student achievement gains.\4\
---------------------------------------------------------------------------
    \4\ Bond, L., Smith, T., Baker, W., & Hattie, J. (2000). The 
certification system of the National Board for Professional Teaching 
Standards: A construct and consequential validity study (Greensboro, 
NC: Center for Educational Research and Evaluation); Cavaluzzo, L. 
(2004). Is National Board Certification an effective signal of teacher 
quality? (National Science Foundation No. REC-0107014). Alexandria, VA: 
The CNA Corporation; Goldhaber, D., & Anthony, E. (2005). Can teacher 
quality be effectively assessed? Seattle, WA: University of Washington 
and the Urban Institute; Smith, T., Gordon, B., Colby, S., & Wang, J. 
(2005). An examination of the relationship of the depth of student 
learning and National Board certification status (Office for Research 
on Teaching, Appalachian State University). Vandevoort, L. G., Amrein-
Beardsley, A., & Berliner, D. C. (2004). National Board certified 
teachers and their students' achievement. Education Policy Analysis 
Archives, 12 (46), 117.
---------------------------------------------------------------------------
    Many studies find that districts paying less than the market wage 
in their local labor market tend to experience continual shortages, and 
that raising salaries to market levels can quickly transform the hiring 
pool if there is also a well-functioning hiring system. (See the 
examples of specific initiatives in San Diego, New Haven, CA, and New 
York City in the Appendix.) Some States have eliminated shortages in 
urban and poor rural areas by equalizing salaries so that poorer 
districts can compete in the labor market for teachers. (See the 
example of Connecticut's strategy in the Appendix.) Some districts have 
sought to use salary incentives to attract teachers to hard-to-staff 
schools, a strategy that has had mixed success in the few places that 
have tried it. In some places, this has proved a modestly productive 
approach. In others where overall salaries are inadequate and working 
conditions are poor, bonuses have not been enough to change the 
district pool or entice teachers to schools that are poorly run and 
dysfunctional. However, re-designing schools so that they are much more 
supportive of teaching and learning--including creating small, 
innovative high schools to replace failing factory model schools--and 
improving working conditions in hard-to-staff schools (by reducing 
class size, improving leadership, infusing resources for strong, 
curriculum innovations) has been successful in many districts. 
California created the Teachers as a Priority Program, providing 
funding for improved working conditions in hard-to-staff schools to 
attract and keep qualified teachers in these schools. The program 
supported class size reduction, curriculum reforms, mentoring, bonuses 
and other interventions to redistribute teachers.

  CREATING HIGH-QUALITY TEACHER EDUCATION PROGRAMS IN HIGH-NEED AREAS

    Most important are models that can simultaneously improve teacher 
competence and retention and meet pressing supply needs. Because many 
teacher candidates choose to teach where they grew up or went to 
college, it is important to have strong programs in hard-to-staff urban 
and rural locations. This is why alternative programs, when they are 
well-designed and offer sufficient training, are useful for building 
teacher supply, since they recruit and train candidates specifically 
for the districts that sponsor them.
    However, many alternative programs, and some traditional programs, 
fail to provide one of the most important elements of preparation--the 
opportunity to learn under the direct supervision of expert teachers 
working in schools that serve high-need students well. Teaching cannot 
be learned from books or even from being mentored periodically. 
Teachers must see expert practices modeled and must practice them with 
help. However, student teaching is too often reduced or omitted, or it 
is in classrooms that do not model expert practice, or it is in 
classrooms that do not serve high-need students--and what is learned 
does not generalize to other schools. This fundamental problem has to 
be tackled and solved if we are to prepare an adequate supply of 
teachers who will enter urban or poor rural classrooms competent to 
work effectively with the neediest students and confident enough to 
stay in teaching in these areas.
    Poorly designed alternatives do not keep teachers in teaching. 
Studies find that teachers leave at much higher rates if they lack key 
elements of preparation. For example, teachers without student teaching 
experience or preparation in curriculum, teaching methods, learning, 
and child development leave at twice the rate as teachers who have had 
this kind of training.\5\ A recent study \6\ that documented these 
outcomes in New York City showed that students achieved less when 
taught by new uncertified or alternatively certified teachers and that 
these teachers left at higher rates. For example, between 2000 and 
2004, more than 50 percent of New York City Teaching Fellows and other 
nontraditional entrants had left by their fourth year, along with 85 
percent of Teach for America teachers. This compared to only 37 percent 
of college prepared teachers. Given the costs of attrition, these high 
turnover rates cost the city more than $50 million.
---------------------------------------------------------------------------
    \5\ For a review, see Darling-Hammond, L. & Sykes, G. (2003). 
Wanted: A national teacher supply policy for education: The right way 
to meet the ``highly qualified teacher'' challenge. Educational Policy 
Analysis Archives, 11 (33). http://epaa.asu.edu/epaa/v11n33/; Henke, 
R., Chen, X., & Geis, S. (2000). Progress Through the Teacher Pipeline: 
1992-1993 College Graduates and Elementary/Secondary School Teaching As 
Of 1997. Washington, DC: National Center for Education Statistics, U.S. 
Department of Education.
    \6\ Boyd, D., Grossman, P., Lankford, H., Loeb, S., & Wyckoff, J. 
(2006). How changes in entry requirements alter the teacher workforce 
and affect student achievement. Education Finance & Policy, 1 (2); 176-
216.
---------------------------------------------------------------------------
    There are two kinds of initiatives that have tackled this problem 
successfully. One alternative is the Urban Teacher Residency designed 
in Chicago that has created new schools or completely re-staffed 
existing schools with highly expert mentor teachers and then placing 
mid-career recruits in the classrooms of these mentor teachers for a 
year while they complete coursework in curriculum, teaching, and 
learning at local universities. Rather than trying to teach without 
seeing good teaching in a sink or swim model, these recruits watch 
experts in action and are tutored into accomplished practice. These 
recruits receive a $30,000 salary during this year and a masters degree 
and credential at the end of the year. They are selected because they 
want to commit to a career in urban public school teaching and they 
pledge to spend at least 4 years in city schools. This model has 
already shown high retention rates in teaching and strong performance 
by graduates, who now staff other turnaround schools in the city.
    A similar model, launched by a number of universities is the 
professional development schools model. Like teaching hospitals in 
medicine, these models partner universities with school sites that 
exhibit state-of-the-art practice and train novices in the classrooms 
of expert teachers while they are completing coursework that helps them 
learn to teach diverse learners well. Many of these new models are 
located in urban schools, creating a pipeline of teachers well-prepared 
to teach in these districts. Highly-developed models have been found to 
increase teacher effectiveness and raise student achievement.\7\
---------------------------------------------------------------------------
    \7\ For a summary of studies, see L. Darling-Hammond & J. 
Bransford, Preparing Teachers for a Changing World: What Teachers 
Should Learn And Be Able To Do. San Francisco: Jossey-Bass, 2005, pp. 
415-416.
---------------------------------------------------------------------------
    Such programs can solve several problems simultaneously--creating a 
pipeline of committed teachers who are well-prepared to engage in best 
practice for children in high-need schools, while creating 
demonstration sites that serve as models for urban teaching and teacher 
education.

                         HIGH QUALITY MENTORING

    Retention is at least as important to solving teacher supply as 
recruitment. With 30 percent of new teachers leaving within 5 years 
(and more in urban areas), the revolving door cannot be slowed until 
the needs for beginning teacher support are addressed. Other high-
achieving countries invest heavily in structured induction for 
beginning teachers: they fund schools to provide released time for 
expert mentors and they fund other learning opportunities for 
beginners, such as seminars, visits to other teachers' classrooms, and 
joint planning time. Such strategies have also been found effective in 
reducing beginning teacher attrition in the United States. A critical 
component is strong mentoring, which includes on-the-job observations 
and coaching in the classroom as well as support for teacher planning 
by expert veterans.\8\ If even half of the early career teachers who 
leave teaching were to be retained, the Nation would save at least $600 
million a year in replacement costs.
---------------------------------------------------------------------------
    \8\ A number of studies have found that well-designed mentoring 
programs improve retention rates for new teachers along with their 
attitudes, feelings of efficacy, and their range of instructional 
strategies (California Commission on Teacher Credentialing, 1992; Karge 
and Freiberg, 1992; Kolbert and Wolff, 1992; Darling-Hammond & Sykes, 
op. cit.; Luczak, op. cit.)
---------------------------------------------------------------------------
    Districts like Cincinnati, Columbus, and Toledo, Ohio, Rochester, 
New York, and Seattle, Washington have launched Peer Assistance and 
Review Programs, which have sharply reduced attrition rates of 
beginning teachers by providing expert mentor teachers with release 
time to coach beginners in their first year on the job and evaluate 
them at the end of the year. Each program was established through 
collective bargaining and is governed by a panel of teachers and 
administrators. The governing panel selects consulting teachers through 
a rigorous evaluation process that looks for teaching skills and 
mentoring abilities. These mentors, or consulting teachers, work in the 
same subject area as those that they are assisting. They visit, 
observe, and consult with the beginning teachers at least weekly, and 
they meet regularly with one another to develop their skills as mentors 
and to share resources and ideas. In all of these districts, beginning 
teacher attrition has fallen as a result of this program: In each case, 
first year teachers leave at rates of no more than 5 percent--most 
because they have been discontinued through the evaluation process 
rather than because they have become discouraged. Some of the districts 
previously experienced beginning teacher attrition rates as high as 30 
percent or more.\9\
---------------------------------------------------------------------------
    \9\ National Commission on Teaching and America's Future, What 
Matters Most: Teaching for America's Future. NY: Author, 1996.
---------------------------------------------------------------------------
    The additional benefit of these and other mentoring programs is the 
new lease on life for many veteran teachers as well. Expert veterans 
need ongoing challenges to remain stimulated and excited about staying 
in the profession. Many say that mentoring and coaching other teachers 
creates an incentive for them to remain in teaching as they gain from 
both learning from and sharing with other colleagues.
    On the State level, induction programs that are tied to high 
quality preparation can be doubly effective. California's Beginning 
Teacher Support and Assessment (BTSA) Program, which provides mentors 
and other supports for beginning teachers in their first 2 years, has 
shown that carefully designed mentoring systems can produce rates of 
beginning teacher retention exceeding 90 percent in the first several 
years of teaching. The State provides $3000-$4000 in matching funds per 
beginning teacher to support this program.
    Connecticut--Beginning Educator Support and Training (BEST) program 
for beginning teachers has also stemmed attrition and improved 
competence. It requires districts who hire beginning teachers to 
provide them with mentors who are also trained in the State teaching 
standards and portfolio assessment system that were introduced as part 
of reforms launched in 1986. (See Appendix A for a fuller discussion of 
the reforms, which also greatly boosted supply and quality through 
subsidies for preparation, increased salaries and standards, and 
extensive professional development.) Beginning teachers must 
demonstrate that they can teach through a performance assessment 
modeled after the National Board for Professional Teaching Standards 
assessment. Studies in Connecticut have reported that teacher education 
and induction programs have improved because of the feedback from the 
assessment; beginning teachers and mentors also feel the assessment has 
helped them improve their practice as they become clearer about what 
good teaching is and how to develop it. Beginning teacher scores on the 
BEST portfolio have been found to predict teacher effectiveness in 
terms of influence on student learning gains.\10\ Thus, the program 
enhances teacher competence and effectiveness as it shapes and improves 
preparation and mentoring.
---------------------------------------------------------------------------
    \10\ Wilson, M. & Hallum, P.J. (2006). Using Student Achievement 
Test Scores as Evidence of External Validity for Indicators of Teacher 
Quality: Connecticut's Beginning Educator Support and Training Program. 
Berkeley, CA: University of California at Berkeley.
---------------------------------------------------------------------------
    Although requirements for beginning teacher induction have 
proliferated, with more than 30 States now requiring some kind of 
induction program, many are not funded and do not provide the kind of 
mentoring and coaching described here.\11\ Two recent analyses of a 
large-scale national teacher survey revealed that the most important 
predictor of teacher's ongoing commitment to the profession is the 
quality of the mentoring and support they receive, rather than the mere 
existence of a program, which often does not provide intensive coaching 
or planning support.\12\
---------------------------------------------------------------------------
    \11\ (NCTAF, 2003).
    \12\ Ingersoll, 1997b; Luczak, 2005.
---------------------------------------------------------------------------
    WHAT CAN THE FEDERAL GOVERNMENT DO? A MARSHALL PLAN FOR TEACHING

    A strategic Federal role is needed to create an infrastructure for 
strong teaching across the country. Individual innovative programs at 
the local level will not alone solve the problems we face. Federal 
strategies for enhancing the supply of teachers have precedents in the 
field of medicine as well as teaching. Since 1944, Washington has 
subsidized medical training to meet the needs of underserved 
populations, to fill shortages in particular fields, and to build 
teaching hospitals and training programs in high-need areas. This 
consistent commitment has contributed significantly to America's world-
renowned system of medical training and care.
    Intelligent, targeted subsidies for preparation coupled with 
stronger supports at entry and incentives for staying in high-need 
schools are needed to ensure that all students have access to teachers 
who are indeed highly qualified. A serious national teacher quality and 
supply policy could be accomplished for $3 billion annually, less than 
1 percent of the more than $300 billion spent thus far in Iraq, and, in 
a matter of only a few years, could build a strong teaching force that 
would last decades.
    In the long run, these proposals would save far more than they 
would cost. The savings would include the more than $2 billion now 
wasted annually because of high teacher turnover, plus the even higher 
costs of grade retention, summer school, remedial programs, lost wages 
and prison costs for dropouts \13\ (increasingly tied to illiteracy and 
school failure)--all of which could be substantially lowered if we 
committed to ensuring strong teachers in the schools that most need 
them. Such a plan should focus on:

    \13\ The costs of dropouts, in terms of lost wages and taxes, 
health and social welfare costs, plus incarceration costs (most inmates 
are high school dropouts and more than half are functionally 
illiterate) are estimated to exceed $50 billion annually.
---------------------------------------------------------------------------
    <bullet> Increasing the supply and quality of teachers targeted to 
high-need fields and locations through:

    1. Service scholarships for entering teachers, with special focus 
on high-need fields and locations (40,000 @ $25,000 each = $1 billion 
annually).
    2. Recruitment incentives for expert, experienced teachers to teach 
in high-need schools (50,000 teachers x $10,000 stipends ($500 million) 
+ $300 million to improve teaching conditions in high-need schools = 
$800 million).
    3. Improved preparation for teaching high-need students and for 
programs in high-need areas ($500 million, including $200 million for 
state-of-the-art ``teaching schools'' partnered with universities in 
hard-to-staff communities).

    <bullet> Improving retention and mobility of well-qualified 
teachers through:

    4. Mentoring for all beginning teachers through investments in 
State and district mentoring programs (150,000 @ $4000 each = $600 
million).
    5. A high-quality, nationally available teacher performance 
assessment to guide training, improve quality, and facilitate 
interstate mobility ($100 million).

INCREASING TEACHER SUPPLY AND QUALITY IN HIGH-NEED FIELDS AND LOCATIONS

    While most States have long had surpluses of candidates in 
elementary education, English, and social studies, there are inadequate 
numbers of teachers trained in high-need areas like mathematics, 
physical science, special education, bilingual education and English as 
a Second Language (ESL), and there are problems getting well-prepared 
teachers to where they are most needed. Shortages in poor urban and 
rural schools are usually met by lowering standards--an especially 
dysfunctional response because the students in these schools need the 
most highly skilled teachers if they are to close the gap, and because 
high turnover rates for untrained teachers cost urban districts 
hundreds of millions of dollars in attrition costs. Because fully 
prepared beginning teachers are twice as likely to stay in teaching as 
those who enter without complete training, district shortages could be 
reduced rapidly if such districts could hire better prepared teachers 
(as fewer would need to be hired each year to replace those who left 
and a more adequate supply would be available). Two kinds of targeted 
incentives are needed to attract qualified teachers to schools and 
areas that historically have been underserved.

    1. First, the Federal Government should maintain a substantial, 
sustained program of service scholarships that completely cover 
training costs in high-quality pre-service or alternative programs at 
the undergraduate or graduate level for those who will teach in a high-
need field or location for at least 4 years. (After 3 years, candidates 
are much more likely to remain in the profession and to make a 
difference for student achievement.) While some Federal grants are 
currently available, there are too few of them and they are too small 
in scope to serve as an adequate incentive to candidates.
    Service scholarships (as opposed to post hoc forgivable loans) can 
be targeted to high-ability candidates who might not otherwise enter 
teacher preparation. These incentives can be used proactively to 
recruit candidates to the fields and locations where they are needed. 
Nearly all of the vacancies currently filled with emergency teachers 
could be filled with talented, well-prepared teachers if 40,000 service 
scholarships of up to $25,000 each were offered annually. These should 
be designed to cover up to 2 years of undergraduate or graduate teacher 
education, including alternative programs for mid-career recruits, and 
should be:

    <bullet> Allocated on the basis of academic merit and indicators of 
potential success in teaching, such as perseverance, capacity and 
commitment;
    <bullet> Targeted especially to areas of teaching shortage as 
defined nationally and by individual States; and
    <bullet> Awarded in exchange for teaching for 4 years in priority 
schools, defined on the basis of poverty rates and educational needs 
(e.g. language minority status).

    2. Second, recruitment incentives for high-need schools are also 
needed to attract and keep expert, experienced teachers in the schools 
where they are most needed, both to teach and to mentor other teachers. 
This requires a combination of salary incentives and improvements in 
working conditions, including the redesign of dysfunctional school 
organizations to support smaller pupil loads, and time for teachers to 
work and plan together.
    Federal matching grants to States and districts should provide 
incentives for the design of innovative approaches to attract and keep 
accomplished teachers in priority low-income schools, through 
compensation for accomplishment and for additional responsibilities, 
such as mentoring and coaching. Five-hundred million dollars would 
provide $10,000 in additional compensation for 50,000 teachers annually 
to be allocated to expert teachers in high-need schools through State- 
or locally-designed incentive systems, recognizing teacher expertise 
through such mechanisms as National Board Certification, State or local 
standards-based evaluations, and carefully assembled evidence of 
contributions to student learning. (Matched by State and local 
contributions, this program would provide incentives to attract 100,000 
accomplished teachers to high-poverty schools.)
    To keep high-quality teachers in high-poverty communities, schools 
need to offer working conditions that support teacher and student 
success. An additional $300 million should be allocated on a State/
district matching grant basis to improve teaching conditions, 
including, as warranted, smaller classes and pupil loads, 
administrative supports for necessary materials and supplies, and time 
for teacher planning and professional development--all of which attract 
and keep teachers in schools.
    3. Third, just as the Federal Government has undertaken in 
medicine, the Marshall plan should fund improved preparation for 
teaching high-need students and for programs in high-need areas. For 
this purpose, the plan would allocate $300 million to improve 
preparation for teaching reading and literacy skills at all grade 
levels, mathematics and science, special education, and English 
language learners.
    An additional $200 million of these funds should be targeted for 
state-of-the-art teacher education programs in hard-to-staff 
communities that incorporate ``teaching schools'' partnered with 
universities, including urban teaching residencies and professional 
development school models. In these programs, candidates would take 
coursework focused on teaching challenging content to diverse learners 
while engaged in practice teaching in schools staffed by expert 
teachers and designed to model state-of-the-art practice. Since many 
teachers have a strong preference to teach close to where they grew up 
or went to school, this approach would also enhance the pool of local 
college graduates prepared to teach in their communities. Funding for 
200 programs at $1,000,000 per year per program (for 5 years), each 
serving an average of 150 candidates annually, would supply 30,000 
exceptionally well-prepared recruits to urban teaching each year who 
would provide long-term commitment and leadership in these districts.

                IMPROVING TEACHER RETENTION AND MOBILITY

    Most of the teacher supply problem in the United States is actually 
a problem of retention. Attrition is highest in the early years of 
teaching: About one-third of new teachers leave within 5 years, and the 
rates are much higher for teachers who enter with less preparation and 
those who do not receive mentoring. Current estimates average about 
$15,000 per teacher who leaves, totaling at least $2 billion each year. 
Because beginning teachers are generally less effective than those with 
3 or more years of experience, continual high turnover of beginning 
teachers also significantly reduces educational productivity. Stemming 
this attrition is critical, as recruitment efforts are otherwise like 
pouring water into a leaky bucket, rather than repairing it.

    4. Providing mentoring for all beginning teachers would reduce 
attrition and increase competence. A matching grant program could 
ensure support for every new teacher in the Nation through investments 
in State and district mentoring programs. Based on the funding model 
used in California's Beginning Teacher Support and Assessment Program, 
a Federal allocation of $4000 for each beginning teacher, matched by 
States or local districts, would fund a mentor for every 10-15 
beginning teachers. At 125,000 new teachers each year,\14\ an 
investment of $500 million could ensure that each novice is coached by 
a trained, accomplished mentor with expertise in the relevant teaching 
field.
---------------------------------------------------------------------------
    \14\ About 250,000 teachers are hired each year, but typically only 
40-60 percent of them are new to teaching. The others are experienced 
teachers changing schools or returning teachers who are re-entering the 
labor force.
---------------------------------------------------------------------------
    5. Finally, this preparation and mentoring can be strengthened if 
they are guided by a high-quality, nationally-available teacher 
performance assessment, which measures actual teaching skill in the 
content areas, and which can facilitate interstate mobility. Current 
examinations used for licensing and for Federal accountability 
typically measure basic skills and subject matter knowledge in paper-
and-pencil tests that demonstrate little about teachers' abilities to 
practice effectively. Furthermore, in many cases these tests evaluate 
teacher knowledge before they enter or complete teacher education, and 
hence are an inadequate tool for teacher education accountability.

    The Interstate New Teacher Assessment and Support Consortium 
(INTASC), sponsored by the Council of Chief State School Officers, 
created teacher licensing standards adopted by most States and piloted 
performance assessments tied to the standards; several States, 
including Connecticut and California, have incorporated such 
performance assessments in the licensing process. These assessments 
have been found to be strong levers for improving preparation and 
mentoring, as well as determining teachers' competence. Federal support 
of $100 million for the development of a nationally available, 
performance assessment for licensing would not only provide a useful 
tool for accountability and improvement, but it would also facilitate 
teacher mobility across States, if it were part of an effort to unify 
the current medieval system of teacher testing that has resulted in 50 
separate ``fiefdoms'' across the country. Because teacher supply and 
demand vary regionally, teachers need to get easily from States with 
surpluses to those with shortages, which requires license reciprocity.
    With a purposeful focus, a Marshall Plan for Teaching could help 
ensure within only a few years that the United States has developed an 
infrastructure comparable to those in other countries for providing 
highly-qualified teachers to all children in all communities.

      Appendix A.--Lessons from State and District Experiences\15\

    A number of States and local school districts have fashioned 
successful strategies for strengthening their teaching forces. A few 
are outlined here.
---------------------------------------------------------------------------
    \15\ This is drawn from L. Darling-Hammond and G. Sykes (2003). 
Wanted: A national teacher supply policy for education: The right way 
to meet the ``highly qualified teacher'' challenge. Educational Policy 
Analysis Archives, 11 (33). http://epaa.asu.edu/epaa/v11n33/. Citations 
to research about these programs can be found there.
---------------------------------------------------------------------------
                          A. STATE APPROACHES

    Beginning in the 1980s, Connecticut and North Carolina enacted some 
of the Nation's most ambitious efforts to improve teaching. On the 
heels of these efforts, these States, which serve sizable numbers of 
low-income and minority students,\16\ registered striking gains in 
overall student learning and narrowed achievement gaps between 
advantaged and disadvantaged pupils. During the 1990s, for example, 
North Carolina posted the largest student achievement gains of any 
State in math and sizable advances in reading, putting it well above 
the national average in 4th grade reading and math, although it had 
entered the decade near the bottom of State rankings. Of all States 
during the 1990s, it was also the most successful in narrowing the 
minority-white achievement gap (National Education Goals Panel, 1999). 
In Connecticut, also following steep gains throughout the decade, 4th 
graders ranked first in the Nation by 1998 in reading and math on the 
NAEP, despite increased poverty and language diversity among its public 
school students. Its minority-white achievement gap, too, narrowed 
notably. The proportion of Connecticut 8th graders scoring at or above 
proficient in reading was first in the Nation. In the world, moreover, 
only top-ranked Singapore could outscore Connecticut students in 
science (Baron, 1999).
---------------------------------------------------------------------------
    \16\ In the fall of 1999, Connecticut had 30 percent students of 
color, including the 12th largest Hispanic enrollment in the Nation, 
and in 2002, 36 percent of students attended Title I schools. In the 
same years, North Carolina had 38 percent students of color, including 
the 8th largest enrollment of African Americans, and 38 percent of 
students attended Title I schools (NCES, 2001, table 42; NAEP State 
Data, 2002, retrieved from http://nces.ed.gov/nationsreportcard/
statedata).
---------------------------------------------------------------------------
    Among the reforms that contributed to such gains were the 
significant improvements in both States' teaching forces, including in 
inner cities and rural areas. How did they accomplish this? With 
ambitious teacher initiatives that introduced standards, incentives and 
professional learning for teachers, along with curriculum and 
assessment reforms for schools (Darling-Hammond, 2000a; Wilson, 
Darling-Hammond, & Berry, 2000).
    Both States strengthened teacher education and licensure. For a 
teaching license, for example, Connecticut insisted on additional 
preparation at entry, meaning a major in the content area taught and 
more pedagogical training as well as learning to teach reading and 
special-needs pupils and passing basic skills and content tests before 
entry to teaching. The State also eliminated emergency licensing and 
toughened requirements for temporary licenses. Teachers must complete a 
master's degree and a rigorous performance assessment modeled on that 
of the National Board for Professional Teaching Standards to gain a 
professional license.
    North Carolina likewise increased licensing requirements for 
teachers and principals, in the form of increased coursework in content 
and pedagogy as well as licensing tests, required schools of education 
to undertake professional accreditation through the National Council 
for Accreditation of Teacher Education (NCATE), invested in 
improvements in teacher education curriculum, and supported creation of 
professional development schools connected to schools of education. 
Both States also developed mentor programs for beginning teachers that 
extended assistance and assessment into the first year of teaching, and 
both introduced intensive professional development for veteran 
teachers.
    These efforts were successful because both States created strong 
labor market incentives linked to their teacher standards. Among 
measures they adopted:

    <bullet> Increased and Equalized Salaries, Tied to Standards. Both 
States coupled major statewide increases in teacher salaries with 
improved pay equity across districts. In Connecticut, for example, the 
average teacher salary climbed from $29,437 in 1986 to $47,823 in 1991, 
with the equalizing nature of the State aid making it possible for 
urban districts to compete for qualified teachers. Because 
Connecticut's State teacher salary assistance could be spent only for 
fully certified teachers, districts had greater incentives to recruit 
those who had met the high new standards, and individuals had greater 
incentives to meet these standards. North Carolina created standards-
based incentives by adopting notable salary increases for teachers to 
pursue National Board Certification, so that North Carolina now has 
more teachers certified by the National Board than any other State.
    <bullet> Recruitment Drives and Incentives. To attract bright young 
candidates, both States initiated programs to subsidize teacher 
education in return for teaching commitments. The highly selective 
North Carolina Teaching Fellows program, for example, paid all college 
costs, including an enhanced and fully funded teacher education 
program, for thousands of high-ability students in return for several 
years of teaching. After 7 years, retention rates for these teachers 
exceeded 75 percent, with many of the remaining alumni holding public 
school leadership posts (NCTAF, 1996). Connecticut's service 
scholarships and forgivable loans similarly attracted high-quality 
candidates and provided incentives to teach in high-need schools and 
shortage fields, while the State also took steps to attract well-
trained teachers from elsewhere. By 1990, nearly a third of its newly 
hired teachers had graduated from colleges rated ``very selective'' or 
better in the Barron's Index of College Majors, and 75 percent had 
undergraduate grade point averages of ``B'' or better (Connecticut 
State Board of Education, 1992, p. 3).
    <bullet> Support Systems. Both States bolstered support systems 
that make a difference in stemming teacher turnover. North Carolina 
launched a mentoring program for new teachers that greatly increased 
their access to early career support (National Education Goals Panel 
Report, 1998). Connecticut provided trained mentors for all beginning 
teachers and student teachers as part of its staged licensing process. 
For existing teachers, North Carolina created professional development 
academies, a North Carolina Center for the Advancement of Teaching, and 
teacher development networks such as the National Writing Project and 
analogous institutes in mathematics. This was in addition to its 
incentives for National Board Certification. Connecticut, among other 
things, required continuing professional development, including a 
master's degree for a professional license.

    Such teacher reforms began paying off early on. After Connecticut's 
$300 million 1986 initiative, for instance, the higher salaries and 
improved pay equity, combined with the tougher preparation and 
licensing standards and an end to emergency hiring, swiftly raised 
teacher quality. An analysis found, in fact, that within 3 years, the 
State not only had eliminated teacher shortages, even in cities, but 
also had created surpluses (Connecticut State Department of Education, 
1990). Even as demand increased, the pool of qualified applicants 
remained solid. A National Education Goals Panel report (Baron, 1999) 
found that in districts with sharply improved achievement, educators 
cited the high quality of teachers and administrators as a critical 
reason for their gains and noted that ``when there is a teaching 
opening in a Connecticut elementary school, there are often several 
hundred applicants'' (p. 28).
    These teacher initiatives occurred alongside other education 
changes--increased investments in early childhood education and in 
public schools generally, as well as wide-ranging, standards-based 
reform--which also contributed to the States' student achievement 
gains. There is little doubt, however, that higher-quality teachers 
supplied to all schools were substantial contributors to these other 
reforms as well as to the overall achievement increases. Both States 
sought to increase not only salaries and the quality of preparation for 
teachers, but also the incentive structure for distributing teachers to 
fields and locations. Both sharply reduced hiring of unlicensed and 
underprepared staff. Most notably, both held to the course of teacher 
improvement over a sustained period--more than 15 years in each case. 
They demonstrate what State policy in support of good teaching can 
accomplish.

                         B. DISTRICT APPROACHES

    District success stories reflect the importance of recruiting, 
inducting and supporting qualified teachers using policy tools 
available at the local level and leveraging State assistance. Following 
are four examples of what urban districts have done.
    New York City. New York City illustrates how a focus on recruiting 
qualified teachers, coupled with necessary salary increases, can have a 
large effect in a brief period. The city long had hired thousands of 
underprepared teachers, typically filling as many as half of its 
vacancies with uncertified applicants, many well after September. The 
State, however, pressured the city to hire qualified teachers and 
mandated that uncertified teachers could no longer teach in low-
performing schools. This, plus awareness of pending NCLB requirements, 
led to the improvements. The district focused on more aggressive 
recruiting and hiring of qualified teachers and implemented a steep 
increase in salaries--averaging 16 percent overall and more than 20 
percent for beginning teachers--to make them more competitive with 
surrounding suburban districts. With these policies, 2002-3 vacancies 
were filled by July, and 90 percent of new hires were certified, up 
from 60 percent the year before. The remaining 10 percent were in 
programs that would lead to certification by the end of the school year 
(Hays & Gendar, 2002).
    Community School District #2. Much earlier, New York City's 
Community District #2 was an oasis widely heralded as a turnaround 
story, with a strategic emphasis on professional development for 
teachers and principals. But student achievement gains clearly relied 
on both a development recruitment strategy (Elmore & Burney, 1999). In 
1996, after a decade of reforms focused on strengthening teaching, this 
``majority-minority'' district--which serves large numbers of low-
income and immigrant students--realized sharp achievement gains that 
ranked it 2nd in the city in reading and math.
    Sweeping changes instituted by Superintendent Anthony Alvarado 
stressed continuing professional development for teachers and 
principals, coupled with a relentless concentration on instructional 
improvement. At the same time, Alvarado recognized the need for more 
talented and committed teachers and principals. Backed by the teachers' 
union, he replaced nearly half the teacher workforce and two-thirds of 
principals over a period of years through a combination of retirements, 
pressure and inducements. Meanwhile, the central office carefully 
managed the recruitment, hiring and placement of new teachers and 
principals. It ended the hiring of unprepared teachers and sought 
recruits from several leading teacher education programs in the city, 
forging partnerships for student teaching and professional development 
with these institutions as well. Similar programs for developing 
principals were launched. The district's growing reputation for quality 
also attracted other teachers. Salary changes were not within the 
district's purview. Its strategies, rather, involved recruiting 
aggressively, creating university partnerships to develop a pipeline of 
well-prepared teachers, and supporting teachers with strong mentoring 
and professional development.
    New Haven, California. California success stories are particularly 
notable because that State in recent years has ranked first in the 
Nation in the number of unqualified teachers. In this high-demand 
context, with State policies that were, until recently, relatively 
unsupportive (e.g., low expenditures, lack of reciprocity with other 
States, restricted teacher education options), some districts have 
nonetheless achieved significant staffing improvements. New Haven 
Unified School District, just south of Oakland in Union City, which 
enrolls 14,000 mostly low-income and minority students, is one that has 
succeeded while neighboring districts have not. New Haven combined high 
salaries, aggressive recruiting and close mentoring with a high-quality 
training program worked out with area universities. Although not a top-
spending district, it invested its resources in teacher salaries and 
good teaching conditions. In 1998, for example, New Haven's salaries 
were more than 30 percent higher than nearby Oakland's, where large 
numbers of unqualified teachers were hired, even though New Haven's 
per-pupil spending was below Oakland's (Snyder, 2002).
    Thus, over an extended period it built a well-prepared, highly 
committed and diverse teaching staff. For the 2001-2 school year, 10 of 
its 11 schools had no uncredentialed teachers. The district averaged 
0.1 percent uncredentialed teachers--while some neighboring districts 
averaged more than 20 percent (Futernick, 2001). New Haven uses 
advanced technology and a wide range of teacher supports to recruit 
from a national pool of exceptional teachers and to hire them quickly. 
The district was one of California's first to implement a Beginning 
Teacher Support and Assessment Program that assists teachers in their 
first 2 years in the classroom; all beginning teachers get help from a 
trained mentor, who is given release time for the purpose. In addition, 
New Haven collaborated with California State University-Hayward on the 
right kind of alternative-certification program, combining college 
coursework and an internship, including student teaching, conducted 
under the close supervision of university- and school-based educators. 
As a result of these initiatives, the district has a teacher surplus in 
the midst of general shortages.
    San Diego, California. Using similar strategies, San Diego City 
Schools recently overhauled its teacher recruitment and retention 
system, aggressively recruiting well-trained teachers, collaborating 
with universities on new training programs in high-need fields, and 
creating smooth pathways with local schools of education. It offers 
contracts to well-prepared teachers as early as possible (sometimes as 
much as a year in advance of hiring) and reaches out to teachers in 
other States. In addition, the district streamlined the hiring process, 
putting the entire system online, improving its capacity to manage 
hiring data, vacancy postings and interviews that had slowed the 
process and caused many candidates to give up and go elsewhere. In the 
fall of 2001, districts like San Francisco and Los Angeles hired 
hundreds of uncredentialed teachers, and the State as a whole hired 
more than 50 percent of novices without full credentials. But San Diego 
filled almost all of its 1,081 vacancies with credentialed teachers, 
eliminating all but 11 of the hundreds of previously hired emergency 
permit teachers who had been assigned largely to high-minority, low-
income schools.

    The Chairman. Very helpful. Senator Roberts has a schedule 
conflict and asked to be able to say a word and of course, we'd 
welcome his words.

                  Opening Statement of Senator Roberts

    Senator Roberts. Mr. Chairman, thank you very much and 
thank you and Senator Enzi for holding this and I want to thank 
the panel members for taking time out of your very valuable 
schedule to come and give us your expertise.
    As a former teacher myself, a drafted former teacher, my 
experience hopefully is not that unique but I had a newspaper 
in Phoenix on the West Side and one of the teachers became ill 
so the superintendent asked if I would simply take over, which 
I did. I was the journalism teacher and then found that I was 
the speech teacher and then found I was teaching English and 
then found I was in charge of the newspaper and then found I 
was in charge of the annual and then found I was in charge of 
the forensics competition and then was the assistant basketball 
coach.
    [Laughter.]
    Which would make Senator Gregg laugh, I know, because of 
our personal experience on the basketball court when we were in 
the House. But at any rate, I'm interested in the back door and 
that's just the basic speech that I want to make or comment 
that I want to make and I think that there are a number of very 
quality people, especially in math and science and I know under 
No Child Left Behind, we have troops as teachers and we tried a 
fast track to the certification process--it takes about 5 years 
in Kansas. The average teaching certification process takes 4 
years to complete. I found after being drafted that the tail 
was wagging the dog. I was not only trying to run this weekly 
newspaper but I was also trying to teach during the day and 
then run the newspaper at night, et cetera, et cetera. That 
finally got to be impossible but it was quite an experience for 
me in gaining firsthand knowledge on the value of being a 
teacher and the time that you have to put in and I'm just 
trying to figure out if there is a better way on certification, 
if we couldn't get more career professionals in every segment 
of our society. It doesn't have to be military--it could be 
business, it could be education, it could be anything to become 
a teacher.
    So my questions were to be more specially to Ms. Burtnett, 
who is a graduate of the every-optimistic fighting Jay Hawks 
and my question was, what components of the teacher 
certification process do you think are essential in initially 
preparing a teacher for the classroom and then Mr. Solomon, in 
your experience as a director of a teaching program, do you 
think there are ways to prepare a retired career professional 
at a quicker rate in order to get them into the classroom 
early. What I'm talking about is after I taught all those 
subjects and was--I think I was paid $5,200 for that experience 
and then $200 for the newspaper and $200 for the annual, et 
cetera, et cetera. You remember, I guess, those days but you 
know, Ed Psych I, Ed Psych II and then my favorite--Standard 
Deviation. Do you remember Standard Deviation? Have all of you 
taken this? Have you ever used it? Has anybody ever used 
standard--you have? Why on earth did you do that?
    [Laughter.]
    Who uses standard deviation? But it's under a course called 
Test and Measurement, Mr. Chairman and I would access that no 
Senator could possibly do this. Staff could do this. But it 
takes forever to do this. This is the test and you are supposed 
to have criteria here so that you do standard deviation on all 
of your students when they take tests to figure out where the 
hell you are on the bell curve in terms of criteria, et cetera, 
et cetera--nobody uses this.
    Then we have, of course, by E.F. Skinner, who figured out 
that--a long story short--if you have pop quizzes, that really 
will keep the students alert as opposed to one every Friday or 
one every whatever--I mean, if you're in the Marine Corp and 
you're going to have an inspection, your rifles are clean. If 
they inspect on Friday, they are clean on Thursday. If the DI 
comes in anytime, your rifles are clean all the time. And yet 
we had to have a whole course on that by Mr. Skinner, who is 
the God of Ed Psych II. I don't even--I think the man is still 
alive. I don't know if he is or not. I'm just trying to say 
that there has to be some way to figure out in a 2-year 
timeframe, where somebody could be a teacher that wants to come 
in through the back door--you know, that has a gift--that has a 
love for this because after all, that is a labor of love 
because of teacher salaries.
    So if any of you have any ideas on the back door, on how we 
get people in that would like to be a teacher after they've had 
another profession and add to the cadre of very fine teachers 
that we have. I don't want to do anything to alarm anybody 
about the certification process, making the teaching profession 
a profession. I understand that. I know you have to go through 
all of the various hurdles to get your salary increased and I 
think part of that is good but part of it I think is totally 
unnecessary.
    So that's my pitch and that's my rant and rave for this 
morning, Mr. Chairman. I've already posed the questions and I'm 
going to have to leave here pretty quick and I thank you for 
interrupting everybody here that was before me and certainly 
interrupting all the panels. But that's what I do on this 
committee.
    The Chairman. Amen, Amen. Thank you, Senator Roberts. We 
always are interested in what your comments are and you raise 
some important questions and I hope our panel will respond to 
them if you are necessarily absent.
    We'll go ahead with Amy Wilkins. We'll talk about that 
teacher distribution gap and particularly focus on qualified 
teachers in high-poverty areas.

       STATEMENT OF AMY WILKINS, VICE PRESIDENT FOR GOV-
     ERNMENTAL AFFAIRS AND COMMUNICATION, EDUCATION TRUST, 
                        WASHINGTON, DC.

    Ms. Wilkins. Thank you, Senator. I am sitting in this 
morning for Kati Haycock, my boss, who is sick and 3 minutes is 
probably more than I want to talk right now.
    Good teaching makes an enormous difference, as Senator 
Alexander said and it especially makes an enormous difference 
for low-
income kids who have less to fall back on at home. Research 
tells us time and again that highly effective teachers can 
outweigh the effects of poverty, can outweigh the effects of 
language spoken at home and is probably the single most 
important factor in student achievement, yet the very students 
who most need highly effective teachers are less likely to get 
them. The American education system is virtually rigged to 
ensure that the students who most need highly effective 
teachers are the least likely to get them, sort of no matter 
how you cut it, based on whether the teacher is teaching in a 
subject area that she actually studied herself in college, 
whether that teacher is a novice teacher and whether that 
teacher is certified. Low-income kids always end up with the 
short end of the stick. Then we sort of wonder, well, why 
aren't they achieving?
    If we really hope to close the achievement gap in this 
country, we have to do something to drastically change the 
teacher distribution patterns such that the kids who most need 
highly effective teachers indeed get them.
    In our written testimony, there is a lot of theories that 
support those points but I want to jump directly to two big 
issues--what you try to do when you originally authorized NCLB 
and where that fell short and how you need to move forward from 
there.
    NCLB was very, very, very important in the teacher 
distribution question in that it finally put the question on 
the table in a very real way. But there were really three 
problems with the law. The first was that the Department of 
Education all but refused to implement the provisions that you 
all passed. Second that the States resisted those provisions 
strenuously and third, there were some problems in the statute 
itself.
    We hope that you use this reauthorization to fix the 
problems in the statute and also press the Department of 
Education for better implementation.
    When you look at what the Senate and the Congress need to 
do in reauthorizing this law, we have several recommendations. 
One is that in order to identify the kind of effective teachers 
that Senator Alexander talked about, we can't begin to put 
really good teachers in our high-poverty schools until we're 
able to identify them. Dr. Sanders, along with others, has done 
some very pioneering work in value-added systems. We think that 
the States need to move to value-added systems to look at the 
effectiveness of their teachers. Since it seems that the States 
are clamoring for growth models to replace AYP, this is an 
opportunity to do that because the data that the States will 
need to go to growth models, if paired with teacher records, 
will give us information about the effectiveness of teachers 
and we can begin to distribute better teachers between high- 
and low-poverty schools.
    You also need to fix title II. Title II was a huge 
opportunity to boost the effectiveness of teaching in our high-
poverty schools. Since the law was passed, nearly $15 billion 
has been put into title II and instead of being targeted at 
improving teaching in high-poverty schools, it has become a 
slush fund at the district level, spread widely across 
districts, not only serving high-poverty kids but serving all 
kids and serving any number of program needs, according to a 
GAO study. So tightening the targeting on title II is also an 
important thing to do.
    The last thing I'm going to mention is probably the most 
important--single most important thing you can do in 
reauthorizing this law, is to fix the comparability provisions 
of the law. The ESCA is based on a fiction. You all say that 
before districts can get title I money to provide extras to 
low-income children, districts have to demonstrate that they 
are indeed, with their own dollars, providing an equal funding 
base across high- and low-poverty schools. The law requires 
that demonstration be made by demonstrating that the district 
has a single salary schedule--that is, all teachers are paid 
sort of lock-step. Well, what happens in fact and you can see 
this in almost every school district across the country, is 
that as teachers gain experience and as their salaries 
increase, they migrate away from high-poverty schools and start 
teaching, because of the prerogatives that the contracts give 
them, start teaching in sort of more desirable schools.
    As they leave the high-poverty schools, they take those big 
paychecks with them, leaving lower paid, novice teachers at the 
high-poverty schools and that gap between what novice teachers 
are making at high-poverty schools and what the more 
experienced teachers are making at more affluent and more 
desirable schools, actually represent a theft from low-income 
kids and your title I dollars are not providing extras to low-
income kids but are in fact, being used by districts to begin 
to fill the gap between their own dollars that are migrating.
    You have to amend the comparability provisions in the law 
such that when districts are required to demonstrate 
comparability of funding across school districts, they require 
to count teacher salaries as part of that equation.
    So with that, I'll shut up and we'll move on.
    [The prepared statement of Ms. Wilkins follows:]

      Prepared Statement by Amy Wilkins, on behalf of Kati Haycock

    Mr. Chairman, Mr. Enzi, and members of the committee, thank you for 
providing me with the opportunity to testify before you this morning.

                              INTRODUCTION

    Others on this panel will talk with you today about the pressing 
need to dramatically increase the effectiveness of America's teaching 
force. I could not agree more. For the record, though, I want to 
emphasize that much more is at stake than simply meeting the goals and 
timelines of No Child Left Behind. Literally mountains of research now 
tell us that our efforts to maintain world leadership in any number of 
spheres are fundamentally dependant on whether or not we have the 
courage to confront the issue of teacher effectiveness and to do what 
it takes to provide every student with quality teaching in every 
subject, every year.
    As pressing as the overall teacher effectiveness issues are, 
however, my job this morning isn't to talk with you about the general 
problem, but, rather, about the very specific problem of teacher 
effectiveness in our high-poverty schools. For the sorry fact is that 
the American system of education is rigged to all but ensure that low-
income children--the very children who need the most effective teachers 
to help them achieve their potential and catch up with their peers--
don't get the teachers they need.
    Certainly, there are some literally spectacular teachers teaching 
in our highest poverty schools. And their results serve as proof of how 
very big a difference strong teachers can make for even the poorest of 
children.
    But these exceptional teachers are exactly that--exceptions. They 
willfully swim against the powerful, systemic tide that relentlessly 
sweeps our best teachers away from the kids who need them the most. Too 
often, they have to sacrifice pay and professional status to work in 
the most challenging schools instead of working at better-equipped 
schools with children who are sometimes easier to teach.
    Our task as a country must be to match their private commitment 
with a public commitment: to turn that tide and create systems, 
supports and conditions that will attract a significant proportion of 
our very best teachers to work with and for the children who need them 
the most.
    In passing No Child Left Behind, Congress made an historic and 
critical attempt to address this very need. Despite the sincere efforts 
of many on this committee, however, I think it is quite clear to all of 
us that the law has not been a sufficiently powerful tool in creating 
greater equity in teacher distribution. Some of the failure is due to 
flaws in the statute itself, some is due to utterly inadequate 
implementation efforts by the Department of Education and some is due 
to massive resistance to equity from powerful adult stakeholders.
    I urge you to use the opportunity that this reauthorization offers 
to fix the flaws in the law, to add more power to the teacher equity 
provisions, and to send a clear signal that this Congress will not 
stand by while the life chances of millions of children are diminished 
by teacher distribution systems that are fundamentally unjust and 
absolutely within our power to change.

               GOOD TEACHERS MAKE AN ENORMOUS DIFFERENCE

    While our inequitable patterns of teacher distribution are 
absolutely changeable, they are also deeply ingrained. Changing them 
will rile up all kinds of stakeholders and, accordingly, demand 
creativity and unflagging effort on your part.
    This is tough stuff and not for the faint of heart. Accordingly, 
those of us who ask you to take up this challenge owe you evidence that 
all the hard work will make a difference.
    Fortunately, the research evidence is overwhelming. In just the 
last 5 years alone, researchers all around the country have provided 
strong evidence from a wide range of communities that there is, indeed, 
a payoff in providing low-income students with great teachers. And it's 
a very big one:

    <bullet> Researchers in Texas concluded in a 2002 study that 
teachers have such a major impact on student learning that ``. . . 
having a high quality teacher throughout elementary school can 
substantially offset or even eliminate the disadvantage of low socio-
economic background.'' \1\
---------------------------------------------------------------------------
    \1\ Rivkin, S. G., Hanushek, E. A., & Kain, J. F. 2002. Teachers, 
Schools, and Academic Achievement, University of Texas-Dallas Texas 
Schools Project.
---------------------------------------------------------------------------
    <bullet> A recent analysis of Los Angeles data concluded that 
``having a top-quartile teacher rather than a bottom-quartile teacher 4 
years in a row would be enough to close the black-white test score 
gap.'' \2\
---------------------------------------------------------------------------
    \2\ Gordon, R., Kane, T. J., & Staiger, D. O., 2006. Identifying 
Effective Teachers Using Performance on the Job. Washington, DC.: The 
Brookings Institution.
---------------------------------------------------------------------------
    <bullet> A second study in Texas showed that the teacher's 
influence on student achievement gain scores is 20 times greater than 
any other variable, including class size and student poverty.\3\
---------------------------------------------------------------------------
    \3\ As cited by Fallon, D., 2003. Case Study of A Paradigm Shift 
(The Value of Focusing on Instruction). Education Research Summit: 
Establishing Linkages, University of North Carolina.
---------------------------------------------------------------------------
      BUT THE STUDENTS WHO MOST NEED GOOD TEACHERS DON'T GET THEM

    Despite these and other studies that document the tremendous power 
that great teachers have to help students overcome the burdens of 
poverty and racism, we persist in providing those who need the most 
from their teachers with the teachers who have the very least to offer 
them.

    <bullet> Nationally, fully 86 percent of math and science teachers 
in the Nation's highest minority schools are teaching out of field.\4\
---------------------------------------------------------------------------
    \4\ Jerald, C. 2002. All Talk, No Action: Putting an End to Out-of-
Field Teaching. The Education Trust. Available: www.edtrust.org.
---------------------------------------------------------------------------
    <bullet> Students of color and low-income students are also twice 
as likely as white and affluent students to be assigned to 
inexperienced teachers.
    <bullet> In Texas high schools with the most African-American 
students, ninth grade English and Algebra courses--key gatekeepers for 
high school and college success--are twice as likely to be taught by 
uncertified teachers as are the same courses in the high schools with 
the fewest African-American students. Similarly, in the State's highest 
poverty high schools, students are almost twice as likely to be 
assigned to a beginning teacher as their peers in the lowest poverty 
high schools.\5\
---------------------------------------------------------------------------
    \5\ Fuller, E. (2004). Unpublished data. University of Texas at 
Austin.
---------------------------------------------------------------------------
    <bullet> And let's not just pick on Texas: Researchers reported 
recently that advantaged fifth grade students in North Carolina were 
substantially more likely than other students to be matched with highly 
qualified teachers.\6\ Across the State, African-American seventh 
graders were 54 percent more likely to face a novice teacher in math 
and 38 percent more likely to have one for English, with the odds even 
greater in some of North Carolina's large urban districts.\7\
---------------------------------------------------------------------------
    \6\ Clotfelter, C. T., Ladd, H. F., & Vigdor, J. L. (2006). 
Teacher-student matching and the assessment of teacher effectiveness. 
Journal of Human Resources, 41(4), 778-820.
    \7\ Clotfelter, C. T., Ladd, H. F., & Vigdor, J. L. (2005). Who 
teaches whom? Race and the distribution of novice teachers. Economics 
of Education Review, 24, 377-392.
---------------------------------------------------------------------------
    <bullet> In Tennessee, one of few States to have a ``value-added'' 
metric of teacher effectiveness, the Department of Education has been 
tracking which students are taught by the high, average and below-
average teachers. Poor and minority students are getting the worst when 
it comes to teachers' effectiveness. There, the ``least effective'' 
teachers in high-poverty, high-minority schools are even less effective 
than the ``least effective'' teachers in low-poverty, low-minority 
schools.\8\
---------------------------------------------------------------------------
    \8\ Tennessee Department of Education. March 2007. Tennessee's Most 
Effective Teachers: Are They Assigned to the Students Who Need Them The 
Most?. Research Brief.
---------------------------------------------------------------------------
    <bullet> Education leaders in Florida also found inequitable 
patterns in the distribution of teachers in Florida, with schools 
receiving ``F's'' in the State accountability system much more likely 
than other schools to have concentrations of teachers whose student 
growth rates put them in the bottom 5 percent of the State.
    <bullet> Recent research conducted by the Education Trust and 
stakeholders in Wisconsin, Ohio, and Illinois found similar inequitable 
distribution problems.\9\ In Illinois, for example, 84 percent of the 
schools with the most low-income students were in the bottom quartile 
in teacher quality, with more than half in the very bottom 10 percent 
of teacher quality. Among low-poverty schools, only 5 percent were in 
the bottom quartile of teacher quality.\10\
---------------------------------------------------------------------------
    \9\ Peske, H. & Haycock, K. 2006. Teaching Inequality: How Poor and 
Minority Students are Shortchanged on Teacher Quality. The Education 
Trust. Available: www.edtrust.org.
    \10\ Presley, J., White, B., & Gong, Y. 2005. Examining the 
Distribution and Impact of Teacher Quality in Illinois. Illinois 
Education Research Council. Policy Research Report: IERC 2005-2. 
Available: http://ierc.siue.edu.
---------------------------------------------------------------------------
    <bullet> In 2000, teachers in the highest poverty schools in New 
York City were almost twice as likely (28 percent) to be in their first 
or second year of teaching compared to teachers in the lowest-poverty 
schools (15 percent). Similarly, more than one in four (26 percent) 
students of color were taught by teachers who had failed the general 
knowledge certification exam compared to only 16 percent of white 
students.\11\
---------------------------------------------------------------------------
    \11\ Loeb, S., & Miller, L. C. (2006). A Federal Foray into Teacher 
Certification: Assessing the ``Highly Qualified Teacher'' Provision of 
NCLB. Available: http://devweb.tc.columbia.edu
/manager/symposium/Files/98_LoebMiller_%20Nov%20Nov%201.pdf.
---------------------------------------------------------------------------
  THE EFFECTS OF THESE UNJUST DISTRIBUTION PATTERNS ON ACHIEVEMENT IS 
                        DRAMATIC AND DEVASTATING

    <bullet> In high-poverty, high-minority high schools in Illinois 
with above-average teacher quality, students were almost nine times as 
likely to demonstrate college-ready academic skills as their 
counterparts in schools with lower teacher quality. Indeed, students 
who completed mathematics through Calculus in schools with the lowest 
teacher quality were less likely to be college ready than their 
counterparts who completed mathematics only through Algebra II in 
schools with medium teacher quality.\12\
---------------------------------------------------------------------------
    \12\ Presley, J. B., & Gong, Y. (2005). The Demographics and 
Academics of College Readiness in Illinois. Illinois Education Research 
Council. Policy Research Report: IERC 2005-3. Available: http://
ierc.siue.edu/documents/College%20Readiness%20-%202005-3.pdf.
---------------------------------------------------------------------------
    <bullet> Research in Tennessee shows that teacher effects 
accumulate. Students who start the third grade at roughly equal 
achievement levels are separated by roughly 50 percentile points 3 
years later based solely on differences in the effectiveness of 
teachers to whom they were assigned. Students performing in the mid-
fiftieth percentiles assigned to three bottom quintile teachers in a 
row actually lost academic ground over this period, falling to the mid-
twentieth percentiles.\13\
---------------------------------------------------------------------------
    \13\ Sanders, W., & Rivers, J. (1996). Cumulative and Residual 
Effects of Teachers on Future Academic Achievement. Technical Report. 
University of Tennessee Value-Added Research and Assessment Center.
---------------------------------------------------------------------------
    <bullet> What about students who start off low-achieving, as do so 
many low-income students? Researchers from the Dallas public school 
district concluded: ``A sequence of ineffective teachers with a student 
already low-achieving is educationally deadly.'' \14\
---------------------------------------------------------------------------
    \14\ Presley, J. & Gong, Y. (2005).
---------------------------------------------------------------------------
                NCLB: AN ATTEMPT TO CHANGE THE PATTERNS

    Many of these effects were already clear when Congress passed NCLB. 
Common sense alone made it obvious that achievement gaps couldn't be 
closed without addressing gaps in teacher quality. Accordingly, there 
was strong bi-partisan consensus on the need to focus the attention of 
State and local education leaders on assuring teacher quality and 
turning around unfair and damaging teacher distribution patterns.
    The teacher-related provisions in No Child Left Behind embody three 
basic principles:

    1. That all students are entitled to qualified teachers who know 
their subject(s) and how to teach them;
    2. That parents deserve information on their children's teachers; 
and,
    3. That States, school districts and the national government have a 
responsibility to ensure a fair distribution of teacher talent.

    To accomplish these goals, Congress increased funding for teacher 
quality initiatives by 50 percent, from $2 billion to $3 billion per 
year--on top of significant increases in title I, which can also be 
used to improve teacher quality. These new dollars were targeted to 
high-poverty school districts, and local leaders were given nearly 
unfettered discretion to spend the money in ways that were tailored to 
local circumstances.
    Most observers, I suspect, will agree that the law has focused 
unprecedented attention on issues of teacher quality and distribution. 
But most will also agree that these historic provisions have not had 
their full and intended impact.
    Some of that is probably attributable to the sad fact that change 
in education always takes much longer than anybody thinks it should. 
But some of the problem can be traced to three sources:

    <bullet> Poor quality implementation by the U.S. Department of 
Education;
    <bullet> Massive resistance by some powerful adult stakeholders; 
and,
    <bullet> Limits of the statute itself.
Flawed Implementation by the Department of Education
    The teacher quality provisions of NCLB were supposed to stimulate 
States to revisit the question of whether they had appropriate 
definitions of teacher quality in place and whether there was an 
adequate supply of teachers in all subjects and for all students. The 
intention was to introduce a new bargain: if a school persistently had 
a problem recruiting and retaining enough qualified teachers, then the 
district and the State had a problem, too.
    Unfortunately, for the first 4 years after NCLB was enacted, the 
U.S. Department of Education refused to exert any leadership in this 
arena. Though there were early signs that States were abusing the broad 
discretion granted to them in defining what constitutes a ``highly 
qualified'' teacher, the Department repeatedly failed to issue 
guidance. And when it finally did, the guidance was inconsistent and 
confusing.
    Consider the seemingly straightforward issue of the application of 
the law to ``new'' and ``not new'' teachers. The law mandates that 
``new'' elementary teachers demonstrate their knowledge of the subjects 
they teach by passing a test of content knowledge and teaching skills. 
Teachers who were ``not new'' to the profession were allowed to either 
pass a test or complete a State-developed HOUSSE process.
    The clear intent of the law was to apply one set of rules to 
teachers who were hired after the passage of NCLB, and to reserve more 
flexible HOUSSE provisions for veteran teachers who had joined the 
profession before the law was adopted.
    Unfortunately, the Department never issued guidance or regulations 
to clarify this definition. The consequence is that some States hire 
non-highly qualified teachers and then declare them to be ``not new'' 
to the profession under the highly qualified definition after a year of 
teaching. These teachers are then permitted to demonstrate content 
knowledge under the less-rigorous HOUSSE process that was designed for 
teachers who were in the profession prior to NCLB, rather than 
demonstrating their subject knowledge by passing a test or taking 
additional coursework. The Department's neglect has allowed States to 
ignore altogether the requirement that new teachers demonstrate they 
know their content.
    Only recently, in the spring of 2006, did the Department actually 
begin to actively monitor the implementation of the teacher provisions. 
And, despite Congress' explicit command to focus on equality of 
opportunity, it was only in the past year that the Department even 
mentioned the teacher equity provisions, which extend well beyond the 
distribution of ``highly-qualified'' teachers. For a full 4 years, many 
States simply had no idea that these provisions existed, let alone that 
they were responsible for developing a plan to ensure that low-income 
and minority children were not disproportionately taught by 
unqualified, inexperienced, or out-of-field teachers.
    Implementation of title II also represents lost opportunity on a 
grand scale. Congress recognized that certain schools would need extra 
resources to raise teacher quality--either through additional supports 
for current teachers or incentives to attract higher-caliber faculty. 
So Congress created title II, which has provided almost $3 billion per 
year since NCLB was enacted--close to $15 billion thus far--that was 
supposed to help States and districts to ensure students in high-
poverty schools got their fair share of the best teachers and that 
teachers who didn't meet State quality requirements had the help they 
would need to meet those requirements.
    Instead, according to GAO, the money mostly has been used for 
generic programs that weren't targeted to the teachers or schools that 
need the most help. The U.S. Department of Education has issued no 
regulations, offered virtually no guidance, and conducted scant 
monitoring in how this money has been spent. As a consequence, instead 
of representing much-needed support for hard-to-staff schools and the 
teachers in them, title II money often has been used as State and 
district slush funds.
Widespread Resistance to the Spirit of the Law
    NCLB granted States broad discretion in the area of teacher 
quality. Instead of using this latitude to innovate different 
approaches to the issue, far too many States took advantage of the 
USDOE's lax oversight and completely undermined the spirit and 
substance of the law.
    Two years after the law was enacted, Education Trust staff examined 
State compliance with the teacher quality provisions. We found that 
many States had abused their discretion, papering over problems and 
making it seem as though all students had fully ``highly qualified'' 
teachers, when in fact many students continued to be taught by teachers 
with substandard preparation.
    Take Wisconsin, for example, which had never had content-knowledge 
tests as part of its licensure/certification. Instead of trying to 
determine which teachers needed to take a test or some coursework in 
their teaching area, Wisconsin simply declared that any teacher who 
graduated from an accredited teacher preparation program had 
demonstrated content knowledge in whatever subject(s) they were 
assigned to teach--regardless of whether their degree or coursework was 
related to their teaching assignment. Wisconsin officials openly 
flouted NCLB, claiming that they were keeping internal records on 
teachers who weren't fully qualified and had created the watered-down 
definition merely for reporting compliance with Federal law.
    California offers another example. The State lowered the bar for 
the ``highly qualified'' definition so far that requirements were 
virtually indistinguishable from the requirements for an emergency 
permit. Worse still, while California's emergency permit required 
teachers to be enrolled in credentialing programs, the ``highly 
qualified'' definition did not. Pretending that virtually all teachers 
were ``highly qualified'' allowed California to obscure well documented 
inequities in access to genuinely qualified teachers. It took 
Congressman George Miller's direct involvement, as well as a court 
order, to get California to revisit its definition. In many States, 
however, this kind of gaming has gone unchallenged.
    These are not isolated examples: many States have resisted fully 
acknowledging their teacher quality problems. By deeming virtually 
every teacher highly qualified, these States have not only made raising 
teacher quality under the law all but impossible--they also blunted 
efforts to more fairly distribute teacher talent. Why? Because if 
virtually every teacher is highly qualified, the distribution problem 
vanishes into thin air.
    In taking actions like these, States have snubbed their noses at 
congressional intent, blunted the impact of the law, and cheated their 
children out of the opportunity for academic success. Sadly, they've 
also cheated their own teachers out of the help that they deserve to 
improve their effectiveness. Congress should use this reauthorization 
to set things right.
Limits of the Statute Itself
    In crafting NCLB, Congress rightly recognized that the term 
``Highly Qualified Teacher'' needed to be defined before the businesses 
of distributing such teachers more fairly could be taken up 
effectively. Most of the details of such definitions were left to the 
States. But Congress did set parameters for State definitions, as well 
as identify certain teacher characteristics that it would monitor in 
its efforts to assure a fair distribution of teacher talent.
    Limits of the research on teacher quality and effectiveness at the 
time the law was crafted forced members of Congress to rely on proxies 
of teacher quality (e.g. degree in field, State certification, novice 
status) rather than real indicators of teacher effectiveness. These 
proxies can tell us a lot about broad patterns of distribution, and 
there is no excuse for not acting on that information now.
    But proxy measures are far less helpful in evaluating the quality 
of an individual teacher or the impact that she has on her students. 
Among other things, definitions based on proxies for effectiveness 
don't allow education leaders to account for terrific new teachers or, 
for that matter, burned-out veterans. As Congress moves toward 
reauthorization, you'll want to act on the core suggestion of the 
latest research: that, rather than looking just at qualifications, you 
incorporate measures of teachers' actual impact on student achievement.
    The use of proxy measures, however, is not the only problem in the 
statute itself. It turns out that an even bigger problem is bound up in 
congressional willingness to let the demands of adults too often trump 
the needs of students. Two examples will help illustrate what I mean.
The HOUSSE Provisions
    The first of these surround the law's ``High Objective Uniform 
State Standard of Evaluation'' (HOUSSE) provisions. As members of this 
committee know, the HOUSSE provisions were included in the law to 
address concerns that teacher unions and others had about veteran 
teachers who did not possess proper credentials or ``paper proxies'' 
required to meet the definition of a ``highly qualified teacher.'' The 
concern was that such teachers would be unduly burdened by a 
requirement to obtain them.
    But the loophole created by these provisions turns out to be so 
large that it significantly undercuts the law's power to provoke 
change. Through broad (and unimagined use) of these provisions, States 
have been able to obscure the fact that many veteran teachers, 
especially in science and mathematics, lacked adequate content 
knowledge. In most States, almost every teacher has been deemed highly 
qualified and the status quo has been defined as satisfactory even 
though substantive challenges remain unaddressed.
Comparability Provisions
    Title I is premised on the fiction that local school districts 
provide ``comparable'' opportunities in title I schools before the 
application of Federal funds, so that the Federal money can be used to 
provide additional time and support for low-income students. But the 
truth is that local budgets consistently shortchange high-poverty 
schools, and title I schools often get less money than schools with 
more affluent students in the very same school districts. This has to 
do with arcane budgeting rules that ignore differences in teacher 
salary across schools. Schools that are stacked with the most senior, 
high-paid teachers don't offset this expense elsewhere in their budget, 
and schools with novice teachers don't get extra money even though 
their spending on teacher salaries is much lower than other schools.
    Federal law actually provides cover for these unfair budgeting 
practices in its comparability provisions. Indeed, NCLB includes a 
provision stating that if a school district has a single-salary 
schedule for teachers, which virtually every district does, then it has 
demonstrated compliance with the comparability requirement. This is a 
hold-over from another era, before research had documented so clearly 
the devastating impact of lower teacher quality in high-poverty and 
high-minority schools. The current comparability provisions work to 
perpetuate disparate and lower-quality educational opportunities in 
high-poverty and high-minority schools.

                            RECOMMENDATIONS

Ensure Data Systems for Evaluating Progress on Teacher Quality
    A major impediment to meaningful improvement efforts is the lack, 
in most States, of data systems that are capable of analyzing teacher 
effectiveness and tracking the distribution of qualified and effective 
teachers. Indeed, when USDOE finally asked States to comply with 
teacher equity provisions in Summer 2006, most States were unable to 
report even the most basic information on whether poor and minority 
students were taught disproportionately by inexperienced and 
unqualified teachers.
    Better data systems and technology will allow States to identify 
which of their teachers are most effective, and learn from them. Such 
systems also allow administrators to better target supports to teachers 
who need to improve their practice. Some forward-thinking districts 
such as Chattanooga, Tennessee are already using information generated 
by such systems in just this way. Unfortunately, the small, competitive 
grant program Congress has established to support longitudinal student 
data systems has not required longitudinal data on teachers to be 
included.
    Congress should provide dedicated funds to each State for the 
development and operation of education information management system 
and set minimal requirements for such systems. One such requirement 
should be that the systems have the ability to match individual teacher 
records to individual student records and calculate growth in student 
achievement over time.
    There could hardly be a better moment to take this step. As States 
implement growth models for accountability purposes, they will need to 
develop more sophisticated data systems. If the Federal Government 
allows this shift in accountability, it should insist that States 
simultaneously link student records to their teachers. It would be a 
shame to evaluate schools based on student growth but continue to 
ignore information on individual teachers' contributions to that 
growth.
Move From Measuring Teacher Qualities to Teacher Effectiveness
    Research confirms that there are massive differences in the 
effectiveness of individual teachers, but the proxies that are 
currently most popular in measuring teacher quality have only limited 
power to predict who will be effective. To better and more fairly 
evaluate individual teachers, we need to move from measuring teacher 
qualities to teacher effectiveness.
    Data on teacher effectiveness has implications for everything we do 
to raise teacher quality, from evaluating teacher preparation programs 
to ensuring that our most effective teachers are recognized and 
rewarded for their outstanding contributions.
    Given that low-income students are more likely to be assigned to 
less effective teachers, Congress should be especially focused on using 
value-added information to ensure these students get their fair share 
of effective teachers. States and districts should be required to 
ensure that title I schools aren't disproportionately saddled with the 
least effective teachers.
Close HOUSSE Loophole to Ensure New Teachers Demonstrate Content 
        Knowledge
    It is not unreasonable to require teachers to demonstrate content 
knowledge in the subject(s) they teach. Teachers who join the 
profession today understand this expectation. Yet when the HOUSSE 
provisions are abused, as they have been frequently, States are allowed 
to ignore the reality that some teachers need help to shore up their 
content knowledge. As a consequence, teachers who need help don't get 
it. When NCLB is reauthorized, the HOUSSE provision should be stripped 
entirely from the law.
Overhaul Title II to Focus the Federal Investment on High-Need Schools
    This $3 billion should be re-purposed to provide well-designed 
support and meaningful incentives to raise teaching quality in the 
highest poverty schools--and nothing else. Some of the money should be 
allocated for differential pay, so that hard-to-staff, high-poverty 
schools can provide generous incentives for effective teachers. Another 
portion should be used for research-based curricula and teacher 
professional development in how to implement those curricula.
Amend the Title I Comparability Provisions to Include Teacher Salaries
    Federal investments cannot ensure meaningful equity in public 
education unless State and local districts use their own resources 
equitably. But, by not including teacher salaries in assessing 
comparability, current title I law allows school districts to 
shortchange students in high-poverty schools, to cover up this theft 
with opaque accounting practices, and in the end to redirect title I 
funds away from the low-
income students Congress intends to help.
    Federal law should not contain loopholes that exclude teacher 
salaries from the determination of comparability across schools. If 
Congress does nothing else in this reauthorization to improve teaching 
and learning in title I schools, it should amend the comparability 
provisions to ensure true funding equity at the district level by 
requiring that teacher salaries be included in the assessment of 
school-to-school comparability.

    The Chairman. Good. That was very thoughtful. Pam Burtnett 
is President of Lake County Education, Florida and we look 
forward to your testimony on teacher development. Thank you.

STATEMENT OF PAMELA BURTNETT, PRESIDENT, LAKE COUNTY EDUCATION 
                      ASSOCIATION, FLORIDA

    Ms. Burtnett. Thank you. Mr. Chairman, members of the 
committee, thank you for inviting me to speak.
    The Chairman. Bring that mic up a little closer, if you 
would, please.
    Ms. Burtnett. For inviting me to speak with you today. My 
name is Pam Burtnett and I am the President of the Lake County 
Education Association. It is an affiliate of the Florida 
Education Association, the AFT NEA.
    It is with great pride that I tell you that I am and have 
been a classroom teacher of English Language Arts for over 25 
years, in Kansas, Illinois and Florida. I earned my National 
Board for Professional Teaching Standards certification and 
I've also--was the Lake County, Florida Teacher of the Year.
    I am pleased to be with you here today to discuss what is 
of great importance to all of us--teacher quality. As all of 
you have said, teachers make a huge difference in the lives of 
children.
    We're going to talk about the factors that help attract and 
retain a high quality teaching force in hard-to-staff schools, 
high quality professional development, growth systems, teacher 
incentive pay, mentoring and coaching and school leadership.
    In addition, it is important to recognize that teachers 
want what is good for students. That is what they do. They want 
a safe environment and they want adequate facilities so that 
they can teach and children can learn. I want to focus my 
comments on two areas--teacher retention and professional 
development.
    Lake County, Florida has three main programs that have been 
effective with teacher retention. I want to highlight one of 
these for you. The Lake County Effective Teaching Center was 
started 22 years ago as a combined venture between the Teachers 
Union and the School District. We used Foundation money to 
begin it. Every year, approximately 120 teachers are given 5 
days of release time to participate in educational research and 
dissemination. This 5-day intensive learning opportunity helps 
the teachers build their knowledge, current knowledge, current 
research, to exchange ideas and to leave the Center and 
implement those ideas the following day. It also gives them 
time to network and learn from each other.
    Senator Kennedy's Teacher Center's Act of 2006 recognized 
the importance that teacher centers like ours in Lake County 
can have in helping teachers help students.
    I just want to mention one other small program. Due to the 
commitment in Florida, there is support for National Board 
process, the National Board Certification process. We now have 
153 National Board-certified teachers in Lake County and those 
teachers help support the new teachers that come into the 
county. Last year, we had 350 new teachers so 153 board-
certified teachers helped them. That mentoring is critical.
    As a result of my experience, I believe States should 
require high caliber teaching induction systems, using mentor 
teachers as coaches and that because we expect new teachers to 
provide the same kind of teaching as experienced teachers. We 
expect that and so this is the way that we can bridge that gap.
    Professional development cannot be looked at in isolation 
from the school environment. Teachers are no different from 
other professionals in what they would like and expect. They 
want a safe learning environment, up-to-date and adequate 
facilities, high quality research-based training, the 
opportunities to collaborate with knowledgeable leadership. 
Providing these basics will greatly support teachers and 
students in the classroom.
    In terms of professional development, the No. 1 strategy 
boils down to time and timing. Leaders need to find the money 
and resources to give teachers time during their work day, 
their work week, their work year to focus on student learning 
and leaders must also provide resources needed so that teachers 
gain knowledge and data analysis.
    Timing is a priority as well. Teachers are asked to make 
curricular decisions. If they do not have access to real time 
data, then they cannot make the best decisions for their 
students. In Florida, decisions affecting the classroom and 
curriculum, which often have professional development 
implications, are made in the summer after test scores are 
released and teachers go home. As a result, they are made by 
school and district leadership without teacher input, strictly 
based on test scores and not necessarily on curriculum.
    We can and must do better. My written testimony contains 
recommendations on how the Federal Government can play a more 
meaningful role in improving teacher quality. I know from 
decades of experience that the one thing we do not need are 
additional Federal mandates and hoops for teachers to jump 
through. They need to spend time planning and delivering 
instruction for students, not recordkeeping.
    If we are willing to have an honest conversation about what 
is right for students and better ways to attract and retain 
teachers, we need to discuss the benefits of providing enhanced 
professional development for our teachers, particularly those 
working in high-need schools and with limited experience. Thank 
you very much.
    [The prepared statement of Ms. Burtnett follows:]

                 Prepared Statement of Pamela Burtnett

    Mr. Chairman and members of the committee, thank you for inviting 
me to speak with you today. It's with great pride that I tell you that 
I have been a classroom teacher of English Language Arts for over 25 
years, teaching in grades 6-12. Additionally, I have taught in a middle 
school drop-out prevention program and was a coordinator in my 
district's staff development center. I have earned National Board for 
Professional Teaching Standards certification and have also been a Lake 
County, Florida Teacher of the Year. I graduated from the University of 
Kansas, Lawrence, Kansas with a Bachelor of Science in Education and 
hold advanced degrees from Wichita State University, Wichita, Kansas 
with a Master in Education, Theatre and Ohio University, Athens, Ohio 
with a Master in Fine Arts, Theatre. Currently, I am a full-time 
release President for the Lake County Education Association, which is 
an affiliate of the Florida Education Association and both the National 
Education Association and the American Federation of Teachers.
    I am pleased to be with you here today to discuss what is of great 
importance to all of us in education--teacher quality--including 
factors to help ensure a high quality teaching force, professional 
development, attracting teachers to, and retaining them in, hard-to-
staff schools, growth systems, teacher incentive pay, mentoring and 
coaching, and school leadership. In addition, it is important to 
recognize that teachers want what is good for students, a safe 
environment and adequate facilities. When teachers are given the 
resources to do their jobs, are respected for what they do, are excited 
about what they do and are given the time to collaborate and work 
together, they are put in the best possible position to help their 
students achieve at their highest potentials.
    I was asked to focus my comments on two areas of questioning, as 
follows:

    Question 1. What specific strategies, programs or polices have been 
effective in addressing the need for qualified educators in your 
community? What outcomes or progress--with respect to the recruitment 
or retention of these educators--have been made as a result of these 
strategies?

    Answer 1. Lake County, Florida had three main programs that have 
been effective with teacher retention. They are as follows:

    <bullet> The Lake County Effective Teaching Center was started 22 
years ago as a combined venture between Lake County Education 
Association and the School Board using foundation money from the Conrad 
Hilton Foundation. Every year, approximately 120 teachers are given 5 
days of release time to participate in an education research and 
dissemination program. The program focuses on pedagogy and helping 
teachers develop the deep understanding of how students learn. The 
information is timely, research-based and relevant; one can use the 
information immediately upon returning to the classroom. It is 
concentrated time when teachers do not have students present and they 
can attend to developing their skills. This time element is of utmost 
importance because during the school day, the school year, 
opportunities for teachers to collaborate and share knowledge is 
painfully lacking. When students are present, teachers need to attend 
to them; they do not have the time for professional development. This 
5-day intensive learning opportunity helps to build teachers' knowledge 
base while giving them the time to network and learn from each other. 
Senator Kennedy's Teacher Centers Act of 2006 recognized the importance 
that teacher centers like ours in Lakeland can have in helping 
students--particularly those in greatest need--reach their highest 
learning potential.
    <bullet> The National Board Support System is another strategy that 
we have in place in Florida. The State provides money to districts in 
order to help Board certified teachers access additional professional 
development or learn how to become district coaches. As a Board 
certified teacher, I am able to use the knowledge and skills I have 
gained to assist other teachers and help them understand the importance 
of probing their own thinking about learning and examining curricular 
and instructional decisions before, during, and after lessons. This 
type of coaching is designed to help teachers reflect on their 
students' needs and where the students are on the trajectory of 
learning, and to then adjust their instruction to help students 
continue on the trajectory of achievement.
    <bullet> Lastly, Lake County Schools has a curriculum department 
that offers professional development at school sites after school and 
during the summer. The district made a commitment--and has kept its 
promise--to provide an opportunity for educators to participate in 
professional development on a regular basis. Based on this commitment, 
schools implemented early release Wednesdays specifically so that 
educators can participate in professional development programs. This 
period of time is crucial for educators so that they have access to 
quality programs that help them improve their instruction on an ongoing 
basis throughout the school year.

    These programs have had a positive effect on teacher retention, 
which research has shown to reduce teacher turnover. We know that 
support of teachers, particularly new teachers, is key for retention 
and helping them deliver high-level instruction. As a result, we have 
long argued that States should require high-caliber teacher induction 
systems to ensure that new teachers receive the support they need to 
provide effective instruction during their beginning years. The three 
programs described above demonstrate how supports can mean the 
difference for an educator.
    There is more work to do, however, even though these programs have 
offered support and improved instruction. For example, the Lake County 
Effective Teaching Center re-energizes 120 teachers per year and gives 
them the skills and tools to be successful with children in the 
classroom. However, more needs to be done to change the school's 
culture and to provide more time for teachers to share the practices 
they learned at the Teaching Center. In addition, every teacher, 
paraprofessional, and school staff member needs to have access to these 
types of programs. Consequently, more energy should be devoted to 
making sure that the resources are available to provide all educators 
with opportunities for continual improvement and growth, as we have 
done in Florida through these programs.

    Question 2. What strategies do you believe are the most effective 
in terms of providing professional development and support for 
educators in high need schools? Has professional development been 
targeted to educators to respond to their needs, and if so, on what 
criteria or data was the targeting based?
    Answer 2. As a classroom teacher, I can tell you that professional 
development cannot be looked at in isolation from teachers' working 
conditions. Teachers are no different from other professionals in what 
they expect. They want a safe learning environment; up-to-date and 
adequate facilities; high quality, research-based training; and support 
from their leadership. Providing these basics will greatly assist 
teachers in the classroom.
    Teachers need to work with a strong leader with a clear vision, and 
the time to collaborate as a team so they can focus and work together. 
If given the time, the resources, and a strong leader who can create a 
climate of collaboration, then professional development can achieve 
sustained results that have lasting effects on student learning.
    The No. 1 strategy boils down to time and timing. Strong leaders 
need to find the money and resources to give teachers time during their 
school day--not after school or weekends--to focus on student learning; 
and obtain the resources necessary so that teachers can begin to 
understand how to analyze data and make decisions using the data. 
Timing is a priority as well because teachers may be asked to make 
curricular decisions, but if they do not have access to real-time data, 
then they may not be making the best decisions for the instruction of 
their students.
    In addition, if educators are to do their best work, they must be 
viewed as valuable partners in the educational system. Policies should 
ensure that States, school districts, and schools actively involve 
teachers and other educators in the planning, development, 
implementation, and refinement of standards, curriculum, assessments, 
accountability and improvement plans because their training and 
experience represent a valuable resource in designing programs that 
work for students.
    Building on that theme, it is critical that educators be consulted 
when professional development programs are designed and selected for 
them. I think districts often try to respond to the professional 
development needs of teachers, but due to many factors, they miss the 
mark. For example, depending on a district's testing schedule, the data 
they are using in order to make professional development decisions 
could be last year's data--it may or may not be relevant to the current 
needs.
    Furthermore, if educators are not involved in the decisions 
regarding their own professional development, the educators may not 
feel the programs selected for them are beneficial. In Florida, for 
example, decisions affecting the classroom, which often have 
professional development implications, are made in the summer after 
test scores are available when the teachers are not present and have no 
technological way to be connected to the school. As a result, decisions 
are made by the school and district leadership without teacher input--
strictly based on test scores. Teachers usually are unhappy with the 
decisions that are made and some are not readily accepting of the 
professional development that follows from these decisions. We can do 
better--and we have to do better. Educators are partners in the system 
and should be viewed as such.
    We all agree that recruiting and retaining accomplished teachers 
for high-needs schools is a difficult problem. Nevertheless, I think we 
can say that if accomplished teachers are given the time to 
collaborate, learn and support each other, are given the resources to 
teach the way they know how and respected for their expertise, are able 
to work with strong leadership, and are then supported with effective 
professional development, we will see more teachers not only staying in 
the profession, but also willing to go to and stay at high needs 
schools.
    The Federal Government can play a meaningful role in improving 
teacher quality by including the following policies in the 
reauthorization of ESEA:

    <bullet> Providing financial incentives to school districts to 
provide teachers with time for collaboration on a regular basis. 
Legislation such as S. 3710, the Teacher Center Act of 2006, introduced 
last year by Senator Kennedy, would give teachers across the Nation 
access to high-level, ongoing, high-quality professional development 
programs that are designed and delivered by expert, practicing 
teachers.
    <bullet> Expanding support for high-quality, research-based 
professional development for all teachers. These programs should be 
developed in a collaborative fashion between school districts' leaders 
and the local teachers to ensure that teachers--and other educators--
receive professional development that is directly linked to their and 
their students needs and tied to the school's and district's curriculum 
and instructional needs and strategies.
    <bullet> Continuing to provide support for the National Board for 
Professional Teaching Standards to assist more teachers to obtain 
National Board Certification. In addition, the Federal Government could 
provide financial incentives for board-certified teachers to go to and 
stay in hard-to-staff schools.
    <bullet> Supporting and funding high-quality induction programs for 
new teachers so they have the assistance they need to be successful in 
their jobs.
    <bullet> Providing incentive grants to districts to develop peer 
assistance programs that focus on the improvement of staff knowledge 
and skills.
    <bullet> Providing incentives for local districts to develop 
compensation systems for teachers and paraprofessionals that have a 
competitive base pay and benefits for all and, when supported by both 
management and staff, provide opportunities for staff to improve their 
salary through the performance of additional responsibilities.
    <bullet> Providing financial incentives for districts to help 
recruit and retain high-
quality teachers in hard-to-staff schools.
    <bullet> Require States to develop a ``learning environment index'' 
for all schools, and require districts and States to address the 
problem areas identified for schools not making adequate yearly 
progress. Many of the schools not making AYP do not have adequate 
facilities, safe conditions, teacher retention incentives, and the 
financial and professional supports needed. The learning environment 
index should identify and measure teaching and learning conditions in 
each school.
    <bullet> Title II (the Teacher Quality State Grant program) should 
be amended to allow districts to work with local teacher unions to 
survey principals, teachers, and other school staff about their working 
conditions. Such surveys can be powerful tools to obtain information 
that can identify improvements needed in schools throughout the 
district to help spur student achievement. North Carolina has been a 
leader in using teacher working condition surveys. Other States that 
have utilized this tool include Arizona, Kansas, Nevada, and Ohio. 
Additional information on teacher working conditions surveys can be 
obtained from the Center on Teacher Quality at: http://
www.teachingquality.org/twc/whereweare.htm.
    <bullet> Directly support efforts to improve working conditions 
through grants for smaller class sizes, and school repair, renovation, 
and modernization.
    I know from my decades of experience that the one thing we do not 
need are additional Federal mandates and hoops for teachers to jump 
through. Teachers are motivated by their desire to help their students 
learn. In addition, teachers are always open to improving their 
instruction because they know it will benefit them, and more 
importantly, their students. If we are willing to have an honest 
conversation about what is right for students, I believe we can find 
the strategies for success for providing professional development and 
support for educators in high-need schools.

    The Chairman. Thank you very much. Thank you. We are going 
to move along as we're stretching a little beyond the 3 minutes 
and I think we're going to have a vote a little later in the 
morning. We want to make sure we have some good interaction 
with our members. So to the extent that we can--everything that 
has been commented on has been directly related to the subject 
matter so it is difficult to say that anything that's been said 
hasn't been absolutely on point but we'll see if we can move 
along.
    Jesse Solomon, Director of the Boston Teacher Residency, 
has been Director since the program started in 2003. The 
program came about as a partnership between the Boston Public 
Schools and its strategic grant partners, which provided 
initial funding. Well, we've heard from those who completed the 
program just how valuable the residency year was. He'll discuss 
how induction of residency programs help prepare the teachers 
for the classroom so that they'll be more likely to succeed. 
It's good to see you. Thank you.

STATEMENT OF JESSE SOLOMON, DIRECTOR, BOSTON TEACHER RESIDENCY, 
                     BOSTON, MASSACHUSETTS

    Mr. Solomon. Good morning and thank you for having me here 
this morning. I'm going to talk a little bit about a program 
called the Boston Teacher Residency, which is the Boston Public 
Schools' own teacher preparation program and I think the first 
question that we've been asked about this program is why would 
the Boston Public Schools need to start its own teacher 
preparation program? We have many, many institutions of higher 
education, many teacher preparation institutions within 10 or 
15 miles of our central offices. The superintendent at that 
time, Superintendent Payzant, made the decision to start the 
Boston Teacher Residency, not because we had a shortage of 
teachers but because we had a shortage of the right teachers.
    He was trying to address, I think, four problems. The first 
is that the teachers he was getting, as we've talked about this 
morning a little bit, were in the wrong areas. So we needed 
math and science teachers, we needed special education 
teachers, we needed ESL teachers, we need teachers of color and 
we were not getting those teachers in the numbers that we 
needed.
    The second is that we, like most big cities, had a 
revolving door at the front end of our teaching profession. So 
we lost about 50 percent of all new teachers within the first 3 
years. So coupled with the numbers that you are hearing, we 
calculated about $17,000 a teacher that it was costing us to 
have each of those teachers walk out the door.
    The third thing and in some ways, maybe the most difficult 
problem to address is that the teachers who were coming were 
often not prepared for the realities and demands of teaching in 
an urban school. They were often in for quite a shock when it 
came to what it would actually take to help all the students in 
their class reach grade level standards.
    Finally, the folks that were coming did not necessarily 
know the district's work so they often spent their first year 
or two learning the district's curriculum, instruction, those 
kind of things instead of coming in sort of ready to hit the 
ground running.
    So we run a 13-month so it's quicker than 4 years but 
it's--I don't know if it's quick enough but I was thinking 
maybe you were interested after you finished here and coming 
through our program and becoming a teacher up in Boston. So I'm 
not sure if that's----
    The Chairman. Now, wait a minute----
    [Laughter.]
    Mr. Solomon. There's no recruiting?
    The Chairman. I would take unanimous consent that we just 
don't have that.
    Mr. Solomon. We're always recruiting as you can tell. So we 
run a 13-month teacher preparation program, which as Dr. 
Darling-Hammond described, is very much based on the medical 
residency model and I'll give you a couple of key features of 
the program.
    First of all, we try to be quite selective on the front 
end. We take about one in seven applicants at this point, folks 
who come with their content knowledge pretty firmed up before 
they even set foot in the door. Our folks spend a full year in 
a classroom with a mentor teacher, a skilled, trained 
supportive mentor teacher and they work in partnership with 
that teacher for a full year, from before the date school 
starts to the last day of school so that they really have the 
experience of being in a Boston Public School for an entire 
year.
    They work in cohorts and we prepare them from the moment 
they come to our program that the job of teaching, which used 
to be isolated and used to be a door closed can't exist that 
way and so that teaching really needs to be something that you 
do in collaboration with others.
    The program is very rooted in practice so we try to get 
away from some of the courses you are describing and try to 
make our courses both literally and figuratively be based at 
the school site, based in practice so the things that people 
are learning about are the kinds of things that they are 
experiencing in their schools.
    We make it affordable. Folks get a stipend to come, they 
get health insurance. We loan them the tuition for the program 
and then for every year they teach in the Boston Public 
Schools, we forgive a third of that loan. So if people do the 
program right, they don't pay us anything. They get a Master's 
Degree, they get a teaching license. They actually get a dual 
license in special education and they get that for free if they 
complete their 4-year commitment with us.
    And finally, we're selective on the back end. We don't 
graduate everyone and we try to be very clear with people 
coming into the program that getting into the program is not 
the same thing as getting out of the program--that what we have 
is we basically have a year-long job interview that is not done 
on the backs of kids the way sometimes first year teaching is 
done so that people have a chance to learn to teach but we also 
have a chance to see them in action before we make a hiring 
decision.
    So far, they are staying. Our first big goal was retention. 
We have about 96 percent of our grads whom have stayed in 
teaching. We're early on in the program but that's exciting and 
the principals like them and want them. We survey the 
principals.
    What's missing for us and what we are in the process of 
developing is a value-added model that actually gets at what 
kind of an effect on student achievement our grads have and one 
of the things we're advocating for in the State is for all 
teacher preparation institutions to be accountable for their 
graduates.
    A couple lessons----
    The Chairman. Go ahead, quickly.
    Mr. Solomon. Okay. First is that we've found that this 
residency year allows our graduates to bypass some of the kind 
of first year jitters and they enter--I would say not as 
second-year teachers but they enter as sort of first and a 
half-year teachers. That's what principals report to us.
    As I said before, they know how the districts work. They 
come in ready to hit the ground running. Finally, as a program, 
we're accountable for those people. We are based in the 
district. We work closely with the principals, with the human 
resources department. If we recommend someone, if they have our 
name stamped on them, if anything goes wrong with that person, 
if that person turns out not to be a great teacher, it comes 
back to us. So there is a higher level of accountability in 
terms of us recommending that person for licensure and 
recommending them for a job in the district.
    I'll try to end with a few ideas, I think, that would be 
broader. The first is that I think all the work we do is rooted 
in practice and we've tried to be very clear about that. The 
second is that no amount of preparation is enough if folks are 
not constantly getting skilled, regular feedback in their 
classrooms about their teaching. So it's not enough to do 
workshops or PD outside of the classroom. It has to take place 
in a classroom. It has to involve regular feedback from skilled 
professionals.
    And I think I will stop there.
    [The prepared statement of Jesse Solomon follows:]

                  Prepared Statement of Jesse Solomon

    1. What specific strategies, programs or polices have been 
effective in addressing the shortages of teachers in your school or 
district? What outcomes or progress--with respect to the recruitment or 
retention of teachers--have been made as a result of these strategies?
    Four years ago, Boston Public Schools (BPS) superintendent Thomas 
Payzant made the critical decision that the BPS would begin to recruit 
and prepare its own teachers. Frustrated by the inability of local 
institutions of higher education to help the district fill openings in 
high-needs areas, and facing a 50 percent turnover rate for teachers in 
their first 3 years, Superintendent Payzant decided that the district 
would compete directly with higher education. Payzant was concerned 
that too many of the teachers coming through existing routes were 
under-prepared for the realities of urban teaching and not committed to 
Boston for the long term. Further, existing routes were not producing 
enough teachers in the high-needs areas of math, science and special 
education, and too few of the program graduates were teachers of color. 
Superintendent Payzant started the Boston Teacher Residency (BTR) to 
recruit and prepare the teachers the district desperately needed but 
was not getting. His aim was to recruit people committed to Boston, 
prepare them to know the district's work, and support them to stay in 
Boston, all the while pushing higher education to change its practices 
in response. Payzant's creation of BTR in 2003 has dramatically altered 
the way BPS recruits, prepares and retains teachers.

                                 MODEL

    BTR tackles a crucial urban school district problem in an 
innovative way: It places teacher preparation in classrooms rather than 
in the academy. A site-based school of education anchored in the BPS, 
BTR is highly selective, and recruits talented and committed people 
from diverse backgrounds who want to be urban teachers. [Last year, 
there were 425 applicants for 65 slots.] These aspiring teachers, 
called Teacher Residents, spend a full school year working with a 
Mentor teacher in a BPS classroom 4 days per week. Residents serve as 
interns under the supervision of the Mentor, they are not teachers-of-
record. Residents participate in a specialized curriculum tailored to 
BPS's reform agenda on Fridays, after school, and in summer sessions 
before and after the school year. They earn a Massachusetts Initial 
Teacher License in their primary academic content area, partial credit 
toward dual licensure in special education, and a master's degree in 
education from the University of Massachusetts/Boston. During their 
preparation year, Residents receive a $10,900 stipend and health 
insurance (primarily supported through AmeriCorps) to help defray 
living expenses and incur no cost for the degree or licensure; in 
return, they commit to teach for at least 3 years in the BPS. BTR 
continues to support its graduates for these 3 additional years, 
helping them develop from novice teacher to teacher-leader with the 
goal of building a critical mass of like-minded, effective teachers 
equipped to bolster school and district improvement efforts. BTR is in 
the midst of an aggressive scale-up plan. Having prepared cohorts of 
12, 36 and 48 teachers, BTR is currently preparing 60 teachers in 
SY2006-2007 and plans to grow to prepare 120 teachers in SY2008-2009, 
which represents an estimated 30 percent of the total teachers Boston 
will hire.

                               RATIONALE

    Underlying BTR is the knowledge that there is one educational 
reform which we know works: good teachers. Using a medical residency 
model, BTR draws on the knowledge that effective teachers hold, just as 
medical interns learn from consulting physicians. BTR's structure 
marries practice and theory, requiring prospective teachers to wrestle 
daily with the real-world dilemmas of teaching in a high-pressure, 
high-support situation. By clustering cohorts of Residents at select 
host schools, BTR builds strong support networks for both Residents and 
Mentor teachers. BTR also changes the traditional consumer-producer 
relationship between school systems and institutions of higher 
education and ends BPS's total dependence on outside institutions for 
its teachers. BTR is structured to focus on meeting the BPS's 
particular needs, to support the Residents to stay in teaching and 
interrupt the cycle of high teacher turnover, and to raise the quality 
and consistency of new teachers. Given recent research by Thomas Kane, 
Jonah Rockoff, Douglas Staiger and others--which suggests strongly that 
teacher effectiveness increases over the first years of a teacher's 
career--BTR believes that high retention rates of our graduates will be 
directly connected to improved student outcomes. BTR also addresses the 
district's goals of recruiting teachers in high-needs areas--teachers 
of color and teachers of math, science, and special education--and to 
keeping them by finding Residents with a strong commitment to Boston 
and to teaching its children as a long-term career choice.

                                OUTCOMES

    BTR measures its success through key outcomes:

    1. Resident placement. BTR has placed over 95 percent of all 
successful Residents in BPS teaching jobs.
    2. Teacher retention. Overall, BPS retains only 53 percent of its 
new teachers for a full 3 years. BTR has to date placed 89 graduates in 
positions in the BPS; 86 are still teaching in the BPS (a 96 percent 
retention rate).
    3. Recruitment in high-need areas. In its first four cohorts, over 
half of all BTR Residents have been people of color and over half of 
middle and high school Residents teach in the areas of mathematics and 
science.
    4. Scale. BTR aims to prepare 30 percent (120 of 400) of Boston's 
new teachers by SY2008-2009.
    5. Teacher Quality. In a recent survey, principals/headmasters 
considered 88 percent of their BTR-prepared teachers as or more 
effective overall than other first-year teachers at their school, and 
considered the majority (55 percent) to be ``significantly more 
effective.'' Moreover, when asked to compare their BTR-prepared 
teachers to their teaching faculties overall, principals/headmasters 
rated the majority (64 percent) as or more effective than their overall 
teaching faculties, despite graduates' lesser experience as teachers.
    6. Improved student achievement. BTR has begun to develop a value-
added system in conjunction with Professor Tom Kane at the Harvard 
Graduate School of Education to design a study to track student 
performance data for the students in its graduates' classes. BTR's 
ultimate measure of success is the academic achievement of the students 
in our graduates' classrooms.

    There are a few key aspects of the program design worth 
emphasizing:

    1. We do not allow un-chaperoned teaching. Because our ultimate 
goal is the academic achievement of our students, we are careful not to 
place the burden of preparing new teachers for our neediest students on 
the backs of those very same students. Instead, by pairing BTR 
Residents with excellent, veteran teachers, we seek to add to the 
experience of the students in the classrooms while preparing the next 
generation of teachers.
    2. We do not graduate everyone; we believe that there is a healthy 
level of churn. We tell Residents that getting into the program does 
not guarantee that they will get out. We see the residency as a year-
long job interview in which key district personnel can observe the 
Residents and make a determination as to whether they are strong enough 
teachers to receive an offer of employment in the district.
    3. We need methods of measuring the value-added student achievement 
attributable to our graduates. As it now stands, our State does not 
have such a system. Further, there are many opponents who would point 
out the flaws in value-added systems. What this does is perpetuate a 
system in which institutions of teacher preparation cannot be held 
accountable for the quality of their graduates. We are working to 
develop our own such system. However, we would benefit from Federal 
help in this area: perhaps requiring States to establish such systems 
and funding their development.
    4. A residency year working with a skilled mentor allows our 
graduates to bypass some of the first-year teacher challenges. Our 
graduates and their principals describe their first year of teaching as 
if it was their ``first-and-a-half '' year. The first year of teaching 
is difficult for all first year teachers regardless of preparation, 
there is no way to get past that reality. However, the fact that BTR 
graduates know the district's curricular and instructional initiatives, 
know the students and the city, and know how the district works, means 
that they do not face the same shocking experience as so many first 
year teachers. They are better prepared, they enter with a network of 
colleagues, and they are more likely to stay.
    5. The fact that BTR is district-based allows us to advocate for 
and leverage other key changes in the district. For example, the 
district investment in teacher preparation has led it to re-think, and 
eventually radically overhaul, how it takes on teacher induction. BPS 
now has a comprehensive induction program for every new teacher hired.

    2. What strategies do you believe are the most effective in terms 
of providing professional development and support for teachers in high 
need schools?
    We now have three cohorts of program graduates working in BPS 
classrooms and are preparing a fourth cohort. We have learned a few key 
lessons:

    <bullet> Teachers need to be part of a strong cohort. Working in a 
school with a cohort of like-minded colleagues is critically important 
to retention. Too many of our graduates report to us that the biggest 
issue they face in their schools is isolation. They want colleagues 
with whom they can share ideas and questions, test out hypotheses, and 
exchange critical feedback. Too often, school cultures do not support 
those types of interactions among teachers. As they work to change 
school cultures (a long-term goal), these recent graduates need a 
critical mass of colleagues with whom they can collaborate. The people 
that we are recruiting and preparing want to work in creative, 
energetic places with other smart people who are similarly dedicated 
and keep them growing and challenged. BTR works to place all of its 
graduates in cohorts once they are prepared and licensed. These cohorts 
then can in turn help change schools. We see the strong effect on 
certain schools of an influx of energetic teachers.
    <bullet> Teachers need regular, skilled, professional feedback 
based in their classroom teaching. All new teachers--even the ``best'' 
teachers, the ones principals do not worry about--need regular feedback 
and opportunities to improve. Too many BTR graduates report to us that 
they rarely--if ever--have an experienced, skilled supervisor in their 
classrooms to observe and provide feedback. They wonder how they will 
improve as teachers without that kind of feedback. BTR provides all of 
our graduates with in-class coaching for 3 years following their 
residency.
    <bullet> Teachers need to see exciting and challenging career 
paths. All teachers, and especially the most talented teachers, need to 
see a set of opportunities for leadership and career differentiation. 
The kind of people our urban schools want and need in teaching could do 
anything--they have the skills and credentials which would gain them 
entry in practically any company--and we need to make the teaching 
profession attractive enough for them to stay. We hear from our 
excellent second and third year graduates that they are looking around 
for ways to stay engaged and growing. They need to be given additional 
responsibility and reward for taking on critical tasks within their 
schools and the district. BTR creates roles for Mentors and Site 
Directors, which provide opportunities for a number of excellent, 
veteran BPS teachers. These roles need to be expanded and further 
formalized across the district.

    The Chairman. That's good. Thank you very much. Barbara 
Maguire is a teacher and math instructional facilitator, Park 
Elementary School, Casper, Wyoming will talk about recruiting, 
supporting teachers from rural areas and strategies the State 
of Wyoming are implementing.
    Yes?
    Senator Enzi. Can I ask one question?
    The Chairman. Sure.
    Senator Enzi. What percentage of Boston teachers actually 
go through your program?
    Mr. Solomon. Right now, it's about 10 or 15 percent. It 
will grow each year to reach about 30 percent.
    Senator Enzi. Thanks.

 STATEMENT OF BARBARA MAGUIRE, TEACHER AND MATH INSTRUCTIONAL 
      FACILITATOR, PARK ELEMENTARY SCHOOL, CASPER, WYOMING

    Ms. Maguire. Good morning. Thank you for inviting me to be 
here. For a small town girl from Casper, Wyoming, this is quite 
an event.
    Wyoming is a unique State with 510,000 people spread over 
97,000 square miles. So we have some challenges that other 
States don't face and some benefits as well. Our State 
legislature funded with the oil and gas taxes, has been able to 
put forth a lot of money toward the teachers in Wyoming. They 
financed some pretty hefty raises last year, which certainly 
helped to attract some teachers. In my district, we were able 
to fill 170 positions between May and August. So for a city of 
50,000 people that was a pretty tremendous event.
    Also, they have begun to pay back teacher loans for 
teachers of math, science, foreign language and special 
education, again a way to attract some teachers to our State.
    But in line with what some of the others have said, we have 
also been able to start an instructional facilitator and mentor 
program. So my work as a mathematics instructional facilitator 
means that as we implement new programs, I am working side-by-
side with both new teachers and experienced teachers in the 
classroom to make sure that those programs are implemented to 
the best benefit of children.
    But instead of all of those programs that our State has 
talked about, I want to talk a little bit about the Wyoming 
National Board Certification Initiative, which is funded by the 
John P. Ellbogen Foundation, a private foundation led by a man 
whose dream was to make sure the best teachers were in the 
State of Wyoming. Mary Ellbogen Garland, whose daughter is the 
president of the foundation and I work for them as an 
instructional workshop facilitator and also as an advisory 
board member. What Mary and the Advisory Board have done is to 
fund the fees for National Board Certification for teachers, to 
fund workshops for National Board Certification process across 
the State and to provide professional development opportunities 
for our National Board Certified teachers.
    I can tell you as a National Board Certified teacher that 
was, without a doubt, the most effective professional 
development for me in 26 years of teaching. I had to look at my 
teaching critically. I had to look at what I know about my kids 
and apply that information to my instruction. So we talk about 
raising test scores and we talk about the importance of those 
numbers but I think sometimes we miss the impact of knowing our 
individual students. Our kids are much more than a number and I 
think sometimes we get away from that personal piece and to me, 
that's where you get a quality teacher--somebody who cares so 
deeply about those kids that they will do absolutely anything 
to help their education.
    One of the things that has been beneficial in Wyoming 
because of our rural nature is that this Board Certification 
Initiative has brought together teachers from around the State. 
We meet multiple times throughout the year. We talk about 
education. This past weekend, I worked with two teachers from 
about 150 miles away who came to Casper for the weekend only to 
talk about how to improve instruction in their writing process 
with their kinder-
garteners and how to integrate mathematics and science and 
those are the kinds of conversations that help to make our 
rural State seem not quite so big.
    I would encourage anything we can do to help teachers take 
part in the National Board Certification process because it is 
one of those things that comes from the inside rather than 
being from external forces. Again, I would say that has been 
the most powerful piece for me and anything we can do to 
improve teaching in the sense of getting those master teachers 
out there to help our beginning teachers is going to be 
beneficial.
    [The prepared statement of Ms. Maguire follows:]

                 Prepared Statement of Barbara Maguire

    Chairman Kennedy, Senator Enzi, and members of the Senate Health, 
Education, Labor, and Pensions Committee: It is truly an honor to share 
my experience as a teacher at this roundtable addressing Strategies for 
Attracting, Supporting, and Retaining High Quality Educators. I am a 
kindergarten teacher and mathematics instructional facilitator--I am 
living my dream.
    Wyoming is in a unique position. Our State government provided 
funding a year ago to put programs into our schools which were designed 
to support and retain teachers. First, they funded a substantial pay 
raise. My district was able to fill 170 teaching positions between May 
and August of last year, largely due to the increase in pay. Many of 
those positions were new positions the legislature felt would increase 
student learning in our schools--instructional facilitators, tutors and 
mentors. Our district now supports an institute model of staff 
development, with intense training followed by regular support provided 
by the instructional facilitators in each school. Teachers are given 
continual support as new programs are implemented. In addition, 
instructional facilitators offer direct interventions for teachers who 
are struggling. Daily support, modeling and feedback from master 
teachers provide intensive, personal interactions designed for each 
teacher's specific needs. Administrators and instructional facilitators 
work hand-in-hand to build a ``culture of coaching'' where all teachers 
work together to impact learning in their schools. In addition to 
instructional facilitators, a cadre of experienced mentors works very 
closely with teachers new to the profession. These mentors meet with 
groups of new teachers to work through common issues and concerns. The 
support of mentors and fellow teachers alleviates some of the sense of 
isolation felt by new teachers struggling to juggle the 
responsibilities and pressures they face in this time of high stakes 
testing. Through these programs, we have made strides in improving the 
conditions teachers face in our schools.
    We are fortunate to have great financial support for public schools 
in Wyoming, but we face unique challenges as well. Our population of 
510,000 people is spread over 97,000 square miles. Many of our teachers 
work in rural communities, where isolation becomes a frustration. There 
are fewer colleagues with whom to work and many teachers are asked to 
teach in subject areas for which they are not well prepared. In 
addition, traveling to conferences or workshops is often limited 
because of the great distances involved. We must create our own 
professional development or bring it in to our communities at great 
cost.
    In addition to the support of our legislature, a private foundation 
has come to the forefront in supporting professional development in our 
State. Throughout his adult life, John P. ``Jack'' Ellbogen believed 
profoundly in the importance of quality education for all Americans. He 
also believed that quality classroom teaching was key to superior 
student learning. During the later years of his life he became most 
concerned over continuing international tests that showed American 
students were falling behind in learning and comprehension, especially 
in math and science. Observing this trend, he felt a strong obligation 
to get involved in the public school education process. His research 
indicated that the program for National Board Certification of teachers 
was considered a proven professional development vehicle to improve 
teaching skills. In March 2004 The John P. Ellbogen Foundation, led by 
Jack's daughter Mary Ellbogen Garland, began a statewide initiative for 
Wyoming National Board Certification. This initiative provides funding 
for certification application fees, statewide workshops and support for 
candidates, and recognition and leadership development for National 
Board Certified Teachers.
    To achieve National Board Certification a teacher must complete 
four portfolio entries, three of which are classroom based with videos 
and/or student work provided as part of the entry. In addition, the 
teacher must demonstrate content knowledge in response to six exercises 
developed for each certificate area. These 10 exercises are evaluated 
based on evidence of accomplished teaching as defined by the National 
Board for Professional Teaching Standards. It is a rigorous process. 
Independent studies have shown that students of National Board 
Certified Teachers do better on standardized tests than students of 
non-National Board Certified Teachers. For example, students of 
National Board Certified Teachers score 7 to 15 percentage points 
higher on year-end tests than students of non-National Board Certified 
Teachers (D. Goldhaber, University of Washington) and students of 
National Board Certified Teachers showed learning gains equivalent to 
spending an extra month in school. (L. Vandervoort, Arizona State 
University) The research also shows that National Board Certified 
Teachers consistently outperform their peers in knowledge of subject 
matter, ability to adapt instruction and ability to create challenging 
and engaging lessons. (L. Bond, University of North Carolina, 
Greensboro)
    Without hesitation I will say that the National Board Certification 
process is the most powerful professional development I've experienced 
in my 26 years as an educator. I critically examined my teaching, 
connecting the knowledge of my students' individual needs to my 
instruction. I began to reflect on my practice, looking for strategies 
that were effective and changing those that were not. I became 
painfully aware that every decision I made had consequences, forcing me 
to be very deliberate in my decisionmaking. Most importantly, I learned 
how to analyze lessons ``on the fly'' so that I could provide the most 
effective instruction possible for my students.
    Currently, I am a member of the Advisory Board of the Wyoming 
National Board Certification Initiative, as well as its lead workshop 
facilitator. Since 2004, the initiative has made great strides in 
promoting National Board Certification in our State. We have 77 
National Board Certified Teachers in Wyoming and 197 teachers presently 
registered as candidates. The work of the Initiative has created a 
National Board ``family.'' Candidates come together at workshops in the 
summer or early fall to learn the specifics of the process and begin 
work on portfolios. A work session in January gives candidates another 
chance to come together to discuss teaching and learning. Many of 
Wyoming's NBCTs have worked together as candidate support providers to 
help those presently in the process. This work in collegial groups has 
helped to lessen the feeling of isolation so common in Wyoming. We are 
creating a network of teachers who understand the importance of 
continuing to challenge ourselves. We are helping good teachers become 
great teachers.
    In addition to providing ongoing professional renewal through the 
National Board Certification process, the Initiative is dedicated to 
supporting leadership development for National Board Certified 
Teachers. For those needing a career advancement track, National Board 
Certification can open doors and provide opportunities for teachers to 
take leadership positions while remaining in the classroom. An annual 
incentive bonus coming from the State may also help retain good 
teachers, as it is only available to those in full-time teaching 
positions.
    Most professional development funded by my school district is based 
on student needs drawn from scores on State and local assessments. 
These opportunities are not responsive to the individual needs of 
students or teachers. The training tends to be impersonal and often 
ineffective, as teachers fail to see the connection between new 
learning and their students. National Board Certification addresses 
both student assessment data and the connection to the students. It 
comes from a teacher's inner desire to grow personally and 
professionally, rather than being driven by external demands. It 
requires teachers to analyze instruction and its effectiveness, and use 
personal knowledge of students along with assessment data to make 
decisions for teaching.
    As evidenced by the National Board Certification process, the 
measure of a teacher cannot be made through test scores alone. While 
local, State and national assessments provide information about how 
we're doing, they cannot stand on their own. It is important to 
recognize our children and our teachers as individuals, and work to 
find ways to meet their unique needs. We know that we can learn new 
strategies and skills for teaching, but we must also value our teachers 
as artists, as they nurture the medium that is our youth.

    The Chairman. Thank you very much. Dr. Beverly Young, 
Assistant Vice Chancellor of Academic Affairs at Cal State 
University. Dr. Young works at 23 campuses in the Cal State 
system to improve teacher preparation, particularly in math and 
science. She also serves as a representative in the California 
Commission on Teacher Credentialing and Dr. Young will discuss 
the critical need to increase the number of math and science 
teachers, focusing on what Cal State is doing to meet the 
challenge.
    Dr. Young.

STATEMENT OF BEVERLY YOUNG, PH.D., ASSISTANT VICE CHANCELLOR OF 
ACADEMIC AFFAIRS, TEACHER EDUCATION AND PUBLIC SCHOOL PROGRAMS, 
      CALIFORNIA STATE UNIVERSITY, LONG BEACH, CALIFORNIA

    Ms. Young. Thank you and thank you, Chairman Kennedy and 
members of the committee. Thanks for inviting the Cal State 
University to talk about our work. I have to say that the work 
of this committee has so many areas I'd love to talk with you 
about, that I've heard about and that--the definition of a 
highly qualified teacher, the NCLB provisions, the distribution 
of teachers that Amy was talking about, program accountability 
and evaluation, which the CSU is very much into, the issues of 
college and career readiness, value-added models of 
accountability--all of those things I'm so interested in but--
--
    The Chairman. Okay, for the panel. We are focusing, 
obviously, you know, on the teacher but you all have experience 
in these other areas. We'd welcome your comments on those, too, 
if you want to submit additional comments. You just listed an 
important list so we'd welcome having the additional but we're 
giving the focus on this topic today. But for others that want 
to give recommendations to the committee on these other items, 
we'd welcome them. Thank you.
    Dr. Young.
    Ms. Young. Okay. Well, I'll stick to the math and science. 
I won't even talk about standard deviations but maybe I'll come 
to back to some of those other things.
    [Laughter.]
    The Chairman. Thank goodness.
    Ms. Young. The California State University is the largest 
4-year university system in the country. We award about 84,000 
degrees every year and about 13,000 teaching credentials, which 
represents about 10 percent of the country's total. In math and 
science, we've launched a new initiative to increase the number 
of fully qualified math/science teachers and have increased our 
production by almost 38 percent over the last couple of years. 
We have about 1,000 new math and science teachers graduate from 
the CSU every year.
    As part of this initiative, we've identified seven 
strategies. They are all outlined very specifically in the 
written testimony that provide a comprehensive, systematic 
approach to this. I'm going to describe three of these central 
strategies for you.
    The first, our campuses have focused very heavily on----
    The Chairman. Move your mic just a little closer, if you 
would, please.
    Ms. Young. On developing new pathways, new potential routes 
for math and science teachers who will be fully trained and 
their credential preparation includes a full major in their 
discipline--math and science teachers who really understand 
math and science and how to teach math and science.
    In California, they've developed a new credential for math 
teachers that bifurcates the requirement that allows math 
teachers who are only going to teach up to middle-school level 
math, to have less preparation, less math background than high-
school math teachers, who are teaching things like advanced 
calculus and statistics and standard deviations. We've 
increased our production of middle-school math teachers by 84 
percent, which is a huge shortage area, middle-school math 
teachers.
    The second approach we've taken is a collaboration with 
community colleges. California has 109 community colleges and 
that represents the largest pool of future teachers. Seventy 
percent of our graduates start their educational career in the 
community college. A huge, diverse pool for our math and 
science teachers--we've developed articulation for seamless 2- 
and 4-year programs to reach into the community college and 
bring those people into the CSU and into credentialing.
    We rely a great deal on those efforts on National Science 
Foundation grants and opportunities there.
    The third approach we focus on is provision of financial 
aid and support for math and science teachers. We use 
scholarships, grants, loan cancellation--these are all critical 
for math and science teachers. We use loan assumption programs 
to cancel student debt. We feel that students preparing for 
math and science teaching careers should have their tuition and 
fees covered as they earn their credential. We use NSS--
Scholarship Program. Eleven of our campuses participate in that 
program and more are currently applying.
    Finally, in math and science, I would mention two elements 
about professional development that are also critical. Math and 
science both are fields that are constantly changing. It's not 
enough to get more good qualified teachers out there. We need 
to keep them current in their field and keep them motivated to 
stay. Two strategies that we find that are particularly 
effective for that are long-term partnerships between the 
universities and the school districts so you are providing 
professional development that is based in research but grounded 
in practice. Second, sustained professional development within 
teacher learning communities that allow the teachers to 
participate in the development of their programs.
    I think I'm at the red light. I'll stop. But I look forward 
to answering any questions you may have.
    [The prepared statement of Dr. Young follows:]

               Prepared Statement of Beverly Young, Ph.D.

                              INTRODUCTION

    Chairman Kennedy, Ranking Member Enzi, and members of the 
committee, thank you for inviting me to discuss the efforts of the 
California State University (CSU) system to double its production of 
credentialed math and science teachers. The CSU commends the committee 
for its attention to this critically important task.

              THE CALIFORNIA STATE UNIVERSITY--BACKGROUND

    Few, if any, university systems can match the scope of the CSU 
system. The CSU is the largest 4-year university system in the country, 
with 23 campuses, approximately 417,000 students and 46,000 faculty and 
staff. The CSU's mission is to provide high-quality, affordable 
education to meet the ever-changing needs of the people of California. 
Since the system's creation in 1961, it has awarded about 2 million 
degrees. We currently award approximately 84,000 degrees and 13,000 
teacher credentials each year.
    The CSU plays a critical role in preparing outstanding candidates 
for the job market. Our graduates help drive California's aerospace, 
healthcare, entertainment, information technology, biomedical, 
international trade, education, and multimedia industries. The CSU 
confers 65 percent of California's bachelor's degrees in business, 52 
percent of its bachelor's degrees in agricultural business and 
agricultural engineering, and 45 percent of its bachelor's degrees in 
computer and electronic engineering. The CSU also educates the 
professionals needed to keep the State running. It provides bachelor's 
degrees to teachers and education staff (87 percent), criminal justice 
workers (89 percent), social workers (87 percent) and public 
administrators (82 percent). Altogether, about half the bachelor's 
degrees and a third of the master's degrees awarded each year in 
California are from the CSU.
    One key feature of the CSU is its affordability. For 2006-7, the 
CSU's systemwide fee for full-time undergraduate students is $2,520. 
With individual campus fees added, the CSU's total fees average $3,199, 
which is the lowest among any of the comparison public institutions 
nationwide.
    Close to 60 percent of the teachers credentialed in California (and 
10 percent of the Nation's teachers) each year are prepared by the CSU. 
Chancellor Charles Reed and the CSU Board of Trustees have made high-
quality teacher preparation one of the highest priorities of the 
system. Following a decade of unprecedented growth and reform in public 
K-18 education, the CSU Board of Trustees in 1998 embraced systemwide 
efforts to improve teacher preparation in a policy entitled CSU's 
Commitment to Prepare High Quality Teachers.

      THE CALIFORNIA STATE UNIVERSITY AND MATHEMATICS AND SCIENCE 
                          TEACHER PREPARATION

    The California State University (CSU) has brought together its 
range of programs in science and mathematics leading to a baccalaureate 
degree and to a teacher education credential to address severe teacher 
shortages in these fields. In 2005, CSU awarded 651 math, 1,930 
biological sciences, and 516 physical sciences (chemistry, geosciences, 
and physics) undergraduate degrees. Although these are only some of the 
fields that are precursors to teaching credentials in mathematics and 
science, they provide evidence of an institutional capacity to address 
the challenges the State faces.

         THE CSU MATHEMATICS AND SCIENCE TEACHER INITIATIVE \1\

    As a system, CSU's goal is to at least double the production of 
math and science teachers during the next 5 years. This means 
increasing from a baseline figure of approximately 750 new math and 
science teachers produced annually to a minimum of 1,500 new teachers 
produced in these fields by 2009-10.
---------------------------------------------------------------------------
    \1\ See http://www.calstate.edu/teachered/MSTI.
---------------------------------------------------------------------------
    CSU's Math and Science Teacher Initiative began in 2004-5 through a 
planning process involving all of its 23 campuses. A seven-part action 
plan was developed that is focused on meeting ``one goal through 
diverse pathways.'' Each campus is committed to a specific plan based 
on regional needs and strengths. Plans designate a numerical goal for 
increased credential production. They include a variety of promising 
strategies and programs for reaching goals.

      Component #1. Comprehensive Recruitment Aimed at Expanding 
                and Diversifying the Pool of Candidates

    Objective: To significantly expand recruitment of new math and 
science teacher candidates.

    Programs: Comprehensive, sustained, and innovative recruitment and 
marketing initiatives.

    The first component of CSU's action plan is directed toward 
substantially expanding and diversifying the pool of qualified 
candidates for math and science teaching. It is a broadly-based 
recruitment effort targeted to college students and recent graduates, 
community college and high school students, mid-career and pre-
retirement professionals, recent retirees, and teachers with the 
potential to change fields. Campuses are using a wide range of print 
and electronic tools for comprehensive and innovative marketing and 
recruitment approaches using a variety of media. The CSU Teacher 
Recruitment Projects, for which $75,000 of lottery funds are allocated 
annually to each campus, offer advising, test preparation, and 
financial aid to students.

           Component #2. Creation of New Credential Pathways

    Objective: To establish multiple new pathways to mathematics and 
science teaching credentials.

    Programs: A broad range of new programs beginning at the freshman 
level and continuing through fast-track post-baccalaureate options.

    A central part of the CSU strategy to expand math and science 
teacher production is the creation of new credential pathways. The 
purpose is to establish multiple points of entry into these fields for 
individuals at different educational and career stages. New pathways 
include, for example, (1) the new Foundational Level math credential 
for middle school teachers and (2) blended programs for undergraduates 
in which an academic major and teacher preparation are integrated in an 
articulated program of study. These blended programs are particularly 
promising because teacher preparation begins well before California's 
traditional post-baccalaureate program, and college students can 
typically complete these programs in slightly more than 4 years.
    Several campuses are planning new pathways that will enable 
professionals in math and science-based fields to transition to careers 
in math and science teaching--including efficient, fast-track paths to 
the State's recently established specialized science credentials. These 
enable individuals with Ph.D.s to earn a teaching credential rapidly. 
Other approaches are focused on assisting credential candidates 
initially enrolled in different fields and current teachers in other 
fields to obtain a teaching authorization in math or science.

        Component #3. Internet-Supported Delivery of Instruction

    Objective: To create systemwide Internet-supported math and science 
credential preparation resources.
    Program: A new online-supported teacher preparation program in 
mathematics and science.

    To accommodate the needs of diversified pools of candidates, 
flexible preparation options are needed. Anytime, anyplace instruction 
is particularly advantageous for candidates who are career changers and 
currently fully employed. Learning from the infrastructure created for 
CalStateTEACH (the CSU statewide site-based credentialing program), 
CSU's initiative includes development of Internet-supported instruction 
to be available to candidates and programs statewide. California 
Polytechnic University at San Luis Obispo is leading the development of 
this effort.

          Component #4. Collaboration with Community Colleges

    Objective: To implement integrated 2-year/4-year math and science 
credential preparation programs with California's community colleges.

    Programs: Partnerships with community colleges that align lower 
division and upper division math and science teacher preparation and 
institutionalize early recruitment and academic advising in these 
fields.

    California's community colleges represent one of the largest 
potential recruitment pools of future math and science teachers in the 
State. A central component of campus plans is collaboration with 
community colleges in integrated 2-year to 4-year programs that provide 
an articulated and continuous sequence of preparation for math and 
science teaching. CSU campuses are working with their regional feeder 
community colleges to establish articulated programs. The Chancellor's 
Offices of the CSU and of the California Community College System have 
entered into a Memorandum of Understanding (MOU) that identifies the 
system-level strategies to be implemented in support of 2-year to 4-
year articulated pathways.

             Component #5. Financial Support and Incentives

    Objective: To provide financial support for new math and science 
teachers through the full array of available fiscal mechanisms.

    Programs: Scholarships, loan assumption programs, paid tutoring, 
service learning, school district internships.

    An important component of CSU's strategy--one essential for its 
success--is having sufficient support for candidates through 
scholarships and loan assumption/cancellation programs, paid tutoring, 
and internship opportunities that will make teacher preparation 
financially attainable and attractive for college students of all 
backgrounds. This is particularly important because students from 
underrepresented groups, those most often in need of financial 
assistance, must increasingly be a substantial part of the math and 
science teacher work force. Expanding their participation within these 
professions is a central component of CSU's strategy.
    A major effort has been undertaken by CSU in collaboration with the 
California Student Aid Commission to foster maximum utilization of 
California's Assumption Program of Loans for Education (APLE). Outreach 
efforts ensure that all CSU students know of this important State 
program for future teachers, which provides up to $19,000 of loan 
forgiveness for new math and science teachers. CSU campuses have 
awarded loan cancellation funding to more than 4,000 teacher education 
students in the past year, enabling them to enter the teaching 
profession in math, science, and other teaching shortage fields with 
little or no debt.
    Tutoring is another important vehicle providing financial support 
and additional recruitment benefits. Research shows that the desire to 
assist others is a primary factor in recruitment into math and science 
teaching and that the opportunity to do so enhances the quality of new 
teacher preparation in these fields. On a number of CSU campuses, both 
service learning and paid tutoring are being integrated with math and 
science teacher recruitment. Using community service learning to foster 
interest in math and science teaching is a priority of the CSU system.
    An additional approach for providing financial support to 
candidates is through paid internships in lieu of student teaching. 
These internships are typically followed by full-time teaching 
positions in the same school or school district. Numerous CSU campuses 
have arrangements with surrounding school districts that provide paid 
internships for math and science candidates. CSU campuses provide 
significant support for their teacher candidates in intern positions in 
order to ensure that they have the kind of guidance and assistance they 
need to be successful.

  Component #6. Supporting and Evaluating Promising Approaches Having 
                           Scale-Up Potential

    Objective: To identify cost-effective math and science teacher 
recruitment and preparation approaches.

    Programs: Implementation and examination of a range of different 
expansion approaches.

    The CSU strategy is a carefully planned effort aimed at supporting, 
refining, and scaling up especially promising and cost-effective 
approaches for preparing highly qualified math and science teachers. 
Priority is placed on identifying, supporting, and examining strategies 
for increasing credential production that have clear potential for 
replication at multiple campuses.
    An example is seen in campus programs that prepare candidates for 
the new Foundational Level math credential. The credential is designed 
particularly for middle school math instruction, a field in which a 
very large shortage of qualified teachers exists in California and 
nationally. There is a need for teachers with the new math credential 
in all regions of the State, and CSU campuses are piloting a range of 
promising approaches preparing individuals to earn it.
    The Chancellor's Office has begun identifying especially effective 
approaches implemented by campuses for achieving growth in math and 
science teacher production. These approaches are being examined 
thoroughly and will be described in detail for adoption by other 
campuses.

        Component #7. Partnerships with Business, Industry, and 
                          Federal Laboratories

    Objective: To institutionalize partnerships that enhance the 
attractiveness of teaching careers in math and science.

    Programs: Partnerships with business, industry, and Federal 
laboratories enriching math and science teachers' career opportunities.

    Long-term success in increasing production and retention of math 
and science teachers requires the active participation of corporate 
leaders and partnerships with Federal laboratories. They can assist to 
bring about fundamental changes in the societal value-accorded math and 
science teaching and in the attractiveness of careers in these fields.
    Business and industry involvement often includes scholarships for 
future math and science teachers. The CSU system has a longstanding 
partnership with the Boeing Company, for example, through which 
scholarships have been provided to future math and science teachers. 
Federal Department of Energy Labs in California have provided 
opportunities for paid summer laboratory experiences for CSU teacher 
candidates in ongoing research, and plans are in motion to expand this 
effort. In collaboration with education programs at the Jet Propulsion 
Laboratory (JPL), CSU established the CSU-NASA partnership several 
years ago. It enables CSU campuses to connect with the Nation's most 
advanced applications of technology as they prepare future math and 
science teachers.

        REPORT OF INITIAL RESULTS OF CSU INITIATIVE: MARCH 2007

    Progress to date indicates that CSU's initiative is on course for 
achieving intended outcomes. Since launching of the initiative 2\1/2\ 
years ago, credential production has increased 37.6 percent, from 768 
to 1,057. Production increased 64 percent in mathematics and 16 percent 
in the sciences. In math, more than two-thirds of the increase is 
attributable to growth in the new Foundational Level credential. In the 
sciences, more than one-quarter of the increase has been in the newly 
authorized specialized credentials. Both of these patterns of gain 
demonstrate the importance of creating new credential pathways. 
Increases have occurred in the severest shortage fields: more than 15 
percent of the increase in the sciences has been in the physical 
sciences (physics and chemistry), fields particularly in need of 
increased production.
    To sustain long-term growth, recruitment efforts are needed that 
significantly increase pools of credential candidates from all 
backgrounds. CSU campuses have made significant efforts to raise 
scholarship funds to assist in recruitment. Last year, four additional 
CSU campuses were awarded prestigious National Science Foundation (NSF) 
Robert Noyce Scholarship grants for mathematics and science teachers. 
This program has been a priority for CSU campuses, and a total of 11 
now have been awarded these NSF grants.
    A significant issue requiring long-term, sustained attention is 
math and science teacher retention. The majority of CSU campuses host 
professional development programs for teachers, targeted especially for 
high need schools. CSU campuses will be expanding their efforts in this 
area with support through No Child Left Behind Title II funds to 
institutions of higher education in the State. These programs typically 
include intensive summer institutes accompanied by creation of learning 
communities during the school year. Programs of this nature have been 
shown to be effective in providing support for teacher effectiveness 
and growth. The CSU programs have been based on thorough needs 
assessments that identify local teachers' needs.
    Expanding professional development roles of campuses is important 
to CSU in relation to its commitment to place math and science teachers 
in high-need schools. CSU has entered into a partnership with the 
California County Supervisors Educational Services Association in a 
$2.87 million project aimed at addressing this issue by recruiting math 
and science teacher graduates to consider teaching in the highest need 
schools in the three largest regions of the State.

       CSU TEACHER EDUCATION EVIDENCE AND ACCOUNTABILITY SYSTEMS

    The CSU annually conducts the largest and most comprehensive 
evaluation of the outcomes of its teacher education programs in the 
Nation. The annual CSU Systemwide Evaluation of Teacher Education 
Programs has been in place since 2001. It consists of a comprehensive 
outcome evaluation of interrelated components of teacher preparation 
that, taken together, provide a rich and detailed picture of program 
quality and effectiveness. It has to date included analyses of:

    <bullet> the level of each graduate's preparation during his or her 
initial years of 
K-12 teaching, as reported by CSU's teaching graduates;
    <bullet> the effectiveness of programs as reported by the school 
site supervisors of CSU graduates during their first years of teaching; 
and
    <bullet> the placement and retention of CSU teacher education 
graduates in teaching careers.

    Beginning in 2007-8, the annual evaluation will include data on the 
effects of CSU teacher preparation programs, including its math and 
science programs, on the learning gains of K-12 pupils, enabling the 
CSU to further assess the success of its math and science teacher 
initiative.

                               CONCLUSION

    The CSU and its campuses have initiated a wide range of strategies 
that have substantial promise for increasing the size and the quality 
of the mathematics and science teacher workforce. We thank you for your 
interest in the CSU and our efforts to prepare the substantial numbers 
of high quality teachers in these fields who are essential if we are to 
continue to compete in the global economy. I will be pleased to answer 
any questions you might have, and look forward to working with you in 
this critical area in the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  California State University Mathematics and Science Teacher Summit 
           Meeting California's Challenge--March 2, 2006 \2\

                           PURPOSE OF SUMMIT

    The Recruiting and Preparing Mathematics and Science Teachers 
Summit held on March 2, 2006 helped to launch the California State 
University (CSU) Math and Science Teachers initiative (MSTI). It 
engaged leaders throughout the CSU system in a wide-ranging discussion 
of strategies for significantly increasing the production of 
mathematics and science teachers--thereby laying a foundation for each 
campus' role in expanding math and science teacher preparation. The 
Summit, in this fashion, addressed the most significant human resource 
issues that California and its science- and technology-based industries 
face today.
---------------------------------------------------------------------------
    \2\ The complete agenda and presentations from the Summit are 
available at: www.calstate 
.edu/teachered/msts.
---------------------------------------------------------------------------
                               BACKGROUND

    Leaders across American society have recognized the critical 
importance of recruiting and training more and better-prepared 
mathematics and science teachers for the Nation's schools. This was a 
central conclusion of Rising Above the Gathering Storm: Energizing and 
Employing America for a Brighter Economic Future, the recently issued 
report of National Academy of Sciences' Committee on Prospering in the 
Global Economy of the 21st Century.
    The committee, which included among its members several current and 
former industry chief executive officers, university presidents, 
researchers--including three Nobel prize winners and former 
presidential appointees--reported as the highest priority action to be 
taken: Annually recruit 10,000 science and mathematics teachers. Its 
second priority action was: Strengthen the skills of math and science 
teachers through training and education programs. And its third 
priority action was: Enlarge the math and science pipeline by 
increasing the number of students who take advanced science and 
mathematics courses during high school.
    The recommendations of this National Academy of Sciences Committee 
conform closely with the design the California State University is 
initiating within its landmark Mathematics and Science Teacher 
Initiative. The May 2004 compact between Governor Schwarzenegger and 
California's higher education community identified the critical 
shortage of K-12 mathematics and science teachers as a major priority. 
A commitment was made by the California State University system to 
double the production of mathematics and science teachers by the year 
2010.

                    SUMMIT PARTNERS AND PARTICIPANTS

    The California State University Chancellor's Office co-sponsored 
the Summit with a number of partners, including Apple Computer, The 
Boeing Company, the California Space Authority, the California Council 
on Science and Technology, the Center for the Future of Teaching and 
Learning, Edison International, the Majestic Realty Company, Morgan 
Stanley, Jet Propulsion Laboratory, and State Farm Insurance. The 
attendees included representatives from throughout the CSU system, 
California's other K-12 and higher education institutions, and 
business, foundation, and governmental agency leaders.

         Memorandum of Understanding--Pathways to Mathematics 
                        and Science Teaching \3\

    California faces a shortage of fully credentialed and qualified 
mathematics and science teachers and has within its current teaching 
workforce in these fields a much smaller proportion of teachers from 
diverse backgrounds than are represented in the K-12 student 
population.
---------------------------------------------------------------------------
    \3\ This summary includes the primary substantive provisions of the 
complete Memorandum of Understanding.
---------------------------------------------------------------------------
    California's community colleges enroll half of all freshman college 
students in California and the majority of underrepresented college 
freshmen. Coordinated efforts between the California Community Colleges 
(CCC) and the California State University (CSU) can help to increase 
the number of credentialed teachers in mathematics and science, 
including teachers from underrepresented backgrounds, and to ensure 
alignment between community college programs of study and subsequent 
university preparation for teaching in these fields.
    Therefore, the CSU and the CCC agree to implement the following 
provisions of this Memorandum of Understanding:

    1. CSU and CCC will collaborate in publicizing the significant need 
for mathematics and science teachers in California and the opportunity 
to complete an articulated program of preparation that begins with 
lower-division preparation at the community college and is completed at 
the CSU.
    2. CSU and CCC will make available Web-based resources that provide 
recruitment, academic advising and financial aid information to CCC 
Transfer Center Directors, CCC Counselors, and CSU Teacher Recruitment 
Project Directors for supporting community college students interested 
in teaching careers. Financial aid resources will provide details on 
relevant grants, scholarships, and loan assumption programs and include 
assistance to community college students in acquiring APLE loan 
repayment awards upon transfer to a CSU campus with 60 semester units.
    3. CSU and community college campuses will involve their respective 
mathematics and science faculty in aligning programs and coursework for 
community college students interested in teaching. They will (a) 
identify at least six units of lower-division coursework in the 
mathematics and science Lower Division Transfer Patterns (LDTP) 
relevant to preparing for teaching, and (b) include in this coursework, 
as appropriate, experiences that foster understanding of K-12 teaching, 
but do not reduce or eliminate course requirements either of the 
community colleges or necessary to maintain articulation with 4-year 
institutions.
    4. CSU campuses will establish regional Mathematics and Science 
Teaching Pathways Advisory Committees. These Advisory Committees will 
generally be established in connection with Teacher Recruitment 
Projects. The Advisory Committees will assist in the planning of 
recruitment activities and in the design of programs and courses in 
mathematics and science for transfer students. The Advisory Committees 
shall include representatives of community colleges, CSU mathematics, 
science, and education faculty, and other educators as appropriate.
    5. CCC and CSU will actively promote cross enrollment and dual 
admissions programs for community college students interested in 
mathematics and science teaching. Examples of effective practices will 
be jointly disseminated by the respective Chancellor's Offices.
Building Evidence Systems for Accountability and Improvement in Teacher 
Education: The California State University's Center for Teacher Quality

                               BACKGROUND

    With 23 campuses and an annual enrollment of more than 400,000 
students, California State University (CSU) is the largest public 
university system in the world. Central to its core mission is the 
preparation of the education workforce in California. Close to 60 
percent of the teachers credentialed in California each year are 
prepared by the CSU. Chancellor Charles Reed and the CSU Board of 
Trustees have made high-quality teacher preparation one of the highest 
priorities of the system. Following a decade of unprecedented growth 
and reform in public K-18 education, the CSU Board of Trustees in 1998 
embraced systemwide efforts to improve teacher preparation in a policy 
entitled CSU's Commitment to Prepare High Quality Teachers.
    Beginning in 2001, each CSU campus participates annually in the 
Systemwide Evaluation of Teacher Education Programs. A central purpose 
of this evaluation is to provide information that the Deans and other 
campus leaders can use in making improvements in teacher education 
programs. Rather than viewing the evaluation as a one-time event, the 
Deans committed to an ongoing evaluation that would provide them with 
fresh data about the quality of their programs each year.
    As a partner with public schools in the education enterprise, the 
CSU uses feedback information at two levels: Individual CSU campuses 
make improvements in teacher preparation programs based on the many 
specific evaluation findings, and the CSU system undertakes systemwide 
initiatives when evaluations reveal systemwide needs. The CSU credits 
teachers and administrators for these opportunities to strengthen the 
teaching profession.
    The CSU knows of no other system of 4-year universities that has 
relied on teacher and administrator feedback for so many years. CSU 
teacher education programs have benefited richly from the advice and 
guidance of K-12 professionals.
    The CSU Systemwide Evaluation consists, structurally, of the six 
interrelated sets of activities and outcomes of teacher preparation 
shown in Figure 1 below. Taken together, the evaluation of these six 
areas provides a rich and detailed picture of program quality and 
effectiveness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you. Very helpful. Wanda Watkins, 
Principal, Thurgood Marshall Elementary School, Richardson, 
Texas. Wanda has worked in Richardson Public Schools more than 
20 years as a Spanish teacher, guidance counselor, assistant 
principal and principal. She is currently the principal at 
Thurgood Marshall Elementary School, which opened in 2005 and 
is a teacher at the Advanced Program School. So we thank you 
very much and look forward to your testimony.

  STATEMENT OF WANDA J. WATKINS, PRINCIPAL, THURGOOD MARSHALL 
              ELEMENTARY SCHOOL, RICHARDSON, TEXAS

    Ms. Watkins. Thank you, Chairman Kennedy and I thank the 
other members of the committee for having me here today. It is 
indeed a great honor; in fact, it's an awesome wonder that I'm 
here and I'm excited to share with you the experiences that we 
have enjoyed at Thurgood Marshall Elementary.
    I am so happy to say that we do have a program, the Texas 
Advancement Program, that is in place and it is really focusing 
on every child. We embrace No Child Left Behind. We don't do 
standard deviation and study that but our focus is on every 
single student and value-added gain and as we look at the 
challenges, I want you to just for a moment, walk through my 
challenges with me, because in that way, even though I outlined 
them for you in the written testimony, when you hear them, I 
think you will get a better feel for what has been accomplished 
at Thurgood Marshall Elementary.
    It is in the heart of an area surrounded by apartment 
complexes and it is like an inner-city school and it has the 
challenges of an inner-city school. You know, I was around 
years ago when we talked about how little Johnnie could not 
read and everybody was concerned that little Johnnie could not 
read. Well, I have a lot of children in my school and they are 
little Johnnie's children and little Johnnie's grandchildren 
and little Johnnie, unfortunately, has joined the ranks of 
those in prison or he's been lost to the streets and now we 
have his children, who last year could not read and thanks to a 
program that attracted effective, quality teachers and thanks 
to a program that worked very diligently with the job embedded 
plan to teach teachers weekly, the strategies that they needed 
to address the needs of those children who could not read. We 
saw some great gains over the past year.
    And what is so wonderful about it is that not only has it 
built collegiality among my staff members, something that I 
tried for years to accomplish and could not do, as I outlined 
for you in the written testimony, it has done that. It has 
addressed the needs of those children and we have enjoyed just 
tremendous, outstanding growth for children who came to us from 
Louisiana, when the hurricane hit there and from other parts of 
the city, from inner-city Dallas schools where moms where 
trying to escape to an area--they had heard that the school 
district was great in Richardson. They wanted to be a part of 
that. They were looking for better housing, which Richardson 
does provide. And so they came to us but they came to us with a 
lot of needs. They came to us with a lot of children who had 
been sat in front of the television set as a babysitter and 
those children come to us without a whole lot of experiences, 
without background knowledge and our teachers have to learn how 
to address those needs so that those children can succeed, so 
that they can be successful.
    And I'm very passionate about education so it's going to be 
very difficult to speak about something I'm so passionate about 
in such a short time. I'm also very convinced that the Teacher 
Advancement Program has made a big difference in the school and 
it's going to be difficult to briefly talk about such an 
outstanding program that has done so much for my children.
    When they came to us last year, they had so many needs and 
teachers were so frustrated and I was opening a brand new 
school and it was so difficult to try to build relationships 
and instill trust, administrator to teacher and teacher to 
teacher and then teacher to children and even peer to peer. 
Nobody knew anybody and the school was open to alleviate the 
crowded conditions that existed in high-needs area in the 
Richardson Independent School District. So just briefly 
speaking, I want to just quickly say that the Teacher 
Advancement Program, as we interviewed teachers and tried to 
recruit teachers to staff this huge new school, one of the 
things that we saw is their countenance just totally change and 
light up. When we talked to them about how they were going to 
have a mentor who was going to address strategies that had been 
proven effective. They were research-based. They were going to 
help those children to make gains over 1 year of time and they 
knew they were not in it by themselves.
    I could so much relate to that because as a teacher in the 
trenches, I had gone to so many staff development sessions 
where I had to sit and listen and try to go back to my school 
and implement everything that I heard. Often they were 
wonderful, wonderful strategies that I knew would work. But 
without a mentor to guide me through that, without somebody to 
coach me and to walk me through it and to show me how to 
implement it in my classroom was just an outside consultant who 
was not gathering data on my own personal children. I was quite 
overwhelmed often and did not know how I was going to go back 
in the classroom and implement those strategies that I really 
believed would work. So I often did what many educators do--all 
of the materials went on my shelf and I thought, I'll get to it 
sometime. And the tragic result of that was no change in 
classroom practices.
    With what the Teacher Advancement Program does for 
children, with the ongoing coaching and the weekly classroom 
meetings to address needs and to talk to teachers about data 
that they gathered--the master teachers--as they work with 
their students. That makes a huge difference because those 
master teachers go in and team teach with the teachers. They go 
in and model for the teachers. The teachers get to see that and 
then they coach them through it when they go back and observe 
them. They provide data on children that those teachers teach 
and they get great effective buy-in.
    So for those reasons, to have a job-embedded program that 
does not ask exhausted teachers to attend another staff 
development session at the close of a day or at the end of a 
week on a Saturday, has been most effective. I totally embrace 
it. It does not leave children behind.
    I would like to share the great gains but I know I don't 
have time but I must not close without saying that just 
yesterday, I learned that a high stakes test in Texas that 
accesses children's knowledge and skills, which we took in 
February, I am so, so proud to report that 80 percent of the 
students in third grade this year, having taken a high stakes 
test like that for the first time, have passed that test after 
only the first administration. That is far greater than what we 
did last year at this time, when only 55 percent of them had 
passed.
    So the Teacher Advancement Program has maintained its high 
standards for excellence and I'm just thrilled to talk about a 
program that focuses on the child and that really ensures that 
that child does not get left behind and that he experiences 
those opportunities in school that he does not get in his home.
    [The prepared statement of Ms. Watkins follows:]

                 Prepared Statement of Wanda J. Watkins

    I would like to thank Chairman Kennedy, Ranking Member Enzi, and 
the other members of the committee for inviting me to testify here 
today. It is a great honor, and I am delighted to have the opportunity 
to share with you some of our experiences at Thurgood Marshall 
Elementary School. We are located in the Dallas metropolitan area in 
Richardson Independent School District.

    1. What specific strategies, programs or policies have been 
effective in addressing the need for qualified educators in your 
community? What outcomes or progress--with respect to the recruitment 
and retention of these educators--have been made as a result of these 
strategies?

                             THE CHALLENGE

    I would like to start by noting that as a high-need urban school 
with very high student mobility rates, we face the challenge of making 
more than a year's academic growth with many of our students on a 
consistent basis. Teachers in our school must be able to make these 
kinds of academic gains with students to meet our goals as educators, 
and those articulated by Congress in ``No Child Left Behind.'' This 
means our teaching staff must be consistently exemplary, and we must 
create an environment that encourages them to remain at Thurgood 
Marshall.
    Thurgood Marshall Elementary School has a very high-need student 
population. Our free and reduced lunch percentage is approximately 90 
percent. Of the 540 students we serve, African-American students 
comprise 80 percent of our student population with Hispanic students 
comprising 19 percent of the population. The school is located in an 
area that is surrounded by apartment complexes. One would naturally 
surmise that the children from those neighboring apartment buildings 
would make up my student population. Quite the contrary is true! The 
boundary lines have been configured so as to allow a minimal number of 
the Thurgood Marshall students from nearby apartment buildings to 
attend. Most of our students come from apartments that are located on 
the opposite side of a very busy freeway; thus these students ride 
buses to the school. As a result, many of our students and parents are 
not able to attend after school extra curricular activities or receive 
additional assistance because they lack transportation. Teachers who 
would provide additional aid to children before and/or after school are 
unable to do so because students are not available.
    Moreover, many of our students come from one parent homes, and an 
extraordinary number of those parents are very young single mothers. 
These families tend to have very limited income, which results in 
frustrated young mothers who are sometimes abusive to their children as 
they strive to cope with their own personal struggles. Teachers 
encountered a great number of young mothers who were not capable of 
appropriately conferencing with teachers regarding their children's 
academic and/or disciplinary issues, etc. Frequently, they resorted to 
the use of intimidating behaviors, which included shouting, cursing, 
and threatening. Most of the teachers were quite intimidated, and chose 
to avoid calling parents rather than confronting such challenges.
    Many of our students have fathers who are either imprisoned, or 
simply uninvolved in the lives of their children. Also, families most 
often consist of children whose siblings have different fathers. As a 
result, the students struggle with some emotional issues that often 
interfere with their ability to totally focus on learning. Due to their 
circumstances at home, they tend to be quite transient. Our mobility 
rate for 2005-6 was approximately 124 percent, which is quite 
frustrating to teachers because they find themselves making progress, 
only to lose students with whom they have worked so diligently. Not 
only that, but some of our students leave, stay away 2 months or more, 
and then return. Teachers then have to practically start all over again 
with those students.
    Our first year of operation was very much that type of environment, 
and after Hurricane Katrina hit Louisiana, we received an influx of 
those evacuees because the spacious new school could more readily 
accommodate them. At one point, our student population was 10 percent 
Katrina/Rita evacuees. Those students' arrival to Thurgood Marshall 
Elementary greatly augmented our challenges and presented us with some 
emotionally disturbed children who had been trapped in a dome for days, 
after having faced the very traumatic ordeal that would naturally 
evolve from such an experience. In addition to continually working with 
an already existing high-need population, the teachers then had to 
adjust their instruction to tailor fit the needs of students who had 
even bigger learning gaps to close. (Accountability differs greatly 
from State to State.)
    Not only did the evacuees arrive in need of some intensive 
instructional adjustments, they also came with these issues:

    1. Children who had been diagnosed as AD-HD, MR, etc. had lost 
their medication during the violence of the storm.
    2. Parents often could not give us information that would aid in 
appropriate placement of their students, and some of those students had 
been receiving special services.
    3. We had no way of getting students' records, medical records, 
immunization history, etc.
    4. Students were exceedingly more volatile and exhibited a greater 
need for social reform.
    5. Thurgood Marshall's currently enrolled students and the evacuees 
had to learn how to coexist, and they sometimes ``missed the mark'' on 
that one.
    6. Such sudden changes greatly impacted the teachers and their 
existing learning environment.
    7. Teachers suddenly had to cope with these issues until the 
district could procure the funding that would allow for more personnel 
to aid in instructing these students to get these students closer to 
their grade level performance.
    8. To keep things even more interesting, another hurricane--Rita--
hit Louisiana and Southeast Texas to add a few more students and 
challenges to our numbers.
    9. The evacuees were in the habit of returning intermittently to 
Louisiana and coming back to Thurgood Marshall, which increased both 
our mobility rate and teachers' challenges.

    The above challenges were added to (a) opening a new school that 
was implementing a new program--the Teacher Advancement Program (TAP), 
(b) striving to build morale and interpersonal employee relationships 
with a group of teachers who were unknown to each other, (c) striving 
to build employee and student relationships in a new school where 
students knew none of the adults and few of their peers, (d) striving 
to instill trust (administrator--employee; teacher--teacher; student--
student; and adult--student) in such a new environment, and (e) 
acclimating so many novice employees to the particular policies, 
curriculum, methodology, etc.
    We faced all of these challenges continually, and the first 
semester was filled with very long days as we put in hours of work to 
plan, collaborate, and continue the pattern of preparing for every next 
day of learning. These days came after very long hours of summer days 
filled with interviewing and screening applicants, receiving shipments 
to fill an empty school that was to open soon, working out logistics 
and details regarding first day enrollment, how to receive and dismiss 
students (of whom approximately one-third ride the quit bus), fire 
drill/evacuation/disaster drill guidelines, and a myriad of other 
tasks. The interviews themselves were long and draining because we had 
to present the Teacher Advancement Program in addition to screening/
attaining the necessary information to make an informed decision. 
Although it was a very good problem to have, the Teacher Advancement 
Program inevitably led to more questions, discussion, and interest; 
thus, the interviews grew even longer! We persevered because we know, 
and research has confirmed, that teacher quality and effective 
instruction is what can ultimately lead to student achievement gains.

                    THE TEACHER ADVANCEMENT PROGRAM

    The key for us is recruitment, retention, and development of 
effective teachers. We must have a system in place to help teachers to 
become outstanding, and our teachers are looking for that support. The 
professional support system provided by TAP, as I have alluded, was one 
of the key elements in my ability to attract teachers to Thurgood 
Marshall when it opened as a new school.
    In a high-need school there is a tremendous need to implement a 
support structure that enables teachers to continually improve the 
effectiveness of their instruction if students are going to continue 
improving academically. TAP had achieved this success with similar 
students in other high-need schools. Research showed us that 64 percent 
of TAP schools with 30 percent or more of students receiving free or 
reduced price lunch, and 54 percent of these high-need schools increase 
their percent of students at proficient or above from 2003-4 to 2004-5. 
This evidence is why we chose to implement TAP.
    The method for achieving these results is an intensive focus on 
increasing teacher quality through a comprehensive program that 
includes (1) school-based professional development led by Master and 
Mentor teachers, (2) career opportunities for teachers to take on 
additional roles and responsibilities with additional pay, (3) a fair, 
rigorous, and objective evaluation system for teachers and principals, 
and (4) performance-based pay incentives. Thurgood Marshall began 
implementing TAP in the fall of 2005. I have included a summary of our 
program below.
TAP at Thurgood Marshall
    1. Building the Capacity of Teachers and Principals Through 
Professional Development that is directly aligned to content standards 
and elements of effective instruction takes place during the regular 
school day, so educators can constantly improve the quality of their 
instruction and increase their students' academic achievement. This 
allows teachers to learn new instructional strategies and have greater 
opportunity to collaborate, both of which will lead them to become more 
effective teachers.
    2. Additional Roles and Responsibilities allow teachers to progress 
from a Career, Mentor and Master teacher--depending upon their 
interests, abilities and accomplishments. This allows good teachers to 
advance without having to leave the classroom and provides the expert 
staff to deliver intensive, school-based professional development that 
supports more rigorous course work and Texas standards.
    3. A Fair, Rigorous and Objective Evaluation Process for evaluating 
teachers and principals. Teachers are held accountable for meeting 
standards that are based on effective instruction, as well as for the 
academic growth of their students, and principals are evaluated based 
on student achievement growth as well as other leadership factors. 
Evaluations are conducted multiple times each year by trained and 
certified evaluators (administrators, Master and Mentor teachers) using 
clearly defined rubrics which reduces the possibility of bias or 
favoritism.
    4. Performance-based Compensation Based on Student Achievement 
Gains and Classroom Evaluations of Teachers Throughout the Year. 
Student achievement is measured using ``value-added'' measures of 
student learning gains from year to year. Performance pay is based on 
TX standards and TX assessment--both valid and reliable measures of 
student achievement that are used to calculate progress under NCLB.

                              THE RESULTS

Outcomes That Have Been Achieved
    The TAP allowed us to attract such qualified teachers that students 
progressed very quickly. The support that these qualified teachers 
received from the TAP Master Teachers, coupled with their existing 
proficient skills, benefited students greatly. With all staff members 
unified across the building to teach the TAP Cluster strategies, the 
team of educators was able to close students' learning gaps at an 
extraordinary rate. Therefore, students at the school continually 
demonstrated progress on teacher made assessments, Master Teachers' 
post testing instruments, campus and district benchmarks, and the 
State's high stakes standardized tests.
Student Achievement Results with TAP in the First Year
    During its first year of existence, Thurgood Marshall met AYP and 
received Recognized status from the State of Texas for our student 
achievement scores. Thurgood Marshall's Texas Growth Index (TGI) score 
was 18 percent. The average TGI values for comparison groups of similar 
schools are rank ordered. Thurgood received Gold Performance 
Acknowledgement because we fell within the first Quartile of the 
comparison group (meaning our students did better than 75 percent of 
similar schools in producing student achievement gains). Thurgood 
Marshall also had a schoolwide value-added gain in 2005-6 its first 
year of existence of a 5--showing the school met more than a year's 
worth of growth.*
---------------------------------------------------------------------------
    * In evaluating TAP teachers and similarly TAP schools, SAS EVAAS 
calculates the effect of each teacher on student progress as assessed 
by the difference between the growth scores of the teacher's students 
and the average growth scores of the control group, which defines a 
year's growth. We then place each teacher (TAP and control) in one of 
five categories.
    Teachers in categories ``1'' and ``2'' produced less than an 
average year's growth with their students, and teachers in categories 
``3'', `'4'', and ``5'' produced a year's growth or more with their 
students.
---------------------------------------------------------------------------
    By fostering a culture of continuous professional growth and 
reflection, creating multiple career paths for teachers, and rewarding 
effective teaching and student achievement, TAP has been instrumental 
in building a professional learning community at Thurgood Marshall 
where teachers feel both supported and challenged to refine and deepen 
their craft. The introduction of weekly TAP cluster groups along with 
bi-monthly interim assessments has ensured continuous monitoring of 
student progress and given faculty the data and skills to tailor 
instruction to areas of academic need.
    It is the Richardson Independent School District's custom to 
administer benchmarks intermittently throughout the school year. Last 
year we noticed tremendous gains much earlier in the year than students 
at my former school had achieved. Students' learning gaps were closing 
at an astounding rate! At some grade levels, the newly opened school 
was quite competitive with other schools across the district that did 
not have the same challenges that our school faced. For example, our 
fourth grade students of 2005-6 had a higher rate of students passing 
the Math Benchmark than some schools whose demographics were totally 
different than ours. Not only was I thrilled, but the RISD central 
office personnel were also impressed. Teachers noted that their 
students were progressing quite rapidly in the classroom, and Master 
teachers noticed their progress as they modeled/taught in the 
classrooms. The ultimate results came when we received students' scores 
from the Texas Assessment of Knowledge and Skills, our high stakes 
test. The results are the following:

    2006 School Accountability Rating: Recognized**
---------------------------------------------------------------------------
    ** STATE OF TEXAS RATINGS: To be rated as ``Exemplary,'' a school 
must have 90 percent of its students passing.
    In 2005-6, at least 70 percent of students had to pass for a school 
to have a ``Recognized'' rating; this year (2006-7) it is raised to a 
75 percent passing rate.
    Academically Acceptable = 60 percent passing Reading, Writing, and 
Social Studies; 45 percent passing Mathematics; 40 percent passing 
Science.
    Low Performing = 35 percent passing.

    Gold Performance Acknowledgments: Commended on Mathematics
    Comparable Improvement: Reading/ELA & Mathematics

    READING--82 percent of students passed
    MATHEMATICS--78 percent of students passed
    WRITING--99 percent of students passed
    SCIENCE--71 percent of students passed
    SDAA II (State Developed Alternative Assessment--for student who 
don't take TAKS)--97 percent of students passed

    Not only are overall passing rates commendable, but since 
implementing TAP, Thurgood Marshall has made significant progress with 
groups that are most in need. The percentage of At-Risk students who 
passed the TAKS increased 25 percent on writing (75 percent to 100 
percent) and 10 percent in math (from 60 percent to 70 percent). 
Similar increases were seen among those categorized as economically 
disadvantaged (14 percent writing and 9 percent in math).
National TAP Results
    At the national level, TAP schools that have been implementing the 
program for a number of years demonstrated student achievement results. 
A report released recently by the National Institute for Excellence in 
Teaching, the non-profit organization that developed and oversees TAP, 
concluded that teachers and schools participating in the program 
produce higher student achievement growth than their control 
counterparts. Comparisons also show TAP's meaningful results in terms 
of adequate yearly progress (AYP), and its support among teachers as an 
effective professional development program. The full report can be 
found at www.talentedteachers 
.org.
    The report shows that TAP teachers demonstrate higher achievement 
growth than control schools. In every TAP State, TAP teachers 
outperformed similar non-TAP teachers in producing an average year's 
growth or more in their students' achievement.
    In addition, more TAP schools outperformed similar non-TAP schools 
in producing an average year's growth or more in both reading and math 
achievement.

                               RECRUITING

    I have seen several changes in the recruiting effort. Applicants 
become very interested in working at Thurgood Marshall Elementary when 
they hear about the amount of support they will get from the TAP Master 
and Mentor teachers. My team and I have conducted interviews where we 
observed the applicant's countenance immediately change when we started 
to discuss that there would be weekly staff development trainings in 
TAP Cluster Meetings to teach them strategies to use in the classroom. 
As we explained that these would be research-based strategies that have 
been proven effective, the applicant usually became even more 
inquisitive and excited. This was true with both highly experienced 
teachers as well as those with little or no experience.
    All except one (out of approximately 80 applicants) expressed a 
desire to attend those kinds of meetings if it would mean that a Master 
Teacher would followup with modeling in their classroom, team teaching 
with them, and/or coming into their rooms to observe them teach the 
strategy. The applicant we lost to disinterest expressed her need to 
have her classroom time alone with her students without the presence of 
guests. All others are very enthusiastic even about the followup 
coaching that Master Teachers provide after observing TAP Career 
Teachers teaching the TAP strategy.
    The Teacher Advancement Program was instrumental in my ability to 
recruit 8 teachers from my former school, 3 from schools within the 
district, and 33 teachers from other locations.

                       REDUCING TEACHER TURNOVER

    One of the most costly challenges facing schools is high teacher 
turnover. Nationally, more than 50 percent of new teachers leave before 
they have been teaching 5 years. In the Dallas area, we have an even 
higher teacher and principal turnover rate in our high-need schools. 
This makes it very challenging to provide continuity for students of 
poverty--who need stability in the teaching force to achieve.
    After recruiting very interested, qualified teachers, we were able 
to retain many of them. Some found, however, that they were not capable 
of effectively (a) interacting with the students' apathetic and 
frequently volatile parents, (b) coping with the issues that arise when 
working with a very transient population of children, (c) interacting 
with children who had serious problems associated with hygiene, (d) 
interacting with students who lacked appropriate social skills, and (e) 
giving the necessary tireless efforts everyday that are essential when 
closing academic learning gaps of low socio-economic students.
    Of the teachers who left, two of them moved to another TAP school 
in the district (promotions); a TAP Master Teacher moved back to 
teaching and remained in the district, and five of them sought work 
with a different student population. Of that five, one of them 
transferred within the district because she was dissatisfied with the 
students' inability to manage their own discipline. Additionally, seven 
teachers moved to other positions within our school. It is also worth 
noting that two teachers chose to stay home with their expected babies, 
one Master Teacher relocated when her husband had to transfer, one left 
to work in her husband's church, one left because her daughter was 
seriously ill, and yet another teacher relocated to get married. Since 
only two teachers were non-renewed due to their ineffective classroom 
teaching practices, I maintain that implementation of the Teacher 
Advancement Program allowed for us to attract a majority of qualified 
teachers to our opening school and to build our faculties' skills over 
the course of the year. It is extremely rare to hire such a large 
number of qualified teachers when there is a need to staff a building 
for its first year of operation.

                    COLLEGIALITY AND PERFORMANCE PAY

    As a building principal, I have made so many ineffectual attempts 
to build collegiality, all of which have failed until TAP. No matter 
how many games we played prior to a large staff development faculty 
meeting, and no matter how many ice breakers I tried throughout the 
year, teachers continued to return to their own special groups when the 
meetings ended. Through its weekly cluster group meetings, TAP provides 
a way for grade level teachers to come together with Master and Mentor 
teachers, support teachers such as librarians, and educators who teach 
Special Education courses or Special Areas teachers. They establish 
positive relationships as they work together toward a common goal: 
student achievement! This is evident when, for example, a P. E. teacher 
talks with a second grade teacher about using a TAP ``Cluster Group'' 
strategy that focuses on word meaning when teaching students how to 
dribble a basketball.
    For the first time in my 7 years as an administrator, I had the joy 
of learning that a large group of my teachers were going to Las Vegas 
together to enjoy their spring break. The most surprising part of that 
news was that the teachers were a mixed group of both primary and 
intermediate teachers, and usually that twain never meets.
    While teachers last year rarely mentioned the TAP payout for 
performance, they were very excited when they received their bonus pay 
in the fall of 2006. The district's TAP Director and central office 
personnel held a special ceremony to celebrate those teachers who 
received the bonus checks, and the teachers seemed to really appreciate 
the honor. It was their time to be recognized for their diligence, and 
they enjoyed the time of celebration. For several weeks, I heard talk 
of how the money would be spent, and it ranged from weddings to 
vacations! After that time, it was back to work, and oddly enough, I 
hear hardly anything at all about the payout bonus. There is, by far, 
more discussion about students' needs, how to meet them, specific TAP 
Cluster Group strategies, and ultimate student achievement.

                              FUNDING TAP

    The Teacher Advancement Program at Thurgood Marshall is funded in 
the following ways:

    <bullet> Title V (NCLB)--grant for innovative programs
    <bullet> Title I (NCLB)--a State grant
    <bullet> Priority Funds--local tax dollars
    <bullet> Title II (NCLB)--a State grant for teacher quality and 
recruitment

                     BUSINESS AND COMMUNITY SUPPORT

    Here's a quote from a community person who serves on our Local 
School Council, ``I am so very impressed with what I see going on in 
this school. The hard work of the teachers is incredible! It is amazing 
to watch these teachers working with the students.''
    This is a quote from a parent, ``I really hate living in this area, 
but the school is so good that I don't want to leave it. You all have 
helped my children so much, and they love it.''

    2. What strategies do you believe are most effective in terms of 
providing professional development and support to educators in high-
need schools? Is professional development being targeted to educators 
to respond to their needs and, if so, on what criteria or data was the 
targeting based?

                        PROFESSIONAL DEVELOPMENT

    Weekly cluster meetings provide the primary vehicle through which 
professional development is implemented within a TAP school. Clusters 
are weekly job-embedded meetings attended by a group of teachers with 
similar students and are led by a master or mentor teacher that is part 
of the school faculty. This is an important element of TAP clusters in 
that they are led by a teacher with personal knowledge and 
understanding of the needs of the students and teachers at the school 
as opposed to an outside trainer who does not have this personal 
knowledge.
    During these weekly professional development meetings, a master or 
mentor teacher models effective implementation of a strategy targeted 
at an identified student need represented by the cluster members' 
students. Throughout a cluster cycle, teachers continually analyze and 
utilize student work as they develop the strategies learned for their 
specific students and content area. Everything in the Cluster Group is 
driven by student work and student needs. This includes needs 
identified through standardized tests as well as through benchmark 
assessments and informal assessments by teachers, and through analysis 
of individual student work.
    When we opened Thurgood Marshall Elementary in the fall of 2005, we 
had to pre-test all of our students because they came from so many 
different areas of the city, cities, and even States. Some are from 
Louisiana, Oklahoma, and Mississippi. We used our data to not only 
drive our decisionmaking concerning school goals and cluster goals, but 
to also drive instruction. This continues to allow teachers to learn 
new instructional strategies and have greater opportunity to 
collaborate, both of which will lead them to become more effective 
teachers.
    When the evacuees arrived, we had to pre-test them as well to 
determine where they were academically so that we could better tailor 
small group instruction to fit their needs. Then we had to screen 
applicants and hire additional part-time employees to pull students out 
of the regular classrooms and provide that instruction.
    TAP does not adhere to the traditional mode of professional 
development of teachers. Traditionally, teachers attend professional 
development sessions throughout the course of the school year. They 
attend, sit, listen, and get a ton of new ideas and materials to use in 
their classrooms. Unfortunately, they are often either fearful to try 
it or overwhelmed by it all because they have no idea of how to 
implement into their lesson design/planning. Thus, they usually end up 
placing all the new materials on a bookshelf or in some cabinet, and 
they push all the innovative ideas to the back of their minds. The 
result is too often that teachers learn about some effective classroom 
practices, but nobody ever utilizes any of them. The tragic result: 
classroom practices do not change.
    The TAP, on the other hand, introduces the critical attributes of 
research-based, proven effective classroom strategies, the master 
teacher models the teaching of the strategies (even creating a 
simulated classroom setting where the teachers who are learning the 
strategy become the students), and then the master teacher follows up 
by either modeling the strategy again in the actual classroom setting 
or team teaching with the career teacher. This method of training 
removes the guesswork for the teacher and supports the teacher 
throughout the entire process. Finally, there is opportunity for post-
conferencing and coaching to further address any needs or concerns. The 
ultimate result to the TAP model: effective classroom practices that 
yield student success!

                              EVALUATIONS

    Another important input to professional development is provided 
through TAP's comprehensive system for evaluating teachers and 
rewarding them for how well they teach their students. Every teacher in 
our school is evaluated at least four times each year by trained and 
certified evaluators who are the master teachers, mentor teachers, and 
the administrators. Evaluations are based on research-based standards 
in four areas: planning instruction, learning environment, 
responsibilities, and implementing instruction. Teachers are given this 
detailed rubric and are well prepared for their evaluation. In 
addition, pre- and post-conferences are held with each teacher to 
design strategies for growth, and coaching is provided throughout the 
year.

                           CAREER OPPORTUNITY

    TAP allows teachers to pursue a variety of positions throughout 
their careers--career, mentor, and master teacher--depending upon their 
interests, abilities, and accomplishments. As they move up the ranks, 
their qualifications, roles, and responsibilities increase--and so does 
their compensation. This allows good teachers to advance without having 
to leave the classroom.
    Master and mentor teachers must have expert curricular knowledge, 
outstanding instructional skills, and the ability to work effectively 
with other adults. They take on additional responsibility and 
authority, and are required to have a longer work year. Master teacher 
stipends are approximately $8,000, and Mentor teacher stipends are 
approximately $4,000.
    In order to provide quality, school-based, job-embedded 
professional development, there must be a qualified team of individuals 
to provide this training. TAP allows for instructional leadership 
within a school to be shared among members of the TAP Leadership Team 
(Principal, Assistant Principal, and Master and Mentor Teachers) in a 
participatory leadership model. I believe there is a positive 
relationship between employees' motivation and their ability to advance 
within their career. The consensus in this research is that employees 
who have opportunities for career advancement are motivated to improve 
the quality of their work. In my experience, TAP's combination of 
fiscal and work opportunity incentives creates a total package that 
appeals to teachers.

                               CONCLUSION

    To summarize, the Teacher Advancement Program is an effective model 
for these reasons:

    <bullet> It offers support to career teachers, especially to those 
teachers who are new to the educational arena. Since universities often 
provide knowledge, more so than effective classroom practices, 
graduates in the teaching field are frequently unequipped to provide 
educational opportunities that allow all children to grow.
    <bullet> TAP develops good teachers into outstanding teachers and 
retains them in the field of education. It attracts those teachers who 
come with a good knowledge base, some skills, and hones those skills. 
Since teaching is such a vital profession that pays so little, TAP 
augments teachers' salaries.
    <bullet> TAP builds collegiality within a school's learning 
environment.
    <bullet> TAP effectively trains teachers while offering them the 
necessary support to ensure successful careers.
    <bullet> TAP supports teachers in delivering a more rigorous 
curriculum.
    <bullet> And, most important, TAP offers the low socio-economic 
student an opportunity to learn that might otherwise have been 
forfeited.

    Successful teachers automatically produce successful students. 
Successful students ensure a brighter future for America. Thank you for 
the opportunity to speak with you about our work at Thurgood Marshall.

    The Chairman. Very impressive. Thank you, Wanda. Jon 
Schnur, who is the Chief Executive Officer, New Leaders for New 
Schools. Jon co-founded New Leaders for New Schools in 2000. He 
plans to expand the nonprofit work. The organization has 
trained more than 200 school leaders who now work in several 
cities across the country. We're delighted to have you here, 
Jon. He was the Special Assistant to the Secretary of 
Education, Richard Riley, as well. Glad to have you. Thank you.

 STATEMENT OF JON SCHNUR, CHIEF EXECUTIVE OFFICER, NEW LEADERS 
              FOR NEW SCHOOLS, NEW YORK, NEW YORK

    Mr. Schnur. Thank you very much, Chairman Kennedy, members 
of the committee. I'm thrilled to be here. I have a lot to say 
in 3 or 4 minutes so I'm going to try to do three things in 
these 3 or 4 minutes.
    No. 1, try to argue that the principal quality strategy, a 
school leadership quality strategy is absolutely indispensable 
in this country to ensure quality of teaching. Without that, we 
can't have quality teachers.
    No. 2--I'll share with you a little bit of background about 
New Leaders for New Schools and some of the progress that we've 
made and some of the learnings that we've made and some things 
we don't know about the principalship. We have a lot of 
humility about what we know and don't know and want to share 
that because No. 3, I want to then offer some recommendations 
for Federal policy that rooted both in the sense of urgency 
about having great principals but also a sense of humility 
about what we do and don't know about how to ensure great 
principals at scale.
    So No. 1, principals matter a lot. The research is really 
clear and Senator Clinton has been a pioneer in the efforts on 
school leadership and the Senate authored the first school 
leadership programs. Senator Kennedy, you've been an advocate, 
Senator Alexander has been an enormous advocate, nationally and 
in Tennessee. But don't think it pervades the Elementary and 
Secondary Education Act yet. The research is clear. The most 
important in-school factor affecting student achievement in 
high-need schools is the quality of the teacher as has been 
said earlier and Amy said that and of Amy's work and others.
    The second most important factor is the quality of the 
principal. It's No. 2, so we try harder. But you actually can't 
have a quality teacher strategy without a quality principal 
because principals control many of the levers about teachers. 
They hire teachers, they select teachers, they provide 
professional development to teachers, they support and hold 
teachers accountable so not only is it No. 2 but it is actually 
indispensable to No. 1. The best schools have great principals. 
You've seen that and the research backs that up.
    The challenge is how do you take that simple idea that you 
can't have great schools without great principals to scale in 
this country, in a large complex nation where you have limited 
knowledge about how to do this at scale.
    The second point, New Leaders for New Schools is one 
example of an effort to make progress against this issue. Our 
focus is high achievement for all children, especially in urban 
schools, urban or public schools. We recruit and train and 
support very talented people to become principals of urban 
public schools at scale. We currently work in nine cities. New 
Orleans was just launched 2 weeks ago as our ninth. We're in 
New York City, Memphis and other cities across the country. We 
do three things. We recruit and select individuals who have the 
characteristics associated with the highest performing 
principals. The research is clear what characteristics 
principals have and we try to recruit and select individuals 
for that.
    Jesse Solomon made the point earlier that you have to focus 
on selection if training is going to be effective. We got 5,000 
applications for our first 330 fellows. So we've selected 7 
percent of candidates and we don't think any more than that 7 
percent could actually become a high quality principal. In 
fact, only 80 percent of our people, I think, are on track to 
become great principals. There needs to be an important focus 
on recruitment and selection.
    Second, we train and develop principals. We have a lot of 
intensive work to train and develop principals, barring the 
best of work both in the educational world, the business world 
and elsewhere and third, you can't leave a principal alone on 
the job without on the job support. So we have really intensive 
supports to help principals on the job.
    Very briefly, what we know about great principals, they do 
three things. No. 1, they lead data-driven effective teaching 
and learning. A principal must be an instruction leader who 
uses data to drive improvements in teaching and learning.
    No. 2, a principal drives really strong consistent school 
culture in a school, aligned to the value--at least one value 
that every child, regardless of background, can and must 
achieve at high levels--where you do not have a principal who 
is pushing that into the culture, you don't have high 
expectations in a school, you don't attract and retain good 
teachers who focus on that.
    The culture is key. No. 3, is a good principal ensures good 
management and organization effectiveness to ensure that the 
best instructional vision actually gets implemented. So we've 
seen the best principals do those three things well. There are 
only a few, a small number that we've seen who do this 
exceptionally well and I could give you some examples in New 
York City and Chicago and Newark and elsewhere--I don't have 
time but what I would say the implications for policy are we do 
not know how to do this at scale. While I feel urgency to have 
a national principal policy, it could drive quality principals 
to scale. I don't think we know how to do that so my 
recommendation overall on the policy front is that the next 5 
years, I would recommend a real kind of golden era of learning 
about the principalship and then I would recommend that there 
be a serious research and development effort with putting 1 
percent of what is spent on No Child Left Behind into an R&D 
fund to support really well-documented pilots with evaluation 
and research to document what it takes to ensure great 
principals. Senator Clinton, I know is sponsoring legislation 
this week which would do this in certain agencies with 
implications for how to over all State licensure and 
certification. Senator Alexander has supported efforts around 
the performance incentive piece for teachers and principals and 
I think there are others. But I really believe this is a time 
not for a uniform, national policy around principal 
effectiveness yet. I think in 5 years we can come back with 
real data about what that might be.
    One last comment to close, I do think there is one other 
very exciting and important policy option under this kind of 
R&D agenda and I really commend Senator Kennedy for your 
leadership on this, Senator Landrieu from Louisiana, 
Congressman Miller, and Congressman Mulanston from Louisiana. 
Today, as I understand it, legislation is being introduced 
which would be designed to help New Orleans and Gulf Coast 
communities impacted by Hurricanes Katrina and Rita really 
attract and retain highly effective teachers and principals at 
scale, which would both boost salary for teachers and 
principals as well as give extra incentives to track math and 
science teachers, and give us some performance-based 
incentives. The local and State officials in Louisiana say this 
is critical. They have a shortage of teachers. They must hire 
1,000 teachers in the next few months for the new school year. 
Housing has gone up $450 a month in Louisiana and their 
starting salary is $35,000 when the national starting salary is 
like $45,000. The New Orleans schools must be the cutting edge 
of the future of New Orleans. They won't do it without great 
teachers and principals. This bill will be very, very important 
support if enacted quickly, to help New Orleans really recover. 
Thank you.
    [The prepared statement of Mr. Schnur follows:]

                    Prepared Statement of Jon Schnur

    Great schools are typically led by great principals. And faster-
improving schools are led by better principals than others. Indeed, 
nearly 25 percent of the in-school factors affecting student 
achievement can be attributed directly to the quality and effectiveness 
of the principal. This is second only to the effects of teacher 
instruction--which is shaped by the way our most effective principals 
select, manage, and develop their teachers. And because principals 
select, train, manage, support, evaluate, and set the culture for 
teachers, a teaching quality strategy can't be successful without 
effective principals.
    The bottom line: the quality and effectiveness of school principals 
matters a lot to the future of our students and to the future of our 
Nation.
    In a world where there are no shortcuts to school success, a 
serious focus on the principalship provides no silver bullet. But 
systematic efforts to drive the quality and effectiveness of our 
Nation's principals may be one of our most pragmatic and significant 
opportunities to offer our neediest students better support to help 
them reach high standards of excellence.
    Translating this simple insight into effective policy and scalable 
practice is no easy task. It is not easy to balance the urgency of the 
need for effective principals at scale (especially in our highest-need 
schools) with the need to ensure that these reforms are implemented in 
a deliberate, high quality way. Too often, powerful ideas are lost to 
inadequate knowledge about how to bring ideas to scale, limited 
capacity, and well-intentioned but poorly planned implementation. As we 
consider solutions and strive to meet the urgent educational needs of 
children as quickly as possible, we must both identify how the Federal 
Government can be most effective in this work and recognize the current 
need for more research and development as well as learning on how to 
gain clearer knowledge, build capacity, and quickly scale effective 
efforts. While this testimony is focused on the principalship, I do 
believe there is a similarly difficult balance to strike when designing 
policies around teacher quality and effectiveness.
    In this testimony, I offer a few ideas to inform your policymaking. 
First, I offer some observations to help define the problem we are 
trying to solve and provide a clear target for the goal of a principal 
quality policy. Second, I offer some lessons learned from our 6 years 
of work recruiting, selecting, training, and supporting new urban 
principals across the United States at New Leaders for New Schools. 
Third, I highlight some of what we in the field know and don't know 
about scaling highly effective principals. Fourth, I will offer 
thoughts on implications for immediate Federal policy options.
    While this testimony is simply a starting point, New Leaders for 
New Schools and I would be happy to work with you and your teams to 
explore and develop public policy options aimed at driving principal 
quality and effectiveness to ensure that all children can reach high 
levels of academic excellence.
    First, we must define the target at which we are aiming; i.e. what 
problem are we trying to solve with a principal quality policy. While 
academic standards and principal policy are sometimes considered to be 
unrelated, defining student and school success is crucial to understand 
how to define principal success.
    Defining Student Success. Our goal is to ensure that all students 
succeed at high academic levels--starting with academic achievement at 
least at a proficient level for every student. Senator Kennedy and 
others are on the right side of this debate to insist on maintaining 
the No Child Left Behind goal of 100 percent proficiency by 2014 for 
every student regardless of race, family income, or native language and 
culture. I agree that there should be a national standard for what 
constitutes student proficiency at least in reading, writing, and math. 
For example, while there are thousands of different teacher techniques, 
lesson plans, and instructional materials for how to teach children to 
read effectively and independently by the 3rd grade, our society and 
children can no longer afford to hold a Tennessee school or school 
system to a different standard than a Massachusetts school or school 
system for whether every child regardless of background learns to read 
effectively and independently by the 3rd grade.
    That's partly because we know from the research that a 3rd grade 
student unable to read well enough to learn ``content'' will likely 
struggle and learn less from most of his or her courses in the 4th 
grade and beyond. That student will need far more intensive and 
expensive help to ``catch up'' to a diploma-ready (much less a college-
ready or a global-economy-ready) standard of excellence. In an era 
where a college diploma can make a $1 million difference in lifetime 
income when compared with a high school dropout (and where there are 
States that determine the number of prison cells to build based on 
elementary reading scores), I don't believe that the birthright to 
learn how to read should be a New York or Louisiana birthright--it 
should be an American birthright available to every child that walks in 
the door of any school in any of our communities.
    If those standards and assessments are done well, a student that 
achieves these standards grade-by-grade should be ready to enter 
college successfully by the 12th grade. While not every student will 
choose college, I believe it is our responsibility to ensure that every 
student and their family are empowered to choose to attend and succeed 
in college. Our failure to get a student to college-readiness by the 
12th grade deprives them of that choice.
    Our conception of student success should include two other areas 
beyond academic achievement. First, in a democracy that depends on 
citizenship and service and in an economy where many workplaces depend 
on teams, successful schools will ensure that students learn how to 
define ``success'' as success not only as an individual but also as a 
contributing member of a team, class, school, and society. Students 
must understand how to succeed as an individual partly through 
contributing to--not at the expense of--success of those around them 
including those they see as different from themselves. Second, I 
believe that successful schools will contribute to students whose 
academic strength lies not only in their mastery of certain courses or 
skills but also in their capacity to persistently and confidently act 
as on-going learners in a world where they will face situations and 
need skills we haven't even dreamed of yet.
    Defining School Success. Having identified the goal of having 
schools that educate students at high academic levels and equips them 
to succeed in the ways described above, our next step is to identify 
the most important elements in schools making significant progress 
towards that goal. It is important to note the distinction between this 
question and one that asks ``What are the characteristics of effective 
schools?'' Framed that way, ``characteristics of effective schools'' 
tend to define a happy end-state that doesn't provide a useful and 
needed roadmap on how to get there. Our focus in setting policy around 
the principalship must be on the most vital characteristics of schools 
making dramatic progress toward success for every student. Here is a 
one formulation that draws on both research and the experience we have 
had at New Leaders for New Schools in hundreds of schools across the 
United States.
    Schools tend to make dramatic, sustained progress when they are 
successful in the following three areas:

    <bullet> Data-driven learning and teaching. Fast-improving schools 
drive continual improvements in effective learning and teaching across 
every classroom. This depends on clear learning goals deeply understood 
by many, using data and assessment multiple times during the year to 
help improve teacher and student performance, shared vocabulary and 
mindsets about instructional practice, and effective intervention for 
struggling students.
    <bullet> Effective organization and management of teams, 
instruction, and operations. These schools create conditions for 
success through effective organization and management that recruits and 
selects talent well, builds teams, manages learning and instructional 
performance effectively, creates clarity and trust, organizes staff 
time effectively, and is strong on implementation, operations and 
project management.
    <bullet> Rigorous school culture focused on achievement and success 
for every child and other specific beliefs. These schools build a 
consistent school culture among adults and students that models and 
reinforces personal responsibility and aspiration to achieve excellence 
as individuals and as a school community; a focus on continual 
improvement, positive and explicit social norms; challenging, rigorous, 
and direct feedback within a safe environment; personal engagement and 
positive relationships that enable learning from others; and, a belief 
that every student can learn at high levels.

    While no school or organization of any kind will ever be even close 
to perfect in each, I haven't seen any school make dramatic and 
sustained progress in student achievement and success where that school 
is failing to make meaningful, continual progress in even one of these 
three areas. The implications of that insight for the principalship 
(and for principal policy) are enormous. For example, a school system 
focused on excellence in these three areas (and that understands that 
school-based management drives culture and practice) wouldn't simply 
ask principals to ``make the trains run on time'' and keep parents 
happy. And they wouldn't just ask principals to be instructional 
facilitators/leaders.
    The implication is that school systems must get vastly better at 
recruiting, selecting, training, retaining, managing, evaluating, and 
supporting principals (systemwide and long-term) who can work with 
their school leadership teams to successfully lead data-driven learning 
and teaching, effective organization and management, and a consistent 
school culture that reflects a specific set of core beliefs. Part of 
that work is getting and training the right pipeline of principals. 
Another part is re-designing a school system to provide an array of 
supports and tools to help principals lead these three areas of work 
effectively.
    Second, I am pleased to share background information and some of 
the lessons learned from 6 years of work recruiting, selecting, 
training, and supporting new urban principals across the United States 
through New Leaders for New Schools.
    Background. New Leaders for New Schools is a national non-profit 
organization working in nine urban school systems on one clear mission: 
promoting high levels of academic achievement by attracting, 
developing, and supporting the next generation of outstanding 
principals for our Nation's urban public schools. Our goals by 2012 are 
to have at least 80 percent of our over 200 high-need schools led by 
New Leaders principals for at least 5 years achieve 90-100 percent 
proficiency in core academic subjects and 80 percent of high schools 
led by New Leaders principals for at least 5 years achieve at least 90 
percent real graduation rates. Our goal is also to provide 25 percent 
of the new urban principals needed in the United States by 2014. (As 
noted earlier regarding the definition of student success, we are 
actively searching for the best one or two additional student 
performance indicators that will allow us to inform and set additional 
goals for student success.)
    Another major goal is to create groundbreaking, research-based 
knowledge and learning for the field about what it takes to recruit, 
select, train, and support highly effective urban principals (and the 
schools they lead) at scale. The Rand Corporation is doing an 
independent, long-term longitudinal evaluation of our schools and our 
work.
    Our major funders and partners for New Leaders generally include 
some of the Nation's leading philanthropists, leading local companies 
and foundations in cities we serve, and superintendents and leadership 
teams in nine major urban school systems. The nine cities and 
superintendents we currently serve are Baltimore, Chicago, Memphis, 
Milwaukee, New York City, Oakland and California's Bay Area, Prince 
George's County, Washington, DC.--and as of 2 weeks ago, New Orleans. 
Our largest national philanthropic funders are the Bill & Melinda Gates 
Foundation, the Michael and Susan Dell Foundation, the Broad 
Foundation, the Noyce Foundation, and the Walton Foundation. Local 
partners include companies like Boeing, FedEx, AOL, Ford, and more. We 
also have received grants for our principal selection and training work 
in four of our nine partner cities from the Federal school leadership 
program. While we are focused on transforming urban education within 
the United States, we are collaborating with a similar London-based 
private-public partnership that was created based heavily on our model.
    Our principal program is divided into several components: intensive 
recruitment and selection of outstanding educators and leaders (330 New 
Leaders selected from our first 5,000 applicants), intensive training 
and development including a year-long full-time school leadership 
residency to prepare those individuals to become effective new 
principals, and on-the-job support to promote the success of those 
principals and the schools they lead. We also conduct a city 
competition to select one new city partner each year that meets our 
criteria for serving high-need schools, coupled with the readiness and 
commitment to a deep student-focused partnership.
    We have seen some dramatic examples of success at schools led by 
New Leaders principals. For example, 80 percent of the incoming 9th 
graders at North Star Academy (led by a New Leaders principal) in 
Newark, NJ have graduated from high school and gone onto 4-year 
colleges. Nearly 100 percent of students from North Star are from low-
income families. Last year in Chicago, two schools led by New Leaders 
principals (the Dodge Renaissance Academy and the Clara Barton 
Elementary School) have made some of the most dramatic gains in the 
entire city. The Chicago Tribune recently cited the Clara Barton school 
and the New Leaders principal there as an example of what's working in 
terms of educator recruitment and training in Chicago.
    Selected insights and lessons learned. We have both learned lessons 
and gained significant insights from each of our programmatic areas 
with implications for local, State, and Federal policy and practice. 
Then I will close this section with a few overall insights and 
takeaways from our work over the past 6 years.
    Recruitment and Selection. As we seek outstanding aspiring 
principals, we have been screening for three characteristics/types of 
knowledge in highly structured, rigorous ways: the right belief system 
(that every student can learn at high levels and that adults are 
responsible for children achieving their potential), instructional 
expertise, and a strong record and potential to lead and manage adults 
effectively. While many schools systems and schools of education have 
not prioritized this, an important insight we've gained is that an 
intensive, quality recruitment and selection process is very important 
in driving school and student success. A second insight is that even 
the best principal recruitment and selection processes are based on 
hypotheses about what characteristics are important, and not yet based 
on rigorous research. That's why we are investing heavily in research 
and evaluation of our model and correlation over time with school and 
student achievement.
    Overall, New Leaders for New Schools and our local partners have 
made substantial progress in improving the recruitment and to some 
extent the retention of school leaders. We have successfully recruited 
330 New Leaders across our cities to make long-term commitments to 
become school leaders. And we have had 15 times as many applications as 
spots. While not a single New Leader has voluntarily left the program 
in the first training year, we are currently retaining just over 90 
percent of our New Leaders each year in their school system's 
principalship. While that is higher than retention levels overall in 
many school systems, we do think additional steps will be needed to 
further maximize retention rates.
    Through our work, we have found that:

    <bullet> There is serious interest in the urban principalship if 
defined right with the right support. While some see dwindling interest 
in the urban principalship, we see the opposite. With the right clarity 
of mission and commitment of support, a surprisingly large number of 
committed and talented educators want to take on this role. Five 
thousand people applied for our first 330 fellowships.
    <bullet> Beliefs matter tremendously in the selection of principals 
that have the commitment and capacity to be effective. However, most 
school systems do not rigorously screen for the candidate's beliefs. 
All of our highest performing principals demonstrate intense personal 
commitment to the proposition that every student regardless of 
background can learn at high levels--and that it is their 
responsibility as principal to drive dramatic improvements in 
instruction and academic achievement. While many of 5,000 candidates 
seemed to express that belief, the majority actually fail our screening 
process for this belief system. Training won't quickly shift that 
belief.
    <bullet> All three of our overall criteria (beliefs, instructional 
knowledge, and adult leadership skill) are critical. Individuals who 
are weak in any of these areas fail to deliver impressive results as a 
principal. One rare exception may involve leaders who can succeed 
without the instructional knowledge when they are paired with the right 
instructional leader. Where additional instructional expertise is not 
available, a high level of principal instructional expertise is 
crucial.
    <bullet> Even the best selection processes for the principalship or 
in any sector yield only 80 percent successful candidates, yet many 
school systems and schools of education act as if that's not the case. 
Top human resources experts in the business world confirm that an 80 
percent success rate is about as high as successful selection processes 
for a particular job work at scale. Many school systems and schools of 
education act as if they can assume that they are achieving 100 percent 
success rates. That doesn't mean the other 20 percent should be 
removed--but it does mean that employers should at least be ready to 
consider moving someone into a different role where they have a better 
prospect at success (e.g., assistant principalship or a district staff 
role instead of a principalship).
    <bullet> Effective recruitment and selection requires discipline, 
investment and time. Many school districts and most schools of 
education invest little or no effort toward this. Nearly 20 percent of 
our overall costs at New Leaders go to recruitment and selection. But 
the general bias is against spending time and money in school systems 
and schools of education on this critical activity.

    Principal training and development. New Leaders residents 
participate in a year of intensive training and development before 
becoming a principal. This includes an intensive 5 weeks at a summer 
institute acquiring the foundations and framework for the 
principalship, weekly local sessions, and a year-long full-time 
leadership residency and intensive year-long coaching and feedback. 
This model is aligned to a set of principal leadership competencies 
that we gleaned from research and experience. One insight is that the 
field of principal training is very weak--only a few institutions are 
doing intensive work training principals. A second insight is that the 
training for principals going into high-need urban schools should 
differ substantially from training for principals more generally. Any 
institution trying to generically train principals for all contexts or 
districts will likely be severely hampered by the lack of focus and 
context-specific work. Also:

    <bullet> There is substantial emerging knowledge about school 
improvement that is not codified and not readily available to most 
principals and teachers in the United States. Our most effective 
training (e.g., data-driven instruction) comes from a few high-capacity 
principals and/or other experts in early stages of developing their 
expertise and training and who are providing it at a small scale. It 
will take huge work to codify, institutionalize, and scale the 
availability of this knowledge. Most institutions working on principal 
training don't have the capacity to deliver this.
    <bullet> Most principal training is delivered in the university 
classroom or the district central office. But the most effective 
learning seems to be a mix of high-quality training and applying it in 
real contexts in real leadership roles. Our year-long residency is one 
way to address that. But the training and development of aspiring and 
current principals needs to be embedded far more in context of a school 
leader's work throughout their careers.
    <bullet> If the key areas for school success are indeed data-driven 
teaching and learning, management and organizational effectiveness, and 
building rigorous cultures, then most principal training is not aligned 
to build knowledge and skills in the right areas. Current capacity to 
teach these effectively at institutions that train principals is quite 
limited.
    <bullet> Focused, practical, research-driven training can 
substantially impact principal practice. For example, our training on 
data-driven instruction and observation and supervision of teaching 
lead to demonstrable changes in principal practice that may correlate 
to faster improvements in schools. Absent intensity and quality, other 
training may not affect the impact that principal practice can have on 
student achievement.
    On-the-job coaching and support. New Leaders provides on-the-job 
principals with on-going coaching, an online community, and high-
quality formative assessment tools aligned to each State's standards, 
and coaching on how educators can make effective use of these 
assessments to drive instructional improvement. With support from the 
Teacher Incentive Fund, we will soon offer access to effective 
practices from the highest performing and fastest improving urban 
schools and classrooms and financial incentives for high-performing 
educators in exchange for their sharing of effective practice with 
others. But even with initiatives like title I increases and the 
Teacher Incentive Fund, the significant insight is that in order to be 
successful at this work at-scale across the country, substantial new 
systems of data-driven differentiated capacity building will be needed 
to take these and other promising practices and customize them to 
individual schools through serious on-the-job support. And that may be 
constrained by lack of financial resources, human capacity, and an 
absence of the right, shared data-driven mindset in many institutions.
    Third, now that we have identified our overall goal and considered 
one organization's experience in attracting, preparing, and supporting 
principals in high need schools, we can ask ourselves: do we know 
enough about the successful principal of a high-need school (and how to 
scale that) to drive specific kinds of consistent principal quality 
policy across the United States?
    Defining Principal Success. Given the definition of student and 
school success described above, we must ask the following questions: 
(1) What actions must the principal actually take in order to ensure 
that all students can succeed? Can we identify the knowledge, skills, 
and personal characteristics that principals need to take those actions 
effectively? Only then can we fully address the vital questions of what 
are the policies, systems and practices that can (a) help create a 
pipeline of principals who can succeed in this role and (b) provide on-
the-job supports, tools and management to help them succeed.
    Here's my troubling answer. While I will share with you hypotheses 
that we are testing out at New Leaders, we don't really know the 
definitive answers to these questions. While we know there are a small 
number of exceptional principals driving dramatic gains in high-need 
schools, we don't know nearly enough about how or why in different 
contexts to scale that nationally.
    It is crucial that we figure this out in the next 5 to 7 years.
    In some ways, the most important role the Federal Government can 
play related to the principalship is to mandate, drive, and fund an 
intense period of rigorous experimentation and learning in every State 
grounded in certain core beliefs that I will describe below about 
creating a new principalship in this country defined by its 
responsibility for school success and student achievement.
    We do know enough for the Federal Government to set some very broad 
direction--including encouraging States and school systems to invest in 
the principalship and focus their efforts on leveraging the 
principalship to drive dramatic improvement in student success and 
academic achievement. We know high-quality principals are crucial to 
school success and there are some common-sense steps we can encourage--
such as providing ways to recognize, reward, and retain our highest 
performing principals or encouraging more rigorous processes to select, 
evaluate, and when necessary, remove principals. But we don't know 
enough about how this works to legislate the specifics.
    We do know that an effective principal is critical to the success 
of schools and that the Federal Government should support a crucial R&D 
phase of trying, rigorously evaluating, and learning from an array of 
approaches to driving principal effectiveness. This is especially 
urgent in low-performing schools. Among other benefits, we will then 
learn much more that can inform national policy in a much more robust 
way by the time of the next NCLB reauthorization.
    But we do not know enough to set consistent national policy on such 
areas as principal certification. We do not know enough to require 
States to address certification in particular ways. We do not know 
enough to mandate prescriptive approaches to principal recruitment, 
selection, base compensation, evaluation, and accountability.
    We are in a phase of our work together in education where we are 
creating early hypotheses and need to rigorously evaluate and learn 
from them. If handled right, we could make this a golden age of 
learning about how to ensure highly effective principals at scale.
    For now, while there is some research about what effective 
principals do, there is very little meaningful research about the 
actions that principals must take to drive change in the high-need, 
low-achieving schools that are rightly such a strong focus of Federal 
policy under NCLB. And there is similarly very little meaningful 
research about the corresponding knowledge, skills, and personal 
characteristics that principals need in order to take those actions 
effectively in particular contexts.
    Moreover, there is real evidence that suggests that the actions, 
knowledge, skills and personal characteristics of an effective 
principal who is the steward of a school that is doing well or ``just 
fine'' are actually quite different from what's needed from a principal 
who is to lead dramatic change in high-need schools where most of the 
students are achieving at low academic levels.
    While New Leaders for New Schools is the largest national provider 
of urban principals in the United States, even we are still only in the 
phase of testing out hypotheses that will be tested out by our 
experience and an independent Rand Corporation evaluation over the next 
several years.
    I will share some of the specific highlights of this limited 
research in my comments before the committee.
    Fourth, what are the implications for policies that the Federal 
Government could undertake to move this work forward?
    There are several high-level policy options that I would like to 
propose for your consideration. Most of these are research & 
development efforts designed to spur a ``golden era'' of learning about 
the principalship and ensure that we have far more knowledge to inform 
the next reauthorization of NCLB and the next wave of school and 
leadership reforms. Specifically, these R&D options are in the areas of 
principal recruitment, selection and training, principal-led 
turnarounds of low-performing schools, districtwide strategies to 
ensure successful principals at scale, and State efforts to overhaul 
State licensure and certification.
    To increase the impact of the efforts, Congress should fund a 
world-class research and evaluation firm and team to oversee and 
coordinate the evaluation of all of these options in order to 
systematically create knowledge for the field. They would identify, 
drive and coordinate learning around questions such as ``What are the 
most important characteristics that selection processes should screen 
for to pick principals who are likely to lead dramatic turnarounds of 
schools?'' and ``How can a district effectively create a systemwide 
results-based strategy to ensure effective leadership in every 
school?'' In addition, every grantee under any of these options would 
need to create, pilot, and evaluate systems for providing useful data 
to educators through value-add academic achievement gains at least at 
the school level. Funding would be included under any of these options 
to help create, refine, and evaluate these systems. A portion of the 
research and evaluation would examine the usefulness of the data 
provided by these systems.

    <bullet> Create a principal/assistant principal recruitment and 
training R&D fund. To do this, we must triple the size of the Federal 
school leadership program to $50 million in exchange for requiring 
every grant be used as R&D with a rigorous external research and 
evaluation effort designed to create significant research for the field 
on principal selection and training. No project would be funded without 
a serious theory of change, a high-quality research plan, and specific 
plans for producing useful research related to the recruitment, 
selection, training and support of principals. Give a preference for 
those initiatives that can show diversity of types of institutions 
offering training and types of high-quality candidates from different 
backgrounds.
    <bullet> Create a national R&D pilot of 200 school turnarounds 
(school restarts or ``fresh starts'') of the lowest performing schools 
in the Nation led by outstanding principals with track records of 
success. Only fund efforts that show how they will select outstanding 
principals, will ensure rigorous external research and evaluation, 
require dramatic change/restarting in a historically low-performing 
school and provide intensive additional support for the principal, 
teachers, and staff.
    <bullet> Create a $500 million 5-year effort to back 5 high-need 
districts to pilot systemic approaches to ensuring educator quality--
especially teachers, school leaders, and associate superintendents who 
manage principals, and make New Orleans one of these five cities. This 
could include dramatic increases in educator pay coupled with 
differential compensation systems that are effectively and fairly 
designed and implemented, and tied partly to student achievement. This 
could include systemwide efforts to adopt smart human capital 
strategies to cultivate and develop top talent throughout a school 
system. And it could include robust, data-driven systems of 
differentiated capacity building for principals and teachers across 
that school system. This would require serious external research and 
evaluation and proposals--and would be judged partly by the quality of 
that research and evaluation plan and the likelihood that it will 
produce useful knowledge for the field.

    I also would strongly encourage you to consider making a down 
payment on this kind of initiative this year by enacting a version of 
the Landrieu-Kennedy-Melancon-Miller RENEWAAL Act of 2007 (Revitalizing 
New Orleans by Attracting America's Leaders) introduced yesterday. This 
important legislation was introduced this week by Senator Landrieu, 
Senator Kennedy, Congressman Melancon, and House Education Committee 
Chairman George Miller. This bill would make it possible to drive 
teacher and principal quality in New Orleans and other Gulf Coast 
communities devastated by Hurricanes Katrina and Rita. If enacted and 
funded swiftly, the legislation could help revitalize New Orleans and 
other devastated communities by addressing teacher and principal 
shortages there by helping to attract and retain effective teachers and 
principals for the coming school year. The bill would help boost 
teacher and principal pay in New Orleans and these communities while 
providing additional incentives to attract teachers and principals back 
to New Orleans as well as special incentives for math and science 
teachers and for the most effective principals and teachers in exchange 
for sharing their practices with others.
    The need for swift enactment and funding of this bill is dire. New 
Orleans may need to hire as many as 1,000 educators in the New Orleans 
area this year to accommodate rapidly growing student population. 
Moreover, New Orleans has massive hiring needs at a time when housing 
costs have increased $450 monthly compared to pre-Katrina because of 
scarce housing in the hard-hit city and region. And the current 
starting salary for many teachers in New Orleans is $35,400 compared to 
an average teacher salary nationally of $46,000.
    Senator Kennedy, we are grateful for your leadership on this 
initiative.
    <bullet> Provide funding to a small number of States who have 
already done serious work on the principalship an opportunity to 
overhaul (or pilot an overhaul of) their certification and licensure 
system for school leaders and/or teachers. The State policy changes 
must be rooted in data and research. The U.S. Department of Education 
should fund a variety of models and approaches to evaluate different 
kinds of approaches to principal certification and licensure, and 
evaluate results based on impact on student and school success.
    <bullet> Create a national blue-ribbon program to give substantial 
fellowships and honors to the principals and school leadership teams 
that have demonstrated the most dramatic and sustained gains in their 
high-need schools over time. This could be used to convey honor and 
respect to the very best turnaround principals in the Nation--and then 
be used to leverage their expertise to guide other efforts to 
dramatically improve schools and school leadership.

    Thank you very much for the opportunity to share our insights and 
recommendations. New Leaders for New Schools looks forward to 
cooperating with you in whatever way might be helpful to build urgently 
needed policy options for ensuring effective principals who can drive 
high levels of academic achievement for all children.

    The Chairman. Thank you very much. Dr. Sanders is Senior 
Management at the Value-Added Research and Assessment, SAS 
Institute. Dr. Sanders has spent more than 30 years as a 
Professor and Director of Value-Added Research and Assessment 
Center at the University of Tennessee. His work helped the 
State of Tennessee develop their value-added assessment 
systems. He is a statistician by training and has been involved 
in education for 25 years. I look forward to hearing you, 
Doctor.

  STATEMENT OF WILLIAM SANDERS, PH.D., SENIOR MANAGER, VALUE-
   ADDED RESEARCH AND ASSESSMENT, SAS INSTITUTE, CARY, NORTH 
                            CAROLINA

    Mr. Sanders. Thank you, Mr. Chairman. Indeed I am a 
statistician that fortuitously got involved in educational 
research 25 years ago. At that time, we began to explore a 
different analytical approach using student test data. This 
approach, which I call value-added assessment, is based on a 
very simple notion and the simple notion is that you follow 
each student's academic progress as an individual. You don't 
look at groups of kids; you follow the same kid over time and 
by linking this test data, this enables you then to do very 
rigorous longitudinal analysis from that data, allowing each 
student to serve as his or her own control. And by so doing, 
you have got a device by which you can partition educational 
influences from exogenous influences over which educators do 
not have control.
    From this process and the millions of longitudinal records 
that we have created over the years, we have been able to 
address many research questions that heretofore people did not 
have the opportunity to address and in my written remarks, I 
have outlined those but for this morning, I just want to 
emphasize two major areas, the first of which has been 
mentioned already several times.
    Let me give you the good news. The good news is that highly 
effective teachers are facilitating excellent student academic 
progress in high-poverty, high minority schools. No question 
about it. They are there. You can measure it and they are 
getting excellent, excellent progress for their students.
    But the other side of the coin is that the percentage of 
these highly effective teachers in these schools is measurably 
lower than at low-poverty, low minority schools. There will be 
a report released in the next few days from the Tennessee 
Department of Education based upon this work that will have 
this completely documented.
    Now, Mr. Chairman, the other area that I want to mention 
deals with the question that came with our invitation and that 
is, has professional development been targeted to educators to 
respond to their needs and if so, on what criteria or data was 
the targeting based? That's what I want to talk about next.
    Once you have a longitudinal data structure for each 
student, you have got the basis on which to make a projection 
of whether or not every single student as an individual is on a 
trajectory to meet various future academic end points. Once 
that information is available to teachers and principals, it 
can be far more allowable than one test score because you're 
using the totality of information for each kid. This enables 
principals and teachers to begin to plan and think about 
providing instruction in an entirely different way.
    Now, a nerdy old statistician like myself, it doesn't 
matter how rigorous the analysis is if people do not know how 
to use this information in positive ways. So I'm very happy to 
say that we are working with various entities around the 
country as they are bringing staff development efforts to tie 
with this additional information at the individual student 
levels. Battelle for Kids, a nonprofit in Ohio is providing 
staff development to initially--there are a hundred pilot 
districts in Ohio. Now they are working to roll this out 
statewide. We're working with the Pennsylvania Department of 
Education as they are rolling out this kind of information, 
kid-by-kid, statewide. The North Carolina Department of Public 
Instruction is now beginning to bring this in to meld in with 
their school improvement planning as was mentioned. The Milken 
TAP program we work with, with over 100 schools, the Tennessee 
Department of Education as Tennessee is now beginning to really 
put pedal to the metal with regard to regional professional 
development activities but based upon the information 
associated with every kid who is an individual.
    So, Mr. Chairman, the last recommendations I would have is 
that this needs to be continued and No Child Left Behind, with 
these longitudinal data structures--now all States will have 
them. Now make this a reality and a possibility and lastly, I 
would strongly recommend that in the re-authorization that you 
do allow the appropriate growth models to be included. But let 
me warn you--all of these growth models are not equivalent. 
Congress needs to very seriously consider setting minimal 
standards for those growth models. If you have that then you 
need to seriously consider allowing districts to use this or 
States to use this in lieu of existing Safe Harbor. Because 
what this will do is de-incentivize some of the negative 
things--there are some negative things associated with AYP and 
that's the incentive to teach to the bubble kids too much and 
we have data that certainly would support that. That would tend 
to do it and lastly, with appropriate growth model, a lot of 
these inner-city and rural schools that are getting excellent 
gains for kids that are presently branded as failing are 
anything but failing schools. So consequently, that should 
indeed help as people try to recruit teachers and retain 
teachers because you could document how effective those schools 
are being.
    [The prepared statement of Dr. Sanders follows:]

            Prepared Statement of William L. Sanders, Ph.D.

    Thank you, Chairman Kennedy and Ranking Member Enzi. Thank you for 
the invitation. My name is William L. Sanders; I am presently Senior 
Manager, Value-added Research and Assessment, SAS Institute, Inc. 
Additionally, I hold the honorary title of Senior Research Fellow with 
the University of North Carolina. Previously, I was Professor and 
Director of the Value-Added Research and Assessment Center with the 
University of Tennessee.
    Our experiences. I am a statistician that fortuitously got involved 
with educational research 25 years ago. At that time we began to 
explore a different analytical approach using student test data. This 
approach, which I call value-added assessment, is based on the simple 
notion of following each student's academic progress over time. Linking 
each student's test records from grade to grade over subjects, provides 
the testing framework for a multivariate, longitudinal analysis in 
which each student serves as his/her own control. By so doing, 
educational influences on the rate of student progress can be 
partitioned from exogenous factors (if not completely, then nearly so) 
allowing an objective measure of the influence of the district, school 
and teacher on the rate of academic progress. The process that we have 
developed, based upon statistical mixed model theory and methodology, 
enables a multivariate, longitudinal analysis, no matter how sparse or 
complete the data record for each student. Analyses that accommodate 
fractured student records eliminate the short-comings of more 
simplistic value-added approaches.
    Some of the more simplistic approaches have been shown to provide 
potentially biased and unreliable estimates, especially at the 
classroom level. However, the appropriately constructed multivariate, 
longitudinal process will minimize the problems of the more simplistic 
approaches resulting in robust estimates of the influence of 
educational entities on the rate of student academic progress.
    Analyses at the classroom level require the utmost care and caution 
and present even more burden on the statistical methodology, the 
computing software, and the data archiving process itself. We have had 
to engineer the flexibility to accommodate other ``real world'' 
situations encountered when providing effectiveness measures at the 
classroom level: the capability to accommodate different modes of 
instruction (i.e., self-contained classrooms, team teaching, etc.), 
``fractured'' student records, and data from a diversity of non-
vertically scaled tests. However properly applied, the technology now 
exists to provide estimates to distinguish the highly effective 
educators who are facilitating excellent academic growth for their 
students.
    From the millions of longitudinal student records that we have 
created over the years, we have been able to address research questions 
that heretofore were not easily addressed. The following is a summary 
of the most important findings.

    <bullet> If the variability in student academic progress is 
partitioned into three ``buckets'' among Districts, among Schools 
within Districts, and among Teachers within Schools within Districts--, 
what is the relative amount of the variability that will go into each 
bucket?

          (a) Among Districts about 5 percent,
          (b) Among Schools within Districts about 30 percent,
          (c) Among Classrooms within Schools within Districts about 65 
        percent.

    <bullet> Differences in teaching effectiveness is the dominant 
factor affecting student academic progress. This is true in all 
subjects but is pronounced in Math.
    <bullet> Teacher effects are cumulative and additive. The sequence 
of Math teachers that students have can have a profound effect on their 
ultimate achievement in Math.
    <bullet> Relative to the distribution of all teachers' 
effectiveness,

          <bullet>  The average beginning teacher is less effective 
        than the average 10-15 year experienced teacher.
          <bullet>  Beginning teachers profile at about the 35 
        percentile relative to the distribution of all teachers.
          <bullet>  Ten to fifteen-year veterans profile at about the 
        55 percentile of the teacher distribution. Teachers who leave 
        after 1 year of experience are on average less effective than 
        those who stay.
          <bullet>  Of the leavers, those teaching in schools with more 
        than 75 percent minority students profile at about the 22nd 
        percentile. In schools with more than 75 percent minority 
        students, beginning teachers who do not leave are only slightly 
        less effective than those beginners assigned to schools with a 
        low percentage of minority students.

    <bullet> Inner city schools have a disproportionate number of 
beginning teachers.
    <bullet> Inner city schools have a much higher turnover rate of 
teachers than suburban schools.
    <bullet> A smaller percentage of middle-school math teachers within 
inner-city schools have a high-school math endorsement.
    <bullet> Retardation of math gain rates for high achieving inner-
city middle-school students is more pronounced than for lower achieving 
students.
    <bullet> Some rural districts have very effective elementary 
schools, but have high schools that are not extending academic growth 
opportunities for average and above average achieving students. In some 
cases this is so severe that even the most advanced students, even if 
admitted to a 4-year university, would be nearly certain to have to 
take remedial courses.
    <bullet> In too many schools the number of 6th graders prepared to 
succeed in Algebra in the 8th grade is greater than the number of seats 
available.
    <bullet> Students attending schools with over 75 percent poverty 
students, when assigned to highly effective teachers, make comparable 
academic progress with students attending schools with less than 25 
percent poverty students if they too are assigned to highly effective 
teachers.
    <bullet> The percentage of highly effective teachers is less in 
high-poverty schools.
    <bullet> On average there is a big difference in effectiveness 
between 20+ year veterans in high-poverty schools when compared to 
teachers with similar experience teaching in low-poverty schools. Those 
in the low-poverty schools tend to be more effective while those in the 
high-poverty schools tend to be less effective.

    Our research has shown that highly effective teachers are 
facilitating excellent academic progress with students at all 
achievement levels, regardless of the location of the building where 
they teach. The evidence is overwhelming that students within high-
poverty schools respond to highly effective teaching. Then the question 
becomes ``how can the less effective teachers within these schools be 
assisted in becoming more effective?''
    We have had the experience of working with various groups of highly 
effective educators across the country. According to these educators, 
``teachers who are average or below in effectiveness must learn to meet 
the academic needs of all students in their classrooms if they are to 
become more effective,'' i.e., more effective at differentiating 
instruction. Not only must they be cognizant of the subject knowledge 
and skills necessary for student success, but they must possess 
excellent intra-classroom assessment skills and understand how to use 
the results of their own assessments as well as those from longitudinal 
analysis of state-test data in their teaching decisions. Highly 
effective teachers maximize the influence of their instructional time 
so that students at all achievement levels make appropriate progress. 
These are skills that can be learned, and the influence of their 
application to teaching can be measured with appropriate reliabilities.
    As more reliable student projections to future academic standards 
have become available, educators are learning to more efficiently 
target students needing academic interventions and intense academic 
support. These strategic uses of resources increase the likelihood of 
at-risk students reaching meaningful standards in the future and 
provide support for the classroom teacher at the same time.
    NCLB testing requirements and Federal and State investments in 
longitudinal data structures allow the reliable student projections 
referenced above to become more widely available. Additionally, when 
appropriate methodology is applied to these data, policymakers have a 
way to more realistically assess the resource requirements necessary 
for all students to achieve at higher standards. Two recent examples: 
In a rural school, we found that over 100 6th grade students were on an 
academic trajectory to be proficient in Algebra I as 8th graders. Yet 
this school was providing only 25 seats for the 8th grade Algebra 
offering. In a second school district, even though many students were 
enrolled in Algebra I in 8th grade, essentially all of them were 
retaking Algebra I in 9th grade, even when they were prepared to move 
into more difficult courses in the 9th grade.
    We have worked with Battelle for Kids as they prepared professional 
development for over 100 school districts in Ohio, the Pennsylvania 
Department of Education and Intermediate Unit 13 of that State as they 
prepared professional development for the 100 pilots and their 
statewide rollout of district and school value-added reporting and 
student projections, the North Carolina Department of Public 
Instruction to prepare professional development for their school 
improvement program, the Milken Talented Teacher Program as they worked 
with over 130 schools receiving both school and teacher level analyses, 
and the Tennessee Department of Education as the current administration 
has developed regional professional development for districts, schools 
and teachers and researched teacher inequity in that State. From these 
experiences we provide the following recommendations.

                            RECOMMENDATIONS

    <bullet> Major staff development activities with a focus on using 
the longitudinal projections for each student in both classroom and 
school planning to ensure that all students have the opportunity to 
make appropriate academic progress regardless of entering achievement 
level.
    <bullet> A greater emphasis on intra-classroom formative assessment 
to insure that all students are making the desired progress, not merely 
the students who are at risk of not meeting the proficiency 
requirements.
    <bullet> With the reauthorization of NCLB, allow the appropriate 
growth modeling results to be used in lieu of the existing safe harbor 
provision to eliminate the too prevalent practice of focusing on the 
``bubble kids.'' This should reduce the difficulty that districts are 
having in recruiting highly effective teachers to schools that are 
vulnerable for not meeting the present AYP requirements of NCLB. 
Removing the stigma of failing but keeping enhanced resources available 
could be a recruiting option in the new reauthorization for schools 
that demonstrate appropriate growth for their students.

                                SUMMARY

    We have had several years of experience providing value-added 
analyses to thousands of districts within many States. We have found 
that when educators are provided with reliable measures of student 
progress, then they can evaluate their own strengths and weaknesses. We 
have observed the progress that schools and teachers have made once 
they have trust in the reliability of the information and dedicate 
themselves to improvement.

    The Chairman. Thank you. We'll try and have every comment 
just about a minute or so, if we could, so we can all get a 
chance and I'll take--with our group here, we'll do 5-minute 
rounds.
    Let me ask you, Dr. Sanders, just briefly, I think of the 
State of Oregon as the only one that has listed every 
individual student so that they can look individually and make 
an assessment. In Massachusetts, a major community that has 
done it--it costs $7 per student but they think that that could 
be indispensable in terms of doing an evaluation in terms of 
growth. Have you made any judgment about whether that type of 
activity is useful? At about $7 per student--it would cost 
almost half a billion dollars to implement. It is worthwhile? 
Should we be encouraging that? Discouraging? Incentivizing 
States to go to that direction?
    Mr. Sanders. Are you talking about $7 cost?
    The Chairman. Cost to put them on the list, to develop the 
process for evaluation. Is it a good idea?
    Mr. Sanders. It is an excellent idea. In fact, we are 
providing that for Ohio and Pennsylvania and Tennessee and 
North Carolina right now.
    The Chairman. Can you give us an idea--will you give us 
suggestions about how to do it and what the alternatives are 
and which system you think----
    Mr. Sanders. Absolutely, absolutely.
    The Chairman. With regards to the cost--is that amount set?
    Mr. Sanders. Absolutely. If it's done properly, it can be 
done far less than $7.
    The Chairman. Okay, good. Let me ask Amy Wilkins. I spent 
about 4 or 5 hours over the weekend with a number of 
principals, teachers, and parents with inner-city schools in my 
State and one of the most profound teachers who has been in the 
school system and highly regarded, said, ``Senator, with all 
respect, No Child Left Behind is just not going to do it for 
these schools because of the growth of poverty.'' The growth of 
poverty. Bad housing. Bad health. Bad nutrition. The growth of 
homelessness in these communities is so overwhelming that 
basically you're going to be tinkering along the edges on it. 
I'm putting it rawly but it was a very emotional--and this is a 
person that is out there and is a very good, a very, very good 
teacher, talking about what was happening in many of the 
communities, inner cities, the growth--the mobility of 
children--35 or 40 percent in the inner-city schools. The 
change in the school population. The good teachers will not go, 
even with a salary increase. I heard from principals that say 
even for $10,000 or $15,000 more they would not go because they 
believe that the school is in restructuring, need of 
improvement, getting labeled. It's a very difficult kind of a 
situation. Maybe that's not an accurate perception of what is 
happening in a lot of our inner-city schools, but whoever wants 
to can take a whack at it to the end of my 3\1/2\ minutes here. 
I'll start with you. Was this teacher off base?
    Ms. Wilkins. Well, Senator Kennedy, you know, no one could 
reasonably sit here and say to you that it is okay, that large 
majorities of black kids and Hispanic kids that need and a 
percentage of white kids are growing up without adequate 
housing, without adequate healthcare, are growing up in 
conditions that are absolutely unconscionable in a country as 
rich as ours. I mean, it is just wrong. And we--and I know we 
need to fight those things with every fiber of our being. That 
said, the question can't really be, does poverty affect student 
learning? We know it does. So the question for schools and the 
question for people who make policy about schools is how those 
schools respond to the condition those kids bring to school and 
the question is, do we surrender those kids' lives to poverty 
or do we fight for those children's lives? Because we know from 
research like Dr. Sanders, that highly effective teachers can 
change the life trajectory of those children. And nobody is 
saying it's easy. Teaching in high-poverty schools is hard. We 
need to provide those kids with the best teachers and we need 
to provide those teachers with absolutely the best of 
everything we know how to do in education but we do--what we do 
constantly is flip the system around and give the kids who need 
the most--we give them the least. So the role of NCLB and the 
role of title I has to be to shift that equation and to figure 
out how we better resource those schools and apply everything 
that people like Dr. Sanders and other educational researchers 
have done to ensure that those kids have a fighting chance 
because if our schools abandon those kids, the rest of their 
lives are doomed. That's all I can say.
    The Chairman. My time, unfortunately--I would have liked to 
have heard from others on it but I'll try and see if I can come 
back.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. I have two 
questions and one, Mr. Schnur, I want to ask you about the 
Teacher Incentive Fund in the continuing resolution, which we 
passed--cut it nearly to zero and there were about 18 programs 
around the country which are aimed almost at the very thing 
we're talking about today. You're involved in many of them. I'm 
hoping it was an oversight. Senator Durbin came on the Senate 
Floor and said it just got caught in the confusion and it 
wasn't really a partisan issue and given Senator Clinton's and 
Senator Kennedy's long work on this, maybe they can help me a 
little bit with it but would you want to make any comment about 
the Teacher Incentive Fund that is important to No Child Left 
Behind?
    Mr. Schnur. Thank you, Senator Alexander. My views on this 
question around performance incentives for educators reflects 
what I was saying earlier. I think that we're not, as a 
country, ready to do this nationally everywhere. This is a time 
when we should be trying things out with careful research and 
evaluation and learning from them and I do believe the Teacher 
Incentive Fund--well, you could always argue about details 
about how it might be tweaked a bit. Overall, it's a very 
crucial effort to help support experimentation with efforts to 
reward teachers and principals. Briefly, New Leaders is working 
with four cities that got grants, including Memphis and 
Washington, DC. and Denver and others on this and what we've 
said is, ``look, we're going to identify high performing 
teachers and principals and in exchange for their sharing their 
effective practice with others, we're going to have them get 
additional compensation.'' So it is rewarding individual 
teachers and principals but in a way that helps others learn 
from their practice and those efforts and the efforts in 
Chicago and elsewhere are jeopardized by the virtual 
elimination of that funding. Anything that Congress could do to 
restore that this year would be critical.
    Senator Alexander. Thank you. Let me go to Dr. Sanders. I 
would say that Senator Clinton and Senator Kennedy--nearly 25 
years ago, Governor Clinton and his wife--Governor Graham, 
later Senator, Dick Riley and I all were struggling with the 
same issue. How do we reward outstanding teaching in our 
States? Our State of Tennessee as well as Florida, passed what 
many of you have mentioned today, a Master Teacher Program, to 
reward outstanding teaching and we had a variety of ways to 
measure progress. At that time, 1983, not one State paid one 
teacher one penny more for being a good teacher. Not one State 
paid one teacher one penny more for being a good teacher. And 
so we looked at ways to fairly evaluate that since there had 
been so little help with it and teachers' portfolio, principal 
observation--we went through all this but the one area that we 
couldn't measure well was student achievement. That's really 
what gave rise to Mr. Sanders' career. I had never met him--I 
had never met him until today, even though he did this. So my 
question here--I've listened this morning. We've talked about 
master teachers, the importance of keeping teachers longer than 
5 years, the importance of teacher mentors, the highly 
effective teachers for these children who come from poverty. 
We've talked about the National Board of Professional Teaching 
standard. That's sort of a master's teacher, which I supported 
as Education Secretary. We've talked about all these needs for 
exceptional teachers, yet we persist in being unwilling to find 
fair ways to pay teachers and principals more for doing their 
job well and I obviously can't do that myself but do you see 
any evidence, Dr. Sanders, across the country, that we're 
coming to any sort of consensus about how to reward outstanding 
teaching so we can assign them all these responsibilities or 
attract them and keep them to help especially low-income 
children?
    Mr. Sanders. Well, what we're beginning to see is we have 
more and more people make requests for us to do the kind of 
analysis we do. First of all, people are really struggling 
with--and I don't think anyone has the answer yet--how you 
incentivize teachers, the highly effective teachers, to go 
teach in this high-need schools. Linda Darling-Hammond and I 
were talking before the hearing today and basically, I'm the 
numbers guy. I'm not the policy guy. But I'm telling you, that 
is one of the biggest inequities in American public education. 
You don't have anywhere close to an equitable distribution of 
the teaching talent.
    But on the other hand, you can't move people around like 
checkers on a board and Senator Alexander, in response to your 
direct question, there are, indeed, various attempts, now, 
scattered in various places, to create incentives for teachers 
to go. What happened in Chattanooga with the schools, is an 
excellent example. There are others floating around.
    Senator Alexander. But he was supported by the local NEH 
affiliate, if I'm not mistaken.
    Mr. Sanders. That's correct. You had a convergence with a 
local foundation, the mayor, now Senator Corker. You had the 
NEA local affiliate. You had a whole group of people come 
together and so forth and what they've done in those high-
poverty schools is amazing. It's happened in the--it's not a 1-
year phenomenon. It's a 5-year phenomenon. The TAP Program that 
you're beginning to see, the lady from Texas called about it--
that is a different approach that marries staff development and 
ways for people to earn greater compensation as they make more, 
I think. I know there is a district in North Carolina right now 
that indeed, is offering sizable salary supplements to recruit 
math teachers to those high-need schools. So I'm the numbers 
guy. I'm not the policy guy but there are lots of efforts that 
are springing up around the country. Inevitably, it comes down, 
though--can we have a reasonable, fair measure of what is 
effective and that's where this whole technology in the last 5 
or 6 years--it's no longer just Bill Sanders. There are all 
kinds of people now in various universities and so forth who 
are focused on--this technology has really moved big time in 
the last 5 or 6 years.
    The Chairman. Thank you very much.
    Senator Clinton.
    Senator Clinton. Well, thank you so much. This is such a 
stimulating discussion and one that Chairman Kennedy has been 
leading for so many decades and certainly Senator Alexander has 
been in the middle of and as he said, so have I for a very long 
time. I think this is exactly the right question to ask, how we 
attract and retain high quality teachers and give them the 
mentoring and the support they need to do that and then, how do 
we deploy them? I thought that Dr. Linda Darling-Hammond's 
testimony was particularly interesting because she pointed out 
that we don't have a teacher shortage but we certainly don't--
we have mal-distribution of where we need our highest quality 
teachers, in certain subject areas and certain kinds of 
teaching environments. I would just like to ask everyone to 
briefly, because I know we don't have a lot of time, just if 
you could give us one recommendation for what we should do in 
this re-authorization on No Child Left Behind, what would it 
be? What would you have this committee recommend to the 
Congress that we do using this re-authorization opportunity 
that you believe would move us closer to having the number and 
quality and effectiveness of teachers? Maybe we could just 
start with Linda and kind of go around to Dr. Sanders.
    Ms. Hammond. Well, the one is a hard number.
    Senator Clinton. That's why I want to hold you to it.
    Ms. Hammond. I think that given that the distribution issue 
is so critical and as Bill Sanders just said, getting 
accomplished teachers to these high-need schools is a really 
key piece of it and keeping people, once they get there. Our 
biggest single difficulty has been that as we've dealt with the 
appearance of shortages, we've had people come into classrooms 
with not enough training and mentoring to keep them there once 
we get them there. So I think if there is one thing that we 
need to do, it's to build the kinds of high quality programs to 
get people there that Jesse talked about with the Boston 
Teacher Residency that other universities do with these school-
based professional development school or teacher residency 
programs with mentoring attached for all beginning teachers. So 
I put in two in that one. But we could afford to get every 
beginning teacher in this country a mentor for about $500 
million and if we did it on a matching basis, we could do it 
for $250 million and we'd have that coaching that almost 
everyone has talked about. We could incent highly qualified 
teachers, National Board teachers, teachers who in a variety of 
ways have demonstrated effectiveness or high performance. I 
think we're at a stage where we have a lot of different 
measures we have to use to come in and be those mentors. And 
you get the high quality teachers in a place where you could 
train people up to do a good job for the kids who most need it.
    Ms. Wilkins. Hi, how are you? A lot of people around this 
table will talk to you about some very good programmatic things 
that we could do to begin to attract and retain more effective 
teachers in high-poverty schools but the fact is that there is 
systemic inequity that has to go away before these good 
programs can kind of work to their full potential. So I would 
argue when I argued before you came in that the most important 
thing you can do is fix the comparability provisions of the law 
to ensure that teacher salaries are counted such that as more 
experienced teachers and their bigger paychecks migrate away 
from high-poverty schools, that is no longer hidden by the law 
nor sanctioned by the law, to ensure that title I dollars 
aren't gap-fillers for poor kids but indeed, can buy extras for 
poor kids.
    Senator Clinton [off mic]. That's the old--not to 
substitute for substance.
    Ms. Wilkins. Yes. I'd include that in my one also.
    [Laughter.]
    Ms. Burtnett. What a good question. My thought is that when 
teachers are in school with children, they are focused on the 
teaching and learning experience at that time. In order to plan 
for instruction, teachers need time to do it and it's not just 
1 hour a day. The test scores in Florida come out at the end of 
May and teachers leave. I would really like to see time in the 
work year for teachers to collaborate during the day, when kids 
are there but also time beyond the 180 days of students, for 
teachers to work together, to look at the scores, to do the 
analysis, to collaborate on the curriculum and make decisions 
in anticipation, as Dr. Sanders said, looking at that 
longitudinal progress of each child--make decisions in June 
that will begin the work in August and September. Teachers need 
time to consider before they move and that's my offer to you.
    Mr. Solomon. I'm going to try to get two for one also, if 
that's okay with you. I think we've talked a little bit about 
the teaching hospital model and my belief is that you learn how 
to teach by teaching and you do so in a structured, supported 
environment where you're having critical conversations and I 
think moving schools to places that support that kind of 
learning would support the real learning that our new folks 
need but it would also create different roles and different 
career paths for our veteran folks, thereby keeping them in 
teaching as well.
    Senator Clinton. Barbara.
    Ms. Maguire. I would agree with Dr. Hammond on the need for 
mentors in our buildings, particularly if we can work one on 
one with different teachers. As an experienced teacher, I can 
go in and help that teacher find that magic balance. As we talk 
more about high stakes testing, what I found in our schools is 
that we have pre-schools where teachers are being told they're 
not doing enough academics with 3- and 4-year-olds and I find 
that appalling and we're taking away play in kindergarten, 
we're taking away physical education and the arts from our 
students who need them the most and as a beginning teacher, I 
think people are frustrated in how to approach an administrator 
or how to speak out on their feelings about that and as an 
experienced teacher, I'm no longer afraid. So I can go in and 
help that teacher make a plan for how to combine a need for the 
test scores with the need of the child. I think that's my 
biggest fear from someone in the trenches, is we're losing 
sight of the children. In pre-school and in kindergarten, 
they're still just babies and they need to play and they need 
to learn to get along and yet, we're worried about how many 
letters they know and what level they are reading at, when in 
fact, there is so much more to that child.
    Ms. Young. Thank you for this good question and I'm going 
to put in two, too. You're absolutely right that it is a 
distribution problem. As Amy talked, our lowest performing 
schools have the least prepared teachers. It would be nice if 
we could focus on every child, we'd get a highly qualified, 
well-prepared teacher and eventually that should be our goal 
but we do need to focus on the kids that need the most. I think 
one of the ways specifically in NCLB that we fix this is look 
at that definition of what is currently called highly qualified 
and how do we fix that? In my State, in California, NCLB will 
consider a teacher highly qualified and in California, they're 
not fully qualified. That makes no sense. We need to fix that 
and I think by doing that by a definition that is truly about 
high qualifications with teachers, put that into place along 
with incentives and mandates for schools and districts to focus 
on these high-need schools and get the truly highly qualified 
expert experienced teachers in place and don't just hold them 
accountable--hold us accountable too, at the universities. 
Force us to show you that we are preparing teachers who are 
suited for those challenging environments, who have preparation 
to work with these kids who need them most, not just as new 
teachers but through those careers.
    Ms. Watkins. Thank you so much, Senator Clinton. I want to 
add that what I would suggest is support that works and support 
that has been proven effective. As we talk about highly 
qualified teachers and teaching, I would just beseech you to 
remember that highly qualified teaching is not synonymous to 
experience and as we look at distribution, there are lots of 
teachers who've been teaching and who are doing a great job 
with children across the district of Richardson that would not 
be effective teachers with my high-need students. They have 
very specialized needs. What they are doing in other schools 
with the experiences that their students have would not work 
for my students. I need specialists who we can train to do that 
and that's what the TAP Program does. I need people who can be 
mentored and look at data, understand data, know how to analyze 
it and let us help them to drive their instruction, adjust 
instruction and monitor instruction, monitor the data to meet 
the needs of the students. No more than any of us would want to 
go to an orthopedic surgeon with a heart problem, I could not 
use a teacher from another school necessarily with 20 years of 
experience to come over and do what some of our teachers, who 
are trained last year through TAP after only 1 year of teaching 
experience, are doing with my children at Thurgood Marshall 
Elementary. So please support what works.
    Mr. Schnur. Thank you, Senator for the good question and 
for your leadership on school leadership issues. My single 
recommendation is grounded in a concept that my friend, Alan 
Khazei--who you know, Mr. Kennedy, you know and others, who 
founded City Year and was the model for Americorp and Alan is a 
terrific leader and he coined this term of the notion of an 
action tank instead of a think tank. There are a lot of think 
tanks, which are good, doing research and thinking about what 
works but Alan's idea is create action tanks where there is a 
particular policy goal piloted in a real serious way. Have a 
rigorous evaluation and then learn from that action what works 
at scale and I actually think an action tank around principal 
and teacher effectiveness would be a terrific contribution to 
the national work in education, in particular to say the goal 
is that principals and teachers in this country, the primary 
responsibility must be, as hard as it is, to ensure academic 
success for every child. And this is not just a question of 
shortages or distribution as important as those are but I think 
embedded in all those comments are about focus on teachers and 
principals whose job it is to secure success for every student 
and the question is how do we move forward a system that can 
identify, select, reward, differentiate support, professional 
development, teachers and principals who can do that and I'd 
say an action tank that supports experimentation could bring 
back terrific data 5 years from now, which we'd be serving a 
lot of kids across the country and help them form the next re-
authorization 5 years from now.
    Mr. Sanders. Your question was the one thing that we would 
advise you. Prior to No Child Left Behind, the analyses that 
I'd been doing for years showed that the kids 
disproportionately, across many States that were getting 
hammered the hardest, were the early high achieving kids in 
schools with a high concentration of poor and minority. Those 
schools were under-serving those early higher achievers even 
more than they were the low achievers. No Child Left Behind has 
had a very positive impact on balance, with regard to the 
raising of achievement for the lowest achieving kids. But there 
is this negative unintended consequence in there that I 
strongly recommend that the Congress remove and that is, this 
teaching to the bubble kids, the kids that are just below 
proficiency because these schools are under the heat of failing 
AYP, are focusing right there and they are letting those early 
high achieving kids often slide. And when an old nerd like 
myself, comes along and analyzes it, you will see those early 
high achieving kids' achievement level being pulled back toward 
the achievement level of the lowest achieving kids. Okay, this 
needs to be fixed. We need to have in the AYP, with regard to 
the growth trend, a way to give States and districts incentives 
to keep the appropriate academic progress for all kids to 
varying levels of future achievement and if I could recommend 
one thing to you--now, all these other things I concur with. 
That is the one that needs Congress's greatest attention.
    Senator Clinton. Thank you very much. That was extremely 
helpful.
    The Chairman. Senator Allard.
    Senator Allard. Mr. Chairman, thank you for holding this 
hearing. I've found the comments here by the panel very 
interesting and I want to bring up an issue that is pertinent 
to No Child Left Behind in the fact that we are moving into a 
new parameter that is beginning to measure now, I think, which 
is science. We've had math and then the year 2007, 2008, you 
begin to measure science and I have talked with a lot of people 
that are in the sciences--physicists, chemists, engineers, 
biological sciences and they are concerned about a shortage of 
people who are interested in the sciences. And in fact, they 
feel like they have to go to other countries to pick up these 
sciences. And I've talked to them and said look, maybe what we 
need to do is think about introducing our students to sciences 
earlier in the grades. I've made this assessment and I'd like 
to have you comment that elementary teachers are somewhat 
intimidated by the sciences so they like to--that's why they 
are elementary teachers. But you get up to the higher levels 
then--you know, you get in there, they are more dedicated to 
the sciences.
    If somehow or the other we could teach elementary teachers 
to learn that science is fun. It's magic or whatever it is to 
attract the student's attention.
    So I want to structure my question this way. Do you feel 
that if we talk about getting elementary teachers to introduce 
science at an earlier level, that they are prepared to do that 
and are they prepared to go into the workforce to meet these 
requirements of science, which we're going to begin to test 
now, in 2007 and 2008. I just bring this up because I think 
it's very pertinent to where we are with No Child Left Behind, 
the goals we've set out there and how you think teachers might 
be prepared to address this and I'll leave this open to anybody 
that might want to tackle that. Yes?
    Ms. Hammond. I'd like to say one word. One is that the 
degree to which teachers are prepared to teach science in 
elementary school differs by States because some States have 
put a lot of energy into both the preparation of teachers to 
teach science in the elementary grades and they have a lot of 
requirements around it and others have not.
    So we would want to incent States, either in this context 
or in title II of the Higher Education Act, to develop stronger 
preparation for teachers in science if they haven't yet done 
so.
    But the other piece of it has to do with curriculum 
instruction and assessment. In a lot of States, science is not 
being taught until after March, until after testing time 
because it's not one of the tested subjects and there are 
concerns. Then, there are some States that do a wonderful job 
with performance assessments in science, where kids in fact, 
are both encouraged to conduct experiments early on and learn 
the scientific method and demonstrate it on State assessments 
that actually look at science investigation. Connecticut is 
one, New York is another and then there are other States where 
science is really being configured only as kind of memorizing 
some facts and doing multiple choice tests. So the other piece 
of the incentive that we need in No Child Left Behind is for 
good performance assessments and strong curriculum that 
supports scientific inquiry from early on in the grades as well 
as the training for teachers to support that.
    The final thing I'd say is that the kind of master teacher-
mentor teacher models that you've been hearing about all up and 
down this panel, which provide coaching for teachers in school 
to improve their practice, are really helpful in terms of 
improving the quality of science instruction because teachers 
who don't have either strong experience to do it or incentives, 
need coaching to learn how to bring science into their 
classrooms. So supporting those master teacher models will also 
be helpful.
    Senator Allard. Yes, ma'am.
    Ms. Young. I would just add that you're right about the 
importance of adding science to our testing program because our 
experience has been in the university that when we talk about 
the elementary--the preparation of elementary teachers and they 
go out in the field and they are student teaching, to teach 
science, they found that very many K-6 schools were not 
teaching science at all because they are so focused on high 
stakes testing and what's on the test that that's all they had 
time for in their curriculum. So adding science to the testing 
is going to help drive it in the curriculum. About whether our 
science elementary teachers are prepared for that, they're 
going to be better prepared, they are going to be better 
prepared, now that they'll have the opportunity to do that.
    One of the things that we found really valuable at CSU is 
partnering with private industry about strengthening science 
curriculum and opportunities for elementary science teachers to 
learn more good science. We partner with JPL, with Boeing, with 
NASA, with all kinds of think tanks about strengthening our 
science ed curriculum for elementary teachers.
    Senator Allard. Yes, ma'am.
    Ms. Burtnett. You are correct in your assessment that 
elementary teachers have not had the opportunities to learn 
about science and consequently, they haven't--they haven't 
focused on it. What I can tell you is that the National Board 
process--through that process, those teachers are looking at 
science in a different way and they begin to understand and 
realize how important it is for especially young children who 
are so curious about the world, to have opportunities to 
explore and discover in a scientific way. So the National Board 
process is helping in that regard and teachers who go through 
it are also helping at their schools, helping others see the 
critical need for bringing science curriculum into schools.
    I'm glad to hear that in many States--we're moving in that 
direction in Florida, we're moving in that direction. So I do 
think there needs to be more focus on science and use what is--
use those best practices out there because the Board has ways 
of doing that and coaching teachers up in it.
    Senator Allard. Yes, sir.
    Mr. Schnur. So in addition to the excellent ideas that 
you're hearing from others on this panel, I do believe that one 
of the keys is to attract people with expertise in math and 
science and to retain them and so I think there are policies 
that are being discussed that are targeted to math and science. 
I know some of these are well supported--not all of them but 
one. I do believe that national standards of some kind in math 
and science would send the message, however that's implemented, 
that we value math and science as a country and that we want 
the best and brightest people with expertise in math and 
science to become teachers. Second, I think that restoration of 
the funding for the Teacher Incentive Fund would send a 
powerful message that we actually have a profession beginning 
to look at how we can actually reward excellence in fair ways 
and give leadership opportunities and learning opportunities to 
attract math and science teachers and others. And third, I do 
think loan forgiveness, for people coming out of institutions 
with an expertise in math and science, that Senator Kennedy has 
called for would also help this problem.
    Senator Allard. I see my time----
    The Chairman. Good. Thank you. We've heard about a variety 
of them. We have the Teaching Centers that Pam Burtnett had 
talked about, residencies by Mr. Solomon. We've had the TAP 
Program and others, and they are all somewhat different. Where 
are the funding for these programs? Obviously we want programs 
suitable to different parts of the country and we ought to try 
and encourage those. I mean, I think Jesse--I think there was 
support from the Boston Foundation and one of the instruments 
that started or helped out there. But my basic question is, 
should we be trying to incentivize these types of programs? All 
of which you've commented that make a difference and all of 
which are somewhat different. What are the kinds of things you 
think that we might be able to do to incentivize the local 
kinds of communities or States to be able to move in these 
directions and in ways that's going to have 1,000 flowers 
bloom?
    Mr. Solomon. I think in our case, we were started 
completely on private money for the first 2 years and I think 
we would have never been able to convince the school district 
to spend its own money on this without seeing it up and 
running. So some kind of pilot fund and maybe it's similar to 
the sort of action tank idea, to get programs started. Because 
now the Boston Public Schools pays 60 percent of our program at 
this point. But we needed to be able to have sort of a 
demonstration proof in order to be able to get it started.
    The Chairman. Good.
    Pam.
    Ms. Burtnett. The U.S. Department of Education has funded 
the National Board project along with the National Science 
Foundation. That's critical. The Teacher Center that we had 
came out of a sliding grant from the Conrad Hilton Foundation a 
long time ago. The collaboration between the union and the 
district is very, very important. The union trains our 
facilitators in thinking mathematics, reading--that's our 
Educational Research and Dissemination Project for the AFT and 
the district pays for the substitutes for teachers to come out 
of the classroom. Anything that we can do to incentivize 
ongoing professional development with high quality research, 
current research on teaching practice and in content areas like 
science and reading, is important.
    The Chairman. Let me just ask one other question. Qualified 
teachers in these classrooms, when the States make their 
submission, they are also supposed to have a distributive 
aspect of that program. You know, we've talked about the mal-
distribution in response to earlier. What is your assessment 
about which States are doing much better than others? Clearly 
they are but I mean, is there anything we should know about 
that that we don't or do you want to let us know at some time, 
do you want to take a look at it? Is there anyone that wants to 
comment about that?
    Ms. Wilkins. I think actually Senator Alexander and Dr. 
Sanders--Tennessee is doing one of the better jobs on 
distribution. In that, one of the things Tennessee has is a 
data system that can tell them who is who. Because it's kind of 
hard to distribute people when you can't identify them. So that 
is why sort of getting good teacher data systems is so 
important and Tennessee's work kind of shows you that. But I 
think the larger point here is, you all put those distribution 
provisions in the law when you passed it and the Department of 
Education ignored them until last spring so that there was no 
pressure on States to do anything. There were States that 
didn't even know that they were required to address the 
distribution issue until last spring. So that you have a lot of 
States who've pretty much done nothing because they were never 
asked to do anything.
    Ms. Watkins. I would like to add something, with your 
permission, Chairman Kennedy. If in areas of TAP funded in 
different ways--I know in Texas, individuals in independent 
school district, we use title I money, title II, title V and 
our local tax dollars and across the State, where TAP has been 
implemented, it is my understanding that they are using all of 
their resources to fund that. I can't give you specific data on 
which States are doing a great job with TAP and how they are 
funding but I would be happy to provide that for you if you are 
interested.
    Chairman Kennedy. Good. Thanks.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. This has been a 
terrific morning and I hope you'll do this again. I want to go 
back to the question I asked Dr. Sanders and see if anyone else 
would have a comment on it. Let me take it this way. Almost 
everybody here has said something like teacher experience does 
not equal teacher effectiveness and for example, in the 
Richardson district, you may have very good teachers in this 
setting but you're not effective in this setting. That's one 
thing we see. The second thing I think I'm hearing is that over 
the last 25 years, not just Dr. Sanders but we're beginning to 
develop in a way, a variety of ways, to say what a highly 
effective teacher is. And okay, that's some real progress. I 
mean, 25 years ago when we tried to have a Master Teacher 
Program in Tennessee, I went to every college of education in 
America who said it was foolish to try to measure that and to 
reward people for that. They didn't do that. So we had to do 
it. We had a bunch of politicians figuring it out because the 
education community wouldn't do it.
    So that leads us to the Teacher Incentive Fund and let me 
just take an example. The city with the largest number of low-
performing schools is Memphis. That's where we have our poorest 
children. I've been in many of those schools. I've seen the 
tremendous results that can be achieved there in a relatively 
short period of time, with what are obviously highly effective 
teachers. In a couple of years, the kids who had so little 
coming in are already up to levels that one would hope they 
would be.
    Under the Teacher Incentive Fund, New Leaders for New 
Schools has $3.1 million, the first year of a 5-year grant 
totaling $18 million. Now that is being used in two ways. 
Eighty-three principals serving a third of the schools are in 
this program to make sure they are good principals but they are 
getting paid $15,000 more a year than the other principals and 
491 teachers with demonstrated records of improving student 
academic achievement in high-poverty schools are getting $6,000 
more dollars a year than the other teachers. Now we all dance 
around this but what happens is, some education community rises 
up and wants to stomp that out because some teachers are making 
more than others. I don't think we'll ever get anywhere with 
this discussion until we find some way to reward these mentors, 
master teachers, and people who go into low-income areas and 
science teachers and great principals until we get some 
consensus in the education community about a fair way to do it. 
And with all respect, I don't think we in the Senate can do 
that. Now some step was made with the National Board for 
Professional Teaching Standards. That's one way. But we need 
more ways. And when Philadelphia and Memphis and all these 
places try to--Chattanooga--reward outstanding teachers, the 
last thing we need is for national education organizations to 
jump in and try to kill the program, which is exactly what 
happens.
    Now, am I being unfair to say that or am I misreading what 
I'm hearing or is there some sort of emerging consensus about 
how to do that? What could we do here to kind of encourage this 
rather than discourage it over the next 5 years in this bill?
    Ms. Hammond. I think that the point that John made a few 
times, that we need to be able to experiment with these things 
and figure out what is going to work is an important one. I 
think there is a growing consensus that it's valuable to 
recognize teachers' capacities. As you said, the National Board 
is one way to do it. When you were Governor, you introduced, I 
think, one of the first career ladders that set the stage for 
some of the programs like TAP that are now beginning to take 
hold. We have only a few places where these programs are 
growing and being studied and looked at. The TAP Programs, 
Denver has an innovative compensation system and so on. I think 
the key for the next few years is to try to get some of that 
work done right in some local places because we're not quite 
ready to mandate some single approach.
    Several ways that one would look at it--I think there are 
three--would include things like the National Board of 
Certification. There is a New Beginning Teacher Performance 
Assessment also, that has been piloted and found to predict 
teacher effectiveness, using methods like Dr. Sanders, so you 
can get a gauge on performance. There are some standards-based 
evaluation systems that have been found to predict teacher 
effectiveness and then there are methods like the ones that Dr. 
Sanders has piloted and really guided us in. He's been a 
national treasure in this. But that's going to be a ways off 
for a lot of States because most States don't have the kind of 
systems that have value-added types of tests. Massachusetts, 
New York, California--don't have scaled testing systems. People 
are in disagreement about whether it's a good or a bad idea to 
go to those tests because they're different in measurement. I 
think we want to use ways to look at student learning, where 
those methods are useful and appropriate as a part of a system, 
look at other ways to look at student learning in States that 
will not be able to move in that direction and have teachers 
begin to assemble evidence about their own contributions to 
student learning in their evaluation systems, which is one of 
the things that's going on in Denver and some other places, so 
that we begin to build a capacity to think about performance, 
contributions to student learning in a variety of ways and then 
see where we are with some systems that have been tested in the 
next few years.
    Mr. Sanders. Senator, I would just add to that. I think the 
incentive fund in which States were allowed to submit and 
compete for has begun to create the very pilots that Linda was 
referring to. In other words, it's not across the board but 
there have been various approaches and so forth so I think this 
whole notion of adding to the ongoing experimentation would be 
something--Senator Kennedy's comment earlier of who initially 
finances these things--sometimes we've seen it from private 
money. We found that Chattanooga started primarily with those 
local foundation dollars that became the seed for it so I think 
that what I would like to see Congress consider is the notion 
to have more experimentation to go through as opposed to--
because each of the 50 States are not at the same level 
presently with regard to longitudinal data structures, just as 
Linda just pointed out. But I do think there ought to be an 
encouragement for more experimentation.
    Ms. Hammond. When we do that though, we need to be sure 
that we're allowing--giving teachers incentives to teach the 
whole child, that we're giving incentives to teach the kids who 
have high levels of need so that we don't dis-incentivize 
teachers taking special-needs students, English language 
learners, in their classrooms and that we figure out ways that 
acknowledge the breadth of work that teachers do and I think a 
multiple measure system is going to be what helps us do that.
    The Chairman. Just the final two comments here.
    Ms. Burtnett. And let me just add one--teachers need to be 
a part of that conversation, the conversation about the 
incentives, the opportunities, the career ladder, the criteria 
by which effective teaching is looked at. They need to be at 
the table talking about what they know. Senator Alexander, my 
teachers tell me that they are understanding of the desire to 
build career ladders and give teachers more opportunities. They 
are not reluctant--they are hesitant because there isn't this 
body of evidence out there that helps them know what it is 
going to look like and how they are a part of it and have a 
voice in it.
    Senator Alexander. Well, if I may say, if they keep trying 
to kill every effort to experiment with it, there will never be 
such a body of evidence.
    The Chairman. Amy.
    Ms. Wilkins. Senator Alexander, I just have two points that 
I'd like to make.
    The Chairman. Take the microphone, please.
    Ms. Wilkins. I just have two points that I'd like to make. 
One is I want to be careful as we talk about these experiments 
that we try to move from the boutique level to at least the 
small chain level. Let's try and get some scale here instead of 
just nibbling around the edges with one cutie thing here and 
one cutie thing there. We do know a lot and we should apply 
what we know to scale up and get very aggressive about this 
because we know how important good teachers are to poor kids 
and we don't have time to nibble around the edges. So I think 
aggressive experimentation that tries to move to scale very 
quickly is important.
    The other thing, I think, that we really need is outside 
evaluation of these programs so that the learning that is done 
can be No. 1, reliable but No. 2, quickly turned around and 
plowed into to get to the scale that John was talking about. 
The action tank stuff is nice but I think the emphasis needs to 
be on action and the small tank.
    The Chairman. Aggressive experimentation. We want to thank 
all of you. It's been enormously helpful. I think we've touched 
on a lot of different subject matters, that have been raised 
here and I think a lot of people were able to make brief 
comments--others didn't get a chance. Without going back and 
having to write a long essay, but if you want to give us some 
bullet points on some of these parts, we'd very much appreciate 
it. I don't want to ask you to go back and create a whole 
other--you know, feel you have to go back and do all additional 
testimony but you've listened to a lot. If you have comments on 
items we didn't hear from anyone, you can just put these things 
down--you know, a couple of sentences and/or if you know of 
different studies that we and our staff ought to reference. Do 
you think they can give us some additional ideas or suggestions 
or ongoing studies that will be coming up that we ought to be 
aware of. We're thirsty for information and what we will do is, 
as the legislation is drafted, we'll get it out to you to get 
your comments, as we get this. And then you can give us your 
comment on that. So we'll have you hopefully as involved as you 
want to be in terms of this whole process.
    We have additional kinds of statements and I'll ask that 
those statements be included as part of the record and I thank 
all of you very much for appearing. The committee stands in 
recess.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

Prepared Statement of Leslie Burger, American Library Association (ALA)

    Chairman Kennedy, Senator Enzi, and members of the committee, thank 
you for allowing me to submit testimony on behalf of the American 
Library Association (ALA). I appreciate the opportunity to comment on 
the value of the school library media specialist in achieving the 
laudable goals of the No Child Left Behind Act (NCLB).
    My name is Leslie Burger, and I am the President of the American 
Library Association, the oldest and largest library association in the 
world with some 66,000 members, primarily school, public, academic, and 
some special librarians, but also trustees, publishers, and friends of 
libraries. The Association provides leadership for the development, 
promotion, and improvement of library and information services and the 
profession of librarianship to enhance learning and ensure access to 
information for all.
    In 2001, with strong bipartisan support, the Nation embarked on an 
ambitious school reform plan entitled the No Child Left Behind Act 
(NCLB). Among other things, NCLB requires States to set high standards 
for all students and holds schools accountable for the results. 
Further, it requires that there be a ``highly qualified'' teacher in 
every classroom. This emphasis has resulted in significant changes in 
how teachers are hired and retained as well as how professional 
development is provided. The ALA applauds the highly qualified teacher 
requirements in NCLB, but believes the same standards being applied in 
our classrooms should be extended to our Nation's school libraries--
that every school library should be staffed by a highly qualified, 
state-certified library media specialist.
    Section 1119 of NCLB outlines the minimum qualifications needed by 
teachers and paraprofessionals who work in any facet of classroom 
instruction. It requires that States develop plans to achieve the goal 
that all teachers of core academic subjects be highly qualified by the 
end of the 2005-6 school year.
    Yet, despite the vital role school libraries play in helping meet 
those requirements, NCLB is silent when it comes to the qualification 
of those individuals in charge of our school libraries. The over 62,000 
state-certified library media specialists in public schools and 3,909 
state-certified library media specialists in private schools in the 
United States fill multiple roles--teacher, instructional partner, 
information specialist, and program administrator--ensuring that 
students and staff are effective users of information and ideas.
    School libraries are critical partners in ensuring that States and 
school districts alike meet the reading requirements that are part of 
NCLB as well as President Bush's unequivocal commitment to ensuring 
that every child can read by the end of third grade. President Bush and 
the Congress recognized the important role school libraries play in 
increasing literacy and reading skills when they created the Improving 
Literacy Through School Library program as part of NCLB (Title I, Part 
B, Subpart 4, Sec. 1251).
    The Improving Literacy Through School Library program--the first 
program specifically aimed at upgrading school libraries since the 
original school library resources program was established in 1965--is 
designed to improve student literacy skills and academic achievement by 
providing schools with up-to-date library materials, including well-
equipped, technologically advanced school library media centers, and to 
ensure that school library media centers are staffed by professionally 
certified school library media specialists.
    Multiple studies have affirmed that there is a clear link between 
school library media programs that are staffed by an experienced school 
library media specialist and student academic achievement. Based on 
analysis from the first year of funding for the Improving Literacy 
Through School Libraries program, 95 percent of local education 
agencies have reported increases in their reading scores. The 
Department of Education's November 2005 evaluation of the Improving 
Literacy Through School Libraries program found it has been successful 
in improving the quality of school libraries. Fourteen statewide 
studies demonstrate that a strong library media program helps students 
learn more and score higher on standardized achievement tests than 
their peers in library-impoverished schools. Unfortunately, about 25 
percent of America's school libraries do not have a State-certified 
librarian on staff.
    The skills needed to function successfully in a 21st century global 
workforce have gone beyond reading. Business leaders are concerned that 
people are now entering the workforce without information literacy 
skills--those skills needed to find, retrieve, analyze and use 
information--which equip people with the ability to work proficiently. 
Who better to teach information literacy than librarians, the 
information experts.
    When it comes to our children's education, we must ensure that they 
receive the best instruction possible from competent, qualified 
instructors. This is true in the classroom and should be true in our 
school libraries. Education is not exclusive to the classroom; it 
extends into school libraries and so should the qualification we demand 
of our school librarians. To be a critical part of a comprehensive and 
renewed strategy to ensure that students learn to read (and to read 
well), every school library should be staffed by a highly qualified, 
state-certified library media specialist and every school should have a 
school library.
    As Congress begins consideration of NCLB reauthorization, ALA 
recommends the following:

    1. Encourage each State to review their requirements for library 
media specialists and to define for their own State what it means to be 
a ``highly qualified library media specialist;''
    2. Set a goal for all schools receiving title I funding to have at 
least one ``highly qualified library media specialist'' as defined by 
the State; and
    3. Provide local flexibility for schools and districts to use funds 
under title II, part A to help hire, retain and train library media 
specialists so they are able to meet the ``highly qualified'' 
definition set by the State.

    We appreciate your responsiveness and look forward to determining 
how we can work with you to ensure that all schools are staffed by a 
highly qualified, state-certified library media specialist.
    Thank you again for this opportunity to comment on behalf of the 
American Library Association.
                                 ______
                                 
         National School Boards Association (NSBA),
                                      Alexandria, Virginia,
                                                     March 5, 2007.
Hon. Edward M. Kennedy,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.

Hon. Michael B. Enzi,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.

Re: Letter for the Record on NCLB Hearing--``Strategies for Attracting, 
        Supporting, and Retaining High Quality Educators''

    Dear Chairman Kennedy and Ranking Member Enzi: On behalf of the 
95,000 school board members who serve the Nation's 48 million students 
in our local public school districts, the National School Boards 
Association (NSBA) respectfully requests that this letter be entered 
into the record in conjunction with tomorrow's important hearing on 
teaching quality. We commend your leadership in holding a hearing on 
this matter that is inextricably linked to the ability of schools and 
districts to fulfill the lofty goals of the No Child Left Behind Act 
(NCLB), particularly raising achievement for all students.
    The research on this matter is clear: no other school-related 
factor has a greater impact on student achievement than the ability of 
the student's teacher. In short, teachers matter. School districts and 
States are striving to recruit and retain qualified and effective 
teachers but face significant targeted staffing challenges. The Highly 
Qualified Teacher requirements within NCLB have added to those 
challenges in some instances.
    While hiring decisions remain the responsibility of local school 
boards, NSBA believes that Congress does have a role to play in 
assisting local school districts and States in their ongoing efforts to 
attract, support and retain qualified and effective teachers. The needs 
are particularly acute in high-poverty schools and for certain subjects 
in which teacher shortages are too common, including math, science, 
special education, and classes for English Language Learners.
    NSBA's legislative recommendations cover recruitment and retention, 
professional development, needed improvements to the Highly Qualified 
provisions in NCLB, and strengthening teacher preparation. While we 
recognize that there may be several legislative vehicles in which 
Congress can assist districts and States in strengthening teacher 
quality--including the reauthorizations of NCLB and the Higher 
Education Act, and legislation on U.S. economic competitiveness--we 
wish to take this opportunity to outline our recommendations since your 
committee will be leading any effort on this matter.

                       RECRUITMENT AND RETENTION

    Through Federal incentives and funding for existing programs, 
Congress can provide important assistance to supplement districts' and 
States' teacher recruitment and retention programs. For example, 
adequate funding for title I and especially title II (Improving Teacher 
Quality State Grants), as well as incentives like the Teacher Loan 
Forgiveness Program need continued support. NSBA also supports newer 
concepts, such as the Teacher Incentive Fund, which can assist district 
programs that reward teachers and principals who demonstrate positive 
results in high-poverty schools. Such programs can also help foster the 
creation and expansion of differential pay initiatives for teachers of 
high-need subjects and hard-to-staff schools. We also are encouraged by 
efforts in Congress to provide scholarships for undergraduates who 
commit to teach for several years in hard-to-staff schools or high-need 
subjects, and for experienced teachers who further their education and 
take on added responsibilities, including mentoring.

                        PROFESSIONAL DEVELOPMENT

    Improving professional development or in-service training is 
critical to supporting and retaining teachers. We recommend partially 
redirecting NCLB's focus and funding requirements from unproven 
sanctions to support for comprehensive professional development 
programs that can improve teaching and raise student achievement. 
Comprehensive professional development would include analysis of 
students' learning needs, intensive induction and mentoring support, 
and peer collaboration. This approach would also result in additional 
title I monies available for professional development.

                     HIGHLY QUALIFIED IMPROVEMENTS

    States and school districts have made strong progress in their 
efforts to meet the Highly Qualified Teacher requirements within NCLB. 
Those requirements have also added to pre-existing recruitment and 
retention challenges, particularly for rural schools and certain 
subjects, such as special education. The Department of Education has 
recognized this by granting some flexibility to districts and States, 
and clarified in the IDEA regulations that States can develop a single 
multi-subject HOUSSE (High Objective Uniform State Standards of 
Evaluation) to allow special education teachers of multiple core 
subjects to demonstrate subject-matter competency in every core subject 
they teach. We recommend that Congress make that provision permanent, 
or permit a special education teacher with full State special education 
certification and a bachelor's degree to be considered highly 
qualified.
    Additionally, Congress should streamline existing highly qualified 
requirements by requiring instructional personnel employed by 
supplemental service providers to meet the same requirements as public 
school educators. Under current law, they are not held to the same 
standard.
    Finally, some States and school districts are attempting to develop 
accurate and appropriate methods, such as ``value-added'' models, for 
determining and rewarding teacher effectiveness. It is a costly and 
complicated process that requires extensive collaboration among key 
stakeholders, including school boards, administrators and teachers, in 
order to develop a system that is viewed as fair and accurate. Congress 
can assist in this progress by providing funding (through matching 
grants) for States to develop the necessary data systems. Although 
value-added assessments provide information on student performance, 
they should never be the sole determining factor in evaluating teacher 
performance, which must include other factors including peer and 
principal evaluations.
    If Congress considers amending the highly qualified definition to 
take into account a teacher's effectiveness, NSBA recommends that it be 
added only as an alternative method by which teachers can meet the 
standards, not as an additional requirement. This approach could allow 
teachers who have a track record of success in raising student 
achievement but who may not meet all the current credentialing or 
subject-matter requirements, to be deemed highly qualified. However, 
because of the complexity in developing such systems, Congress might 
consider creating a demonstration program for interested States wishing 
to utilize or create a value-added model for this purpose.

                          TEACHER PREPARATION

    Quality teacher preparation programs, whether traditional or 
alternative, are an integral component to ensuring the Nation has an 
adequate supply of outstanding teachers today and in the future. Few 
would disagree that the Nation's teacher preparation programs have room 
for improvement. Congress should encourage schools of education to 
collaborate with local school districts to ensure appropriate alignment 
with NCLB requirements and State academic standards, as well as the 
proper education needed to enable teachers to effectively reach and 
educate today's increasingly diverse student body. NSBA also recommends 
that Congress increase accountability for teacher preparation programs 
by providing incentives to States to develop accountability programs 
which track the preparedness and success of graduates of its teacher 
preparation programs in raising student achievement (e.g., Louisiana's 
Teacher Preparation Accountability System).
    Again, we appreciate your leadership and interest in strengthening 
the efforts of school districts and States to recruit, support and 
retain quality teachers. We look forward to working with the committee 
on this issue as you consider legislation to address these challenges. 
If you have any questions or would like further information, please 
contact Marcus Egan, Director of Federal Affairs, at (703) 838-6707, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d20282a2c230d233e2f2c63223f2a63">[email&#160;protected]</a>
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.
                                 ______
                                 
                               Stanford University,
                                              Stanford, CA,
                                                     March 9, 2007.

    Dear Senator Kennedy: It was a privilege to testify before the HELP 
committee earlier this week on matters of teacher quality. At that time 
you invited us to submit additional comments on matters before the 
committee.
    Attached is additional testimony on the question of value-added 
modeling of test score gains as a basis for evaluating teachers--a 
practice that is emerging as a valuable but complex research tool, and 
one that has severe limitations as a primary means for evaluating 
individual teachers. I outline some of the challenges with this method 
with respect to individual teacher evaluation. I also describe 
proposals for how policymakers might encourage workable and productive 
means for recognizing exceptional teachers, taking into account their 
performance and contributions to student learning, and enabling them to 
contribute to the improvement of the profession and the teaching of 
underserved students.
    I thank you and the members of the committee for your hard work to 
improve our public education system. We are all the beneficiaries of 
that work.
            Sincerely,
                                     Linda Darling-Hammond,
                                     Charles E. Ducommun Professor.

            MEASURING AND RECOGNIZING TEACHER EFFECTIVENESS

    Recent policies aimed at improving teacher quality have begun to 
make a positive difference in the distribution of qualified teachers to 
traditionally under-served groups of students. Policymakers are now 
turning to ways to augment these efforts to evaluate and stimulate 
greater teacher effectiveness. Because of a desire to recognize and 
reward teachers' contributions to student learning, a prominent 
proposal is to use value-added student achievement test scores as a key 
measure of teachers' effectiveness. The value-added concept is 
important, as it reflects a desire to acknowledge teachers' 
contributions to students' progress, taking into account where students 
begin. However, there are serious technical and educational challenges 
associated with this approach, which limit its use as a primary measure 
of individual teacher effectiveness. (These issues are described 
below.)
    Perhaps the challenges associated with this approach were 
illustrated most vividly by the statement of an expert veteran teacher 
in Springfield, Massachusetts last year--a district being asked to put 
in place a system of merit pay based on value-added student achievement 
test scores. Springfield is a predominantly minority, overwhelmingly 
poor district that is under-resourced by the State. Fiscal woes had 
prevented salary increases for 3 years and about half of the 2,600 
teachers in the district had left over this time. Nearly 25 percent of 
the teaching force was uncertified and inexperienced. Susan Saunders, a 
Springfield native with more than 20 years of experience, was one of 
the local heroes who had stayed and worked tirelessly to assist the 
revolving door of beginning teachers, who shared the few current 
materials with these teachers, and who took on the highest need special 
education students (comprising more than half of her class of 32 
students), as she was one of the few teachers who could work with them 
successfully. When asked how she would feel about working in this new 
system of test-based merit pay, Saunders said the introduction of the 
system would force a teacher like herself either to leave the system or 
to stop taking on the special education students and helping the other 
teachers in her building (since one teacher's greater success would 
come at the expense of another teacher's rating).
    The Springfield system was not adopted because an arbitrator deemed 
the technical validity of the proposed system inadequate to carry the 
weight of personnel decisionmaking. In addition, this example suggests 
how important it is to exercise care in developing systems of rewards 
for teachers, so they do not create incentives that would discourage 
teachers from working collaboratively with each other and taking on the 
most challenging students. Since any measures used are likely to drive 
instruction, it is also critically important that the assessments used 
to evaluate student learning cover the broad goals of learning that are 
valued.
    For any high stakes purpose associated with personnel 
decisionmaking or compensation, multiple measures should be used in 
combination, as all measures give a partial picture of teacher 
performance. These measures should include evidence of: (1) teacher 
practices, (2) teacher performance, and (3) teacher contributions to 
student learning. Specific characteristics of students as well as of 
the learning environment should be taken into account in making 
judgments about teachers' effectiveness. These elements, and indicators 
of teacher qualifications, are all used in the Denver, Colorado system 
of teacher compensation based on knowledge, skills, and performance, as 
well as innovative systems in Helena, Montana; Portland, Maine; and in 
Minnesota's Alternative Professional Pay System.\1\

      WHY VALUE-ADDED TEST SCORES ARE PROBLEMATIC FOR EVALUATING 
                          INDIVIDUAL TEACHERS

    While value-added methods are valuable for research on groups of 
teachers, researchers agree that value-added modeling (VAM) is not 
appropriate as a primary measure for evaluating individual teachers. 
Henry Braun of the Educational Testing Service concluded in his review:

          VAM results should not serve as the sole or principal basis 
        for making consequential decisions about teachers. There are 
        many pitfalls to making causal attributions of teacher 
        effectiveness on the basis of the kinds of data available from 
        typical school districts. We still lack sufficient 
        understanding of how seriously the different technical problems 
        threaten the validity of such interpretations.\2\

    The problems with using value-added testing models to determine 
teacher effectiveness include:

    <bullet> Teachers' ratings are affected by differences in the 
students who are assigned to them. Students are not randomly assigned 
to teachers--and statistical models cannot fully adjust for the fact 
that some teachers will have a disproportionate number of students who 
may be exceptionally difficult to teach (students with poor attendance, 
who are homeless, who have severe problems at home, etc.) and whose 
scores on traditional tests are problematic to interpret (e.g. those 
who have special education needs or who are English language learners). 
This can create both misestimates of teachers' effectiveness and 
disincentives for them to want to teach the students who have the 
greatest needs.
    <bullet> VAM requires scaled tests, which most States don't use. 
Furthermore, many experts think such tests are less useful than tests 
that are designed to measure specific curriculum goals. In order to be 
scaled, tests must evaluate content that is measured along a continuum 
from year to year. This reduces their ability to measure the breadth of 
curriculum content. As a result, most States have been moving away from 
scaled tests and toward tests that measure standards based on specific 
curriculum content, such as end-of-course tests in high school that can 
evaluate standards more comprehensively (e.g. separate tests in 
algebra, geometry, algebra 2, and in biology, chemistry, and physics). 
These curriculum-based tests are more useful for evaluating instruction 
and guiding teaching, but do not allow value-added modeling. Entire 
State systems of assessment that have been developed over many years--
such as the NY State Regents system and systems in States like 
California, Washington, Massachusetts, Maine, Connecticut, Kentucky, 
and many more--would have to be dismantled to institute value-added 
modeling.
    <bullet> VAM models do not produce stable ratings of teachers. 
Teachers look very different in their measured effectiveness when 
different statistical methods are used. In addition, a given teacher 
may appear to have differential effectiveness from class to class and 
from year to year. Braun notes that ratings are most unstable at the 
upper and lower ends of the scale, where many would like to use them to 
determine high or low levels of effectiveness.
    <bullet> Most teachers and many students are not covered by 
relevant tests. Scaled annual tests are not available in most States 
for teachers of science, social studies, foreign language, music, art, 
physical education, special education, vocational/technical education, 
and other electives in any grades, or for teachers in grades K-3 and 
nearly all teachers in grades 9-12. With many grades and subjects 
uncovered by scaled tests, and with 3 years of data needed to get a 
reasonably stable estimate for a teacher (thus excluding 1st and 2nd 
year teachers), at best only about 30 percent of elementary teachers 
and 10 percent of high school teachers would be covered by data bases 
in most States. Once teacher and student mobility are factored in, the 
number of teachers who can be followed in these models is reduced 
further. In low-income communities, especially, student mobility rates 
are often extremely high, with a minority of students stable from 1 
year to the next. Although researchers can make assumptions about score 
values for missing student data for research purposes, these kinds of 
adjustments are not appropriate for the purposes of making individual 
teacher judgments.
    <bullet> Many desired learning outcomes are not covered by the 
tests. Tests in the United States are generally much narrower than 
assessments used in other high-achieving countries (which feature a 
much wider variety of more ambitious written, oral, and applied tasks), 
and scaled tests are narrower than some other kinds of assessment. For 
good or for ill, research finds that high-stakes tests drive the 
curriculum to a substantial degree. Thus, it is important that measures 
used to evaluate teacher effectiveness find ways to include the broad 
range of outcomes valued in schools. Otherwise, teachers evaluated by 
such tests will have no incentive to continue to include untested areas 
such as writing, research, science investigations, social studies, and 
the arts, or skills such as data collection, analysis, and synthesis, 
or complex problem solving, which are generally untested.
    <bullet> It is impossible to fully separate out the influences of 
students' other teachers, as well as school conditions, on their 
apparent learning. Prior teachers have lasting effects, for good or 
ill, on students' later learning, and current teachers also interact to 
produce students' knowledge and skills. For example, the essay writing 
a student learns through his history teacher may be credited to his 
English teacher, even if she assigns no writing; the math he learns in 
his physics class may be credited to his math teacher. Specific skills 
and topics taught in 1 year may not be tested until later years. A 
teacher who works in a well-resourced school with specialist supports 
may appear to be more effective than one whose students don't receive 
these supports. As Braun notes, ``it is always possible to produce 
estimates of what the model designates as teacher effects. These 
estimates, however, capture the contributions of a number of factors, 
those due to teachers being only one of them. So treating estimated 
teacher effects as accurate indicators of teacher effectiveness is 
problematic.'' To understand the influences on student learning, more 
data about teachers' practices and context are needed.

    Thus, while value-added models are useful for looking at groups of 
teachers for research purposes--for example, to examine the results of 
professional development programs or to look at student progress at the 
school or district level--and they might provide one measure of teacher 
effectiveness among several, they are problematic as the primary or 
sole measure for making evaluation decisions for individual teachers.
    Congress should fund research on a range of models for examining 
student progress in relation to teaching, including value-added models, 
in order to understand the technical properties of the models, how they 
intersect with desired properties of assessments, and what kinds of 
inferences they can support about teacher effects under various 
circumstances.

      HOW MIGHT TEACHER EFFECTIVENESS BE EVALUATED AND RECOGNIZED?

    The fact that value-added models are not ready for prime-time as 
tools for evaluating teachers does not mean that we cannot make 
progress in recognizing and rewarding excellent teachers, and creating 
incentives for them to help other teachers and serve the neediest 
students.
    One critical need is to identify highly effective teachers who can 
serve as mentors and master teachers and who might be recruited to 
high-need schools through a variety of incentives, including additional 
salary, improved teaching conditions, and opportunities to redesign 
schools so that they are more effective.
    Based on the experiences of districts that have worked to develop 
career ladders and innovative compensation systems, such teachers might 
be identified by requiring districts, in collaboration with the local 
teachers association, to construct a system which incorporates multiple 
measures of teacher performance to identify highly effective teachers, 
including:

    <bullet> Attainment of National Board Certification \3\ or superior 
performance on a teacher performance assessment, offered by the State 
or district, measuring standards known to be associated with student 
learning. Such standards-based teacher evaluations should include 
evaluation of teaching practices based on validated benchmarks 
conducted through classroom observations by expert peers or 
supervisors, as well as systematic collection of evidence about the 
teacher's planning, instruction, and assessment practices, work with 
parents and students, and contributions to the school.\4\
    <bullet> Contributions to student learning and other student 
outcomes, drawn from classroom assessments and documentation, including 
pre- and post-test measures of student learning in specific areas, 
evidence of student accomplishments in relation to teaching activities, 
and analysis of standardized test results, where appropriate.\5\ The 
evidence should include a wide range of learning outcomes and take 
student characteristics into account.

    Teachers eligible for master/mentor teacher designation should have 
met the Highly Qualified Teacher requirement under NCLB and have at 
least 4 years of successful teaching experience as evidenced by 
outstanding performance on regular teacher evaluations. These 
evaluations should be based on a portfolio of evidence about planning, 
teaching, and learning environments, as well as student learning, and 
classroom demonstrations of teaching excellence.
    Another need is to strengthen the evaluation process for all 
teachers so that it provides evidence of teachers' performance that is 
related to student learning. Improved teacher evaluation can be 
encouraged at both the State and local levels.
    At the district level, incentives should encourage districts to 
develop standards-based teacher evaluations that include evaluation of 
teaching practices based on validated benchmarks conducted through 
classroom observations by expert peers or supervisors, as well as 
systematic collection of evidence about the teacher's planning, 
instruction, and assessment practices, work with parents and students, 
and contributions to the school. This collection of evidence can 
include evidence of student learning and progress drawn from teacher 
documentation, student work samples, and classroom, district or State 
assessments, as appropriate.
    This portfolio of evidence about teacher performance should include 
practices that are associated with improvements in students' school 
performance and learning. For example, in addition to gains in student 
learning demonstrated through tests or assessments, a teacher might 
document how she increased student attendance or homework completion 
through regular parent conferences and calls home and show evidence of 
changes in these student outcomes, as well as other outcomes associated 
with them, such as improved grades, graduation, and college-going.
    In some systems, teachers receive stipends for demonstrating that 
they have implemented particular new practices associated with 
schoolwide or districtwide goals, such as the use of common literacy 
practices across classrooms, or the use of formative assessments in 
planning and modifying instruction, or the implementation of a new 
system of writing instruction. Where possible, these practices are 
documented along with evidence of how the changes have affected student 
participation and learning. The rationale for using these measures of 
effective teaching practices is that they support teacher development 
and schoolwide change initiatives, and are related to improvements in 
the conditions for student learning.
    At the State level, teacher performance assessments can be used to 
go beyond paper qualifications to evaluate teachers' ability to perform 
effectively in the classroom. Such assessments, modeled after the 
National Board assessments, are being used in teacher education or the 
early induction period as the basis for licensing recommendations in CA 
and CT. Beginning teachers' ratings on the Connecticut performance 
assessment have been found to significantly predict their students' 
value-added achievement on State tests \6\ and to help teachers improve 
their instruction and effectiveness. The assessments require teachers 
to document their plans and teaching for a unit of instruction, 
videotape and critique lessons, and collect and evaluate evidence of 
student learning. The Teach Act contains a provision to develop a 
nationally available beginning teacher performance assessment, based on 
these models, which could provide a useful measure of effectiveness for 
new teachers and could leverage stronger accountability and improvement 
in teacher education.

                               CONCLUSION

    In any of these systems, it will also be important to include 
evidence about the students being served and to consider their progress 
in appropriate ways. Evidence in medicine as well as teaching indicates 
that where assessments do not fairly represent professional practice, 
incentives can be created to avoid serving high-need clients, which 
works against the goals of the system. For example, mortality ratings 
for cardiac surgeons in one State were found to result in doctors 
referring very sick patients to other States, and to refuse service to 
needy patients with high levels of risk. Similarly, accountability 
based on test score ratings have led some schools to keep and push out 
low-scoring students. To create systems that measure and encourage 
teacher effectiveness, it is important to use multiple measures of 
practice, performance, and outcomes so that a more complete picture of 
practice emerges, so that assessments are fair and produce the right 
incentives, and so that educators are encouraged to improve what they 
do instead of trying to game an unfair system.

                                ENDNOTES

    \1\ For more detail about Denver, see http://denverprocomp.org. For 
more detail about the Minnesota plan see http://
www.educationminnesota.org/index.cfm? 
PAGE_ID-15003.
    \2\ Henry Braun, Using Student Progress to Evaluate Teachers: A 
Primer on Value-Added Models (Princeton, NJ: ETS, 2005), p. 17.
    \3\ A number of studies have found that the National Board 
Certification assessment process identifies teachers who are more 
effective than others who have not achieved certification. See for 
example, Bond, L., Smith, T., Baker, W., & Hattie, J. (2000). The 
certification system of the National Board for Professional Teaching 
Standards: A construct and consequential validity study (Greensboro, 
NC: Center for Educational Research and Evaluation); Cavaluzzo, L. 
(2004). Is National Board Certification an effective signal of teacher 
quality? (National Science Foundation No. REC-0107014). Alexandria, VA: 
The CNA Corporation; Goldhaber, D., & Anthony, E. (2005). Can teacher 
quality be effectively assessed? Seattle, WA: University of Washington 
and the Urban Institute; Smith, T., Gordon, B., Colby, S., & Wang, J. 
(2005). An examination of the relationship of the depth of student 
learning and National Board certification status (Office for Research 
on Teaching, Appalachian State University). Vandevoort, L. G., Amrein-
Beardsley, A., & Berliner, D. C. (2004). National Board certified 
teachers and their students' achievement. Education Policy Analysis 
Archives, 12 (46), 117.
    \4\ Standards-based teacher evaluations used by some districts have 
been found to be significantly related to student achievement gains for 
teachers and to help teachers improve their practice and effectiveness. 
See Milanowski, A.T., Kimball, S.M., White, B. (2004). The relationship 
between standards-based teacher evaluation scores and student 
achievement. University of Wisconsin-Madison: Consortium for Policy 
Research in Education. These systems for observing teachers' classroom 
practice are based on professional teaching standards grounded in 
research on teaching and learning. They use systematic observation 
protocols to examine teaching along a number of dimensions. The Denver 
compensation system, which uses such an evaluation system as one of its 
components, describes the features of its system as including: well-
developed rubrics articulating different levels of teacher performance; 
inter-rater reliability; a fall-to-spring evaluation cycle; and a peer 
and self-evaluation component.
    \5\ Measures of student learning in specific subject areas may be 
scored writing samples or reading samples, mathematics assessments, 
assessments of science or history knowledge, or even musical 
performances. These typically provide better measures of classroom 
learning in a specific course or subject area because they are 
curriculum-specific and can offer more authentic measures of student 
learning. They are also more likely to capture the effects of a 
particular teacher's instruction and be available for most students. In 
some schools, teachers use their own fall and spring classroom 
assessments (or pre- and post-unit assessments) as a way of gauging 
student progress. These measures can also be tailored for the learning 
goals of specific students (for example, special education students or 
English language learners.) As part of a portfolio of evidence, these 
measures can document teacher effectiveness in achieving specific 
curriculum goals. In Denver's system, teachers set two goals annually 
in collaboration with the principal, and document student progress 
toward these goals using district, school, or teacher-made assessments 
to show growth.
    \6\ Wilson, M. & Hallum, P.J. (2006). Using Student Achievement 
Test Scores as Evidence of External Validity for Indicators of Teacher 
Quality: Connecticut's Beginning Educator Support and Training Program. 
Berkeley, CA: University of California at Berkeley.

    [Whereupon, at 12:05 a.m., the hearing was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
